<html>
<title> - MISMANAGEMENT AND CONFLICTS OF INTEREST IN THE READING FIRST PROGRAM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                     MISMANAGEMENT AND CONFLICTS OF
                 INTEREST IN THE READING FIRST PROGRAM

=======================================================================



                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, APRIL 20, 2007

                               __________

                           Serial No. 110-22

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html



                     U.S. GOVERNMENT PRINTING OFFICE

34-496 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Bob Inglis, South Carolina
Raul M. Grijalva, Arizona            Cathy McMorris Rodgers, Washington
Timothy H. Bishop, New York          Kenny Marchant, Texas
Linda T. Sanchez, California         Tom Price, Georgia
John P. Sarbanes, Maryland           Luis G. Fortuno, Puerto Rico
Joe Sestak, Pennsylvania             Charles W. Boustany, Jr., 
David Loebsack, Iowa                     Louisiana
Mazie Hirono, Hawaii                 Virginia Foxx, North Carolina
Jason Altmire, Pennsylvania          John R. ``Randy'' Kuhl, Jr., New 
John A. Yarmuth, Kentucky                York
Phil Hare, Illinois                  Rob Bishop, Utah
Yvette D. Clarke, New York           David Davis, Tennessee
Joe Courtney, Connecticut            Timothy Walberg, Michigan
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 20, 2007...................................     1
Statement of Members:
    Altmire, Hon. Jason, a Representative in Congress from the 
      State of Pennsylvania, prepared statement of...............    84
    McKeon, Hon. Howard P. ``Buck,'' Senior Republican Member, 
      Committee on Education and Labor...........................     3
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Letters to witnesses.....................................    89
    Scott, Hon. Robert C. ``Bobby,'' a Representative in Congress 
      from the State of Virginia, additional questions for the 
      witnesses..................................................    86

Statement of Witnesses:
    Doherty, Christopher J., former program director for Reading 
      First, U.S. Department of Education........................    16
        Prepared statement of....................................    17
        Response to questions by Mr. Scott.......................    87
    Good, Roland, associate professor, University of Oregon......    20
        Prepared statement of....................................    21
    Higgins, John P., Inspector General, U.S. Department of 
      Education..................................................     6
        Prepared statement of....................................     9
        Response to questions posed by Mr. Miller................    84
        Internet addresses to various audit reports [Microsoft 
          Word documents]:
            ``The Reading First Program's Grant Application 
              Process, Final Inspection Report''.................    86
            ``RMC Research Corporation's Administration of the 
              Reading First Program Contracts, Final Audit 
              Report''...........................................    86
            ``The Department's Administration of Selected Aspects 
              of the Reading First Program, Final Audit Report''.    86
            In the form of a letter, dated January 18, 2007, 
              ``Review of the Georgia Reading First Program--
              Final Audit Report''...............................    86
            ``Audit of New York State Education Department's 
              Reading First Program, Final Audit Report''........    86
            In the form of a letter, dated October 20, 2006, 
              ``Wisconsin Department of Public Instruction's 
              Reading First Program--Final Audit Report''........    86
    Kame'enui, Edward, Commissioner of the National Center for 
      Special Education Research, U.S. Department of Education...    11
        Prepared statement of....................................    13
        Response to questions by Mr. Scott.......................    87
        Transcript edits received from...........................    92
    Lewis, Starr, associate commissioner, Kentucky Department of 
      Education..................................................    27
        Prepared statement of....................................    29
        Additional written testimony of..........................    31
        Follow-up testimony of...................................   100
    Simmons, Deborah C., professor of special education, Texas 
      A&M University.............................................    22
        Prepared statement of....................................    24
        Response to questions by Mr. Scott.......................    88
        Transcript edits received from...........................    96


  MISMANAGEMENT AND CONFLICTS OF INTEREST IN THE READING FIRST PROGRAM

                              ----------                              


                         Friday, April 20, 2007

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 9:00 a.m., in Room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Payne, Scott, 
Woolsey, Hinojosa, McCarthy, Tierney, Kucinich, Wu, Davis of 
California, Grijalva, Bishop of New York, Sarbanes, Sestak, 
Loebsack, Hirono, Altmire, Yarmuth, Hare, Clarke, Shea-Porter, 
McKeon, Castle, Wilson, Kuhl, and Heller.
    Staff present: Aaron Albright, Press Secretary; Tylease 
Alli, Hearing Clerk; Alice Cain, Senior Education Policy 
Advisor (K-12); Fran-Victoria Cox, Documents Clerk; Sarah 
Dyson, Administrative Assistant, Oversight; Amy Elverum, 
Legislative Fellow, Education; Michael Gaffin, Staff Assistant, 
Labor; Jeffrey Hancuff, Staff Assistant, Labor; Ryan Holden, 
Senior Investigator, Oversight; Lloyd Horwich, Policy Advisor 
for Subcommittee on Early Childhood, Elementary and Secretary 
Education; Thomas Kiley, Communications Director; Ann-Frances 
Lambert, Administrative Assistant to Director of Education 
Policy; Ricardo Martinez, Policy Advisor for Subcommittee on 
Higher Education, Lifelong Learning and Competitiveness; 
Stephanie Moore, General Counsel; Alex Nock, Deputy Staff 
Director; Joe Novotny, Chief Clerk; Rachel Racusen, Deputy 
Communications Director; Theda Zawaiza, Senior Disability 
Policy Advisor; Michael Zola, Chief Investigative Counsel, 
Oversight; Mark Zuckerman, Staff Director; James Bergeron, 
Counselor to the Chairman; Robert Borden, General Counsel; 
Kathryn Bruns, Legislative Assistant; Steve Forde, 
Communications Director; Taylor Hansen, Legislative Assistant; 
Victor Klatt, Staff Director; Chad Miller, Professional Staff; 
Susan Ross, Director of Education and Human Resources Policy; 
Linda Stevens, Chief Clerk/Assistant to the General Counsel; 
Sally Stroup, Deputy Staff Director; and Brad Thomas, 
Professional Staff Member.
    Chairman Miller [presiding]. The committee will come to 
order.
    Good morning to all the members and to the audience and to 
the witnesses.
    The purpose of the meeting this morning is to conduct a 
hearing on the mismanagement and conflicts of interest in the 
Reading First Program.
    I will begin with my opening statement.
    In 2002, as part of the No Child Left Behind Act, Congress 
established the Reading First Program to help young children 
become better readers.
    Under the Reading First program, the federal government 
provides grants to states to help them improve reading 
instruction. States may use this funding for a variety of 
purposes, including the purchase of: core reading curricula; 
programs to assess students' progress toward reading 
proficiency; and the intervention programs to help students who 
are falling behind in reading.
    In September 2006, the Education Department's inspector 
general issued the first six reports on the implementation of 
the Reading First Program. I am pleased that the inspector 
general is joining us today to discuss some of his findings. It 
is critically important that the committee has this opportunity 
to hear directly from the inspector general about them.
    The inspector general found a number of ways in which the 
Department of Education failed to act in the best interests of 
the taxpayers, the states, the schools and schoolchildren. The 
inspector general's first report showed that, in a number of 
cases, the Education Department officials and contractors with 
deep financial and personal connections to specific reading 
products inappropriately promoted those products over others.
    Rather than provide an even playing field on which high-
quality programs can compete based upon the just merits for 
business with the states, these officials and contractors 
created an uneven playing field that favored certain products. 
Indeed, we know of examples where states were essentially 
bullied to use those products in order to receive Reading First 
money.
    This uneven playing field was obviously unfair to the 
companies and the publishers that developed products that were 
out of favor with the Department of Education, but it was also 
unfair and costly to the states and school districts that were 
denied the opportunity to use their first-choice reading 
curricula and assessments.
    Today, we are going to hear from the former Reading First 
director Chris Doherty, who figured prominently in the 
inspector general's first report. We are also going to hear 
from reading experts who served on the Assessments committee 
that was set up to offer advice about which reading assessments 
the states could use under the law.
    We are going to learn about those experts' bias for 
specific reading assessment products and evaluate whether they 
were capable of being independent brokers in deciding which 
programs should receive funding under Reading First.
    The purpose of this hearing is not to evaluate the 
effectiveness or strengths or weaknesses of the Reading First 
Program. I support the Reading First Program, as do many of my 
colleagues on both sides of the aisle. As the committee works 
to reauthorize No Child Left Behind, we will evaluate the 
program to see what we can do to improve it.
    But there is no question that this mismanagement and these 
conflicts of interest undermined the program and the public's 
confidence in it. In reauthorization, this committee will act 
on legislation to explicitly prohibit these kinds of conflicts.
    When states and school districts and schools are bullied 
into using reading programs and assessments that were not their 
first choice or had a proven track record, then it meant that 
the officials in Washington, D.C., were overriding the informed 
decisions of local educators about what is best for their own 
students.
    Too many times in the Bush administration, we have seen 
examples of officials abusing the public trust and misusing tax 
dollars, and we have seen way too many examples of cronyism and 
conflicts of interest that have undermined the government's 
effectiveness.
    From the multibillion-dollar contracts at Halliburton in 
Iraq to the wasteful spending and gross mismanagement in the 
wake of Hurricane Katrina, this administration has simply 
failed to be accountable to taxpayers and the public.
    Now it appears that we can add Reading First--on which we 
have spent roughly $6 billion since 2002--to a long and growing 
list of instances where the administration is operating outside 
of the law, unaccountable to Congress and the American people.
    I do appreciate our witnesses who are here today and are 
prepared to discuss their roles in the implementation of 
Reading First. I want to assure them that the committee will 
give them each an opportunity to voice their perspective on 
this scandal. We consider their participation to be extremely 
informative and look forward to their testimony.
    With that, I would like to recognize the senior Republican 
of the committee, Mr. McKeon from California.
    Mr. McKeon. Thank you, Mr. Chairman, for convening this 
hearing.
    As you know, we are in the midst of an extensive series of 
hearings on the No Child Left Behind Act, a series that began 
about a year ago when you and I announced our aggressive plan 
to lay the background for reauthorization. While today's 
hearing may be structured differently than many of the NCLB 
hearings we have held during the past year, the subject at hand 
today is just as important to the law's reauthorization as the 
subjects of any of the other hearings we have had during this 
series.
    Mr. Chairman, you and I and many other members of this 
committee embraced Reading First when we crafted NCLB in 2001 
because we agreed it was time for our nation to commit to 
scientifically based reading instruction as part of our broader 
effort to provide a high-quality education to every single 
child.
    Six years later, the program appears to be on its way to 
achieving the results we had hoped for. Knowing this is welcome 
news, considering the fact that we spend a billion dollars a 
year on this program. Though the outcomes of Reading First have 
been strong, I had hoped that the Department of Education would 
have been more effective in managing and staffing this program.
    As all of us know, however, for a period of years, the 
management quality of this program did not rise to the high 
level of the results it has consistently produced for our 
nation's students. The responsibility for these shortcomings 
lies squarely at the feet of the Department of Education, a 
responsibility the secretary accepted quickly and without 
hesitation.
    Now it is our responsibility to provide thorough and fair 
congressional oversight on this issue. My goal for this 
hearing--and any others that may follow--is very simple, and I 
hope my colleagues share it: to make the Reading First Program 
even better.
    Today, we will look more deeply into the management of this 
program, how it has been assessed and, most importantly, what 
we can do to ensure the Department of Education corrects 
problems identified by its inspector general and by this 
committee.
    Yesterday, in order to begin this process and ensure we 
remain focused on improving the Reading First Program, I 
introduced comprehensive legislation that takes key 
recommendations of the inspector general and makes them the law 
of the land.
    The Reading First Program is too important and too 
successful to allow it to fall prey to management questions. By 
codifying many of the inspector general's recommendations, we 
will ensure these management issues are dealt with in the law 
itself so the program can continue to achieve positive results 
in practice.
    Among a host of other reforms, the Reading First 
Improvement Act will require the secretary of education to 
explicitly screen for conflicts of interest among Reading First 
peer reviewers; ensure that any Reading First contracts the 
Education Department enters into include provisions requiring 
contractors and subcontractors to screen for potential 
conflicts of interest; and reinforce the provisions found in 
NCLB and other federal laws that prohibit the Department of 
Education from dictating curriculum to local schools.
    Many of these reforms already have been embraced by the 
Department of Education, and I applaud that. However, it is our 
responsibility to ensure that they remain permanent, regardless 
of which administration is in office, and for that reason, it 
is best addressed legislatively as part of the NCLB's 
reauthorization.
    Mr. Chairman, I believe these are common-sense steps we can 
get behind and build upon in a bipartisan way. I urge my 
colleagues to enjoy me in supporting the Reading First 
Improvement Act and setting these important reforms into 
motion.
    When the first inspector general report was released last 
fall, I committed to a thorough and fair oversight hearing of 
Reading First management, and now that the investigation is 
complete, I am pleased that we can begin that process.
    Again, Mr. Chairman, I thank you for holding this hearing 
today.
    And thank you to each of our witnesses for joining us this 
morning.
    Chairman Miller. I thank the gentleman.
    I want to say that pursuant to committee rule 12, any 
member may submit an opening statement in writing which will be 
made part of the permanent record, and without objection, all 
members will have 14 days to submit additional materials for 
the hearing record.
    I would just to comment on Mr. McKeon's statement. I 
appreciate his recommendations and look forward to working with 
him on those. I think it shows that the inspector general's 
report has already had an impact and has provided some guidance 
to us about what we can do to remedy the situation that is the 
subject of this hearing. I appreciate his contribution in that 
effort to start putting forth those reforms.
    Before proceeding to introducing our witnesses, let me lay 
out the process we will follow generally in investigative 
hearings and specifically in this hearing.
    An investigative hearing differs from a legislative or 
oversight hearing in that investigations may involve 
allegations of public officials acting in an official capacity 
or private citizens or any of these who have engaged in certain 
conduct that may suggest the need for legislative remedy.
    Because of the importance of getting complete, full and 
truthful testimony, witnesses in investigative hearings before 
the committees of Congress are sworn in. Our witnesses will be 
sworn in today.
    I understand that some witnesses, as is their right, are 
accompanied by counsel. While counsel are welcome to advise 
their clients, they may not coach them or answer questions on 
their behalf.
    House rule 11(2)(k)(4) authorizes the chairman of the 
committee to punish breaches or order, decorum or professional 
ethics on part of counsel by censure or exclusion from the 
hearings or the committee may cite offenders to the House for 
contempt. I will not tolerate tactics designed to disrupt the 
purposes of this hearing.
    To ensure that we have ample opportunity to flesh out all 
the relevant facts in the record, I am exercising my 
prerogative as chair pursuant to committee rule (2)(b) to 
extend the 5-minute rule for myself and Mr. McKeon. Following 
the witnesses' testimony, we will each engage in two 15-minute 
rounds of questioning, after which members may participate in 
the 5-minute rule.
    I would like now to introduce our panel of witnesses.
    First is Mr. John P. Higgins. He is the inspector general 
of the U.S. Department of Education. Mr. Higgins has served in 
a number of senior management positions in the Department of 
Education and its predecessor, the Department of Health and 
Education and Welfare during more than 38 years of federal 
service. He became the deputy inspector general of the 
Department of Education in January 1996 and was nominated by 
President Bush on September 18, 2002, to become inspector 
general. He will be accompanied by Mr. Rasa, also of the 
inspector general's office.
    Mr. Edward Kame'enui--is it close?--currently serves as a 
commissioner for special education research at the Institute of 
Education Sciences at the Department of Education. Prior to 
joining IES, Dr. Kame'enui worked at the University of Oregon 
where he was a faculty member for 17 years. During his tenure 
with the University of Oregon, he directed and co directed 
numerous state research and training grants, including Oregon 
Reading First Center and the Western Regional Reading First 
Technical Assistance Center. He has served as a multitude of 
national committees, review panels and research boards in 
general and in special education, and has published 
extensively. Mr. Kame'enui holds a bachelor's of arts at 
Pacific University and holds a master's and Ph.D. in special 
education from the University of Oregon.
    Christopher Doherty worked for the U.S. Department of 
Education from 2004 to 2006 as a program director for Reading 
First. Prior to joining the department, Mr. Doherty served as 
executive director of the Baltimore Curriculum Project, a 
nonprofit organization that operates inner city public charter 
schools.
    Dr. Roland Good is currently an associate professor at the 
University of Oregon. His focus includes early literacy 
research, measurement statistics and research design. For the 
past 19 years, he has led a program of research and development 
culminating in the Dynamic Indicators of Basic Early Literacy 
Skills, known as DIBELS for the purposes of this hearing, and 
the DIBELS data system. He is also the principal and co-founder 
of Dynamic Measurement Group, an educational company that, 
among other things, provides professional development on 
DIBELS. Mr. Good holds a doctorate from Pennsylvania State 
University.
    Dr. Deborah Simmons is a professor of special education at 
Texas A&M University. She was a speech pathologist and a 
special educator in the public schools for 10 years prior to 
earning her doctorate degree in special education and reading. 
She conducts research to prevent and intercept reading 
difficulties. Dr. Simmons has published extensively in her 
areas of expertise.
    Starr Lewis is the associate commissioner of the Office of 
Teaching and Learning in the Kentucky Department of Education. 
The Office of Teaching and Learning is responsible for 
curriculum areas for early childhood through high school. As 
associate commissioner, Ms. Lewis is responsible for leading 
the state's efforts during the Reading First grant-writing 
phase and implementation. Ms. Lewis has received a BA from the 
University of Kentucky and her master's in teaching from the 
University of Louisville. Before joining the Kentucky 
Department of Education, Ms. Lewis taught English and 
psychology for 17 years.
    For those of you who have not testified here before, let me 
explain the lighting system that will be on in front of you. 
When you begin your testimony, the light will be green, and 
when you see a yellow light, it means you have roughly 1 minute 
to wrap up your remarks in that remaining time. When the light 
turns red, your time has expired and you need to conclude your 
testimony.
    Please be certain, as you testify, to turn on and speak 
into the microphone in front of you.
    At this point, I would like each of you to stand and to 
raise your right hand for the purpose of being sworn before the 
committee. [Witnesses sworn.]
    Mr. Higgins, we will now hear from you. Welcome to the 
committee, and thank you for your work.

        TESTIMONY OF JOHN P. HIGGINS, INSPECTOR GENERAL,
                  U.S. DEPARTMENT OF EDUCATION

    Mr. Higgins. Mr. Chairman and members of the committee, 
thank you for the opportunity to testify on the work of my 
office.
    Reading First is a $1-billion-per-year program that was 
established to provide kindergarten through third grade reading 
programs based on scientifically based reading research. The 
goal of the program is to ensure that every student can read at 
grade level or above by the end of the third grade.
    In May of 2005, my office began receiving allegations about 
Reading First. The allegations indicated that the department 
was promoting and excluding specific programs and assessments, 
as well as using consultants with ties to these programs and 
assessments. As a result, we decided to perform a series of six 
reviews. My comments today will focus on the work we performed 
at the department.
    To put our work in context, it is important to understand 
that the Department of Education's Organization Act prohibits 
department officials from exercising any control over the 
curriculum of a school. In addition, the No Child Left Behind 
Act includes a similar prohibition.
    Through our work, we found that the department: one, 
appeared to have inappropriately influenced the use of certain 
programs and assessments; two, failed to comply with the 
statutory requirements and its own guidance; three, obscured 
the requirements of the statute; and four, created an 
environment that allowed real and perceived conflicts of 
interest.
    First, with regard to the inappropriate influence, we found 
that the department allowed certain activities that led, in 
part, to a perception that there was an approved list of 
reading programs and assessments. Let me highlight for you some 
of the activities that led to this perception.
    The department and the National Institute for Literacy 
sponsored three Reading Leadership Academies. These academies 
were designed to assist the states in preparing Reading First 
applications. The department exercised control over the content 
and the presenters for the academies.
    Of 10 ``Theory to Practice'' presentations, six contained 
information on the Direct Instruction Program.
    Chairman Miller. Mr. Higgins, if I might, if you could pull 
your microphone a little bit closer to you?
    Mr. Higgins. Okay.
    Chairman Miller. Thank you.
    Mr. Higgins. Let's see. Where was I?
    Of the 10 ``Theory to Practice'' presentations, six 
contained information on the Direct Instruction Program. The 
luncheon speaker for two of the academies also focused on 
Direct Instruction. Some academy participants expressed 
concerns about the content of the sessions. One participant 
indicated, ``I felt like it was a Direct Instruction sales 
pitch.''
    The Reading First statute requires the use of reading 
assessments. Each participant at the Reading Leadership 
Academies was provided a handbook that included an article 
featuring one reading assessment called DIBELS. Later, the 
department published a guidebook, which also contains an 
article featuring DIBELS.
    While other assessment instruments were listed in the 
handbook and the guide, only DIBELS was featured in an article 
in both books. Not surprisingly, 43 states indicated that they 
would use DIBELS as one of their assessments.
    In addition, we found that the department inappropriately 
arranged to have a report on assessments publicized. The 
National Institute for Literacy contracted with the University 
of Oregon to perform a review of assessments. Out of the 
hundreds of assessments available for the review, the 
University reviewed 29 and found 24 of them to be acceptable. 
Seven of the 24 were tied directly to people working on the 
review.
    The National Institute for Literacy decided not to issue 
their final report because it might appear as if they were 
endorsing products. However, the department, without 
coordinating with the National Institute for Literacy, directed 
the author of the report, who worked at the University of 
Oregon, to post it on the university's Web site.
    We also identified instances where department officials 
intervened with regard to reading programs and assessments 
being selected by states. In some instances, department 
officials and their representatives worked to influence states 
to select specific programs or assessments. These instances of 
intervention concerned Direct Instruction and DIBELS.
    In other instances, the department officials worked to 
influence states to not select specific programs. These 
instances of intervention included programs such as Rigby, 
Reading Recovery and Wright Group. However, the department 
never documented its assertions that these programs were not 
aligned with scientifically based reading research.
    Second, we found that the department did not comply with 
the Reading First statute or its own guidance. Again, let me 
highlight for you the information that led us to this 
conclusion.
    The Reading First statute called for a balanced panel to 
review applications. The department and three other 
organizations were to each select at least three experts for 
the panel. Senior department officials decided to use subpanels 
for the review process and to create an advisory and oversight 
panel'' with three representatives from each of the 
organizations required by the statute.
    However, the advisory and oversight panel concept was never 
implemented. As a result, the process used by the department 
was not in accordance with the requirements of the statute, 
since none of the subpanels created by the department included 
representation from each of the required organizations.
    We also identified evidence that the Reading First director 
personally nominated three individuals for sub-panels who had 
professional connections to Direct Instruction. These three 
individuals reviewed 23 state applications. In choosing 
individuals to serve on the subpanels, the Reading First 
director showed a strong bias for those he knew supported 
Direct Instruction and a strong bias against those who favored 
Reading Recovery.
    We also found problems with how the department communicated 
the panelists' comments. Although the panelists adequately 
documented their reasons for stating that an application was 
not ready for funding, this documentation was not provided to 
the states as called for by the department's guidance. Instead, 
the department created a document in which it changed 
panelists' comments, left off comments and added comments of 
its own. The new document was the only document that was 
provided to the states.
    Third, we found that the department obscured the 
requirements of the statute by inappropriately including and 
excluding standards in the application criteria. Emails from 
the Reading First director indicated that this was done in 
order to help the states understand what he wanted Reading 
First classrooms to look like.
    Finally, the department did not place an appropriate level 
of emphasis on issues of conflict of interest. This can be seen 
in two specific areas.
    First, the screening process that the department created 
for the subpanels that reviewed applications was not effective. 
The department did not ask panelists about their impartiality. 
In addition, the department did not review the panelists' 
resumes for potential conflicts of interest.
    Second, the department's contractor, RMC Research 
Corporation, did not adequately address conflicts of interest. 
The department used RMC to provide technical assistance to 
states and to assist the states in preparing applications. 
However, RMC did not ensure that the organizational conflict of 
interest clauses were included in the agreements of the 
consultants.
    In addition, neither the department nor RMC adequately 
vetted technical assistance consultants for potential biases. 
As a result, we noted connections between individuals and 
organizations that presented an appearance of impaired 
objectivity.
    In conclusion, our work showed that the department did not 
comply with the Reading First statute regarding the composition 
of the application review panel and the criteria for acceptable 
programs. Further, the department's actions created an 
appearance that it may have violated statutory provisions that 
prohibit it from influencing the curriculum of schools.
    However, because department officials often justified their 
bias against particular programs by saying the programs were 
not aligned with scientifically based reading research, I 
cannot say with certainty that these statutes were violated 
since we did not assess whether the particular programs were 
based on scientifically based research or not.
    Based on our work, we made a number of recommendations to 
the department, which it accepted. We also suggest that the 
department consider clarifying whether reading programs need to 
have scientific evidence of effectiveness in order to be 
eligible for funding under the Reading First Program and 
clarifying conflict of interest requirements in federally 
funded programs.
    That concludes my statement, and I would be happy to answer 
any questions.
    [The statement of Mr. Higgins follows:]

     Prepared Statement of John P. Higgins, Jr., Inspector General,
                      U.S. Department of Education

    Mr. Chairman and Members of the Committee: thank you for the 
opportunity to testify on the work of my office.
    Reading First is a $1 billion per year program that was established 
to provide kindergarten through third grade reading programs based on 
scientifically based reading research. The goal of the program is to 
ensure that every student can read at grade level or above by the end 
of the third grade.
    In May 2005, my office began receiving allegations about Reading 
First. The allegations indicated that the Department was promoting and 
excluding specific programs and assessments, as well as using 
consultants with ties to these programs and assessments. As a result, 
we decided to perform a series of six reviews. My comments today will 
focus on the work we performed at the Department.
    To put our work in context, it is important to understand that the 
Department of Education's Organization Act prohibits Department 
officials from exercising any control over the curriculum of a school. 
In addition, the No Child Left Behind Act includes a similar 
prohibition.
    Through our work, we found that the Department:
    1) appeared to inappropriately influence the use of certain 
programs and assessments;
    2) failed to comply with statutory requirements and its own 
guidance;
    3) obscured the requirements of the statute; and
    4) created an environment that allowed real and perceived conflicts 
of interest.
    First, with regard to inappropriate influence, we found that the 
Department allowed certain activities that led, in part, to a 
perception that there was an approved list of reading programs and 
assessments. Let me highlight for you some of the activities that led 
to this perception:
    The Department and the National Institute for Literacy sponsored 
three Reading Leadership Academies. These Academies were designed to 
assist the states in preparing Reading First applications. The 
Department exercised control over the content and presenters for the 
Academies. Of 10 ``Theory to Practice'' presentations, 6 contained 
information on the Direct Instruction program. The luncheon speaker for 
two of the Academies also focused on Direct Instruction. Some Academy 
participants expressed concerns about the content of the sessions. One 
commenter indicated, ``I felt like I was in a Direct Instruction sales 
pitch all day.''
    The Reading First statute requires the use of reading assessments. 
Each participant at the Reading Leadership Academies was provided with 
a Handbook that included an article featuring one reading assessment 
called DIBELS. Later, the Department published a Guidebook, which also 
contained the article featuring DIBELS. While other assessment 
instruments were listed in the Handbook and Guidebook, only DIBELS was 
featured in an article in both books. Not surprisingly, 43 states 
indicated that they would use DIBELS as one of their assessments.
    In addition, we found that the Department inappropriately arranged 
to have a report on assessments publicized. The National Institute for 
Literacy contracted with the University of Oregon to perform a review 
of assessments. Out of the hundreds of assessments available for 
review, the University reviewed 29 and found 24 of them to be 
acceptable; 7 of the 24 were tied directly to people working on the 
review. The National Institute for Literacy decided not to issue the 
final report because it might appear as if it were endorsing specific 
products. However, the Department, without coordinating with the 
National Institute for Literacy, directed the author of the report, who 
worked at the University of Oregon, to post it on the University's 
website.
    We also identified instances where Department officials intervened 
with regard to reading programs and assessments being selected by 
states. In some instances, Department officials and their 
representatives worked to influence states to select a specific program 
or assessment--these instances of intervention concerned Direct 
Instruction and DIBELS. In other instances, Department officials worked 
to influence states to not select specific programs--these instances of 
intervention included programs such as Rigby, Reading Recovery, and 
Wright Group. However, the Department never documented its assertions 
that these programs were not aligned with scientifically based reading 
research.
    Second, we found that the Department did not comply with the 
Reading First statute or its own guidance. Again, let me highlight for 
you the information that led us to this conclusion:
    The Reading First statute called for a balanced panel to review 
applications. The Department and three other organizations were to each 
select at least three experts for the panel. Senior Department 
officials decided to use sub-panels for the review process and to 
create an ``Advisory and Oversight Panel'' with three representatives 
from each of the organizations required by the statute. However, the 
Advisory and Oversight Panel concept was never implemented. As a 
result, the process used by the Department was not in accordance with 
the requirements of the statute, since none of the sub-panels created 
by the Department included representation from each of the required 
organizations.
    We also identified evidence that the Reading First Director 
personally nominated 3 individuals for the sub-panels who had 
professional connections to Direct Instruction--these 3 individuals 
reviewed 23 state applications. In choosing individuals to serve on the 
sub-panels, the Reading First Director showed a strong bias for those 
he knew supported Direct Instruction and a strong bias against those 
who favored Reading Recovery.
    We also found problems with how the Department communicated the 
panelists' comments. Although the panelists adequately documented their 
reasons for stating that an application was not ready for funding, this 
documentation was not provided to the states, as called for by the 
Department's guidance. Instead, the Department created a new document 
in which it changed panelists' comments, left off comments, and added 
comments of its own. This new document was the only document that was 
provided to the states.
    Third, we found that the Department obscured the requirements of 
the statute by inappropriately including and excluding standards in the 
application criteria. Emails from the Reading First Director indicated 
that this was done in order to help the states understand what he 
wanted Reading First classrooms to look like.
    Finally, the Department did not place an appropriate level of 
emphasis on the issue of conflict of interest. This can be seen in two 
specific areas:
    First, the screening process the Department created for the sub-
panels that reviewed applications was not effective. The Department did 
not ask panelists about their impartiality. In addition, the Department 
did not review the panelists' resumes for potential conflicts of 
interest.
    Second, the Department's contractor, RMC Research Corporation, did 
not adequately address conflict of interest issues. The Department used 
RMC to provide technical assistance to states and to assist the states 
in preparing applications. However, RMC did not ensure that 
organizational conflict of interest clauses were included in its 
agreements with consultants. In addition, neither the Department nor 
RMC adequately vetted technical assistance consultants for potential 
bias. As a result, we noted connections between individuals and 
organizations that presented the appearance of bias and impaired 
objectivity.
    In conclusion, our work showed that the Department did not comply 
with the Reading First statute regarding the composition of the 
application review panel and criteria for acceptable programs. Further, 
the Department's actions created an appearance that it may have 
violated statutory provisions that prohibit it from influencing the 
curriculum of schools. However, because Department officials often 
justified their bias against particular programs by saying the programs 
were not aligned with scientifically based reading research, I cannot 
say with certainty that these statutes were violated since we did not 
assess whether particular programs were based on scientifically based 
reading research.
    Based on our work, we made a number of recommendations to the 
Department, which it accepted. We also suggest that Congress consider 
clarifying whether reading programs need to have scientific evidence of 
effectiveness in order to be eligible for funding under Reading First 
and clarifying conflict of interest requirements in federally funded 
programs.
    This concludes my statement. I would be happy to answer any 
questions.
                                 ______
                                 
    Chairman Miller. Thank you very much for your statement. 
And, again, as I said earlier, thank you very much for all of 
your work and the work of your office and staff on the reports 
that you did on Reading First.
    Mr. Kame'enui, your statement?

  TESTIMONY OF EDWARD KAME'ENUI, COMMISSIONER OF THE NATIONAL 
   CENTER FOR SPECIAL EDUCATION RESEARCH, U.S. DEPARTMENT OF 
                           EDUCATION

    Mr. Kame'enui. Chairman Miller, Ranking Member McKeon, 
distinguished members of the committee, I want to thank the 
committee for asking me to testify today to explain my 
involvement in the design and implementation of the Reading 
First Program.
    The Reading First legislation introduced a transforming 
requirement. Instead of allowing states to receive funds based 
solely on need, this law asked states to describe how they 
would use evidence or scientifically based reading research to 
mount a systematic and sustained effort to improve literacy in 
the nation's most challenging schools.
    This immense effort required clear and unflinching 
leadership which it received because it asked states, districts 
and schools to take inventory of their current efforts in 
teaching beginning reading and, in doing so, either change or 
modify what they were doing. It meant that states and school 
districts competing for Reading First funds had to select and 
implement reading assessments and curricula based on scientific 
evidence.
    This transformation from entitlement to scientific 
accountability, akin to a Kuhnian paradigmatic shift, has been 
difficult for everyone--teachers, administrators, school board 
members and other stakeholders in states, districts and 
schools, including the U.S. Department of Education.
    After all, how were states to know what beginning reading 
assessments were valid, reliable and scientifically based? How 
were they to know which beginning reading programs were based 
on the best available science? Whose science and what 
evidentiary standards were education officials to use in 
carrying out these basic teaching and administrative tasks?
    To ensure the success of this initiative, it was imperative 
that answers to these questions be provided in a short and 
condensed period of time to comply with the timetable provided 
in the legislation. As such, it was necessary to rely on 
researchers from around the country who possessed the knowledge 
and expertise to do the work.
    With perfect hindsight and given the scope of the ongoing 
inquiries it is now clear that more should have been required 
by the U.S. Department of Education and others involved in the 
program, including me, to prevent the issues that have arisen.
    My involvement in the Reading First Program began in August 
2001. At that time, I was asked by the Department of Education 
through a colleague to put together a committee charged with 
the responsibility of developing both a process and a product 
that would provide assistance to state and local education 
agencies in selecting reading assessment measures.
    To respond to this request, I selected seven researchers to 
develop and apply a process, criteria, decision rules and 
procedures for identifying reading assessment instruments 
designed for screening, diagnosis, progress monitoring and 
outcome evaluation. In a period of 8 months, September 2001 to 
May 2002, my colleagues and I completed this unforgiving task.
    In doing so, the committee reviewed more than 100 
assessment measures and selected 29 they judged to be the most 
frequently used instruments and readily available for review. 
In selecting some of the best experts in the country, it is not 
surprising that those experts would also be authors of popular 
and innovative assessment tools, which the committee as a whole 
selected to review.
    It is also important to note that it was our understanding 
at the time that more assessment measures would be reviewed and 
that technical assistance to support states in the continued 
review and selection of assessment tools would be ongoing.
    What lessons did we learn from this experience?
    On the technical side of this experience, we learned that 
if high and rigorous standards were maintained for judging 
trustworthiness, very few tests would meet those standards. 
Because so many tests failed to provide information about the 
required technical features, the committee adopted a set of 
minimum standards of trustworthiness with the goal of providing 
the field with the best of what was available at the time.
    On the non-technical side, I want to note that at the 
outset we took steps to avoid any conflict of interest, even 
though we received no guidance, explicit or implicit, from the 
contractor or the U.S. Department of Education in this regard. 
As researchers, we employed traditional academic standards in 
reviewing and adjudicating the research and technical evidence.
    The standards we used required each committee member to 
disclose his or her proprietary interest in assessment 
instruments and to not review those particular instruments. 
Moreover, committee members did not discuss as a group the 
ratings of any of the assessments. In addition, I would like to 
note that neither I, nor any member of the committee that I 
know of, violated the conflict of interest procedures that we 
had established.
    However, knowing now what various questions have been 
raised about the appearance of conflicts, it is apparent that 
we should have required a different set of standards than the 
traditional academic standards, such as formalized procedures 
for defining and identifying conflicts and even appearances of 
conflicts.
    In conclusion, it is my sincere hope that issues regarding 
conflicts of interest procedures that have arisen in the 
implementation of Reading First do not irreparably tarnish this 
important and unprecedented federal program. These issues 
should not diminish the supreme importance in continuing to use 
rigorous, scientifically based evidence in making educational 
decisions.
    Thank you.
    [The statement of Mr. Kame'enui follows:]

         Prepared Statement of Edward J. Kame'enui, Professor,
               College of Education, University of Oregon

    I want to thank the Committee for asking me to testify today to 
explain my involvement in the ``design and implementation of the 
Reading First Program.'' I do so today with the genuine desire that my 
testimony will assist this Committee both in learning the true facts 
behind the development of some important aspects of this Program and in 
instituting any necessary changes to ensure the continued viability of 
this important and unprecedented federal program.
    The Reading First legislation introduced a transforming 
requirement, instead of allowing States to receive funds based solely 
on need, for the very first time this law asked States to describe how 
they would use evidence or ``scientifically based reading research'' to 
mount a systematic and sustained effort to improve literacy in the 
nation's most challenging schools. This immense effort required States, 
districts and schools to take inventory of their current efforts in 
teaching beginning reading, and in doing so, either change or modify 
what they were doing. In some cases, this change occurred at an 
unprecedented scale that provoked a transformation in the professional 
and ideational culture of schools, districts and, in some cases, 
states. It meant that states and school districts competing for Reading 
First funds had to select and implement reading assessments and 
curricula based on scientific evidence. This transformation from 
entitlement to ``scientific'' accountability akin to a Kuhnian 
paradigmatic shift, has been difficult for everyone--teachers, 
administrators, school board members, and other stakeholders in States, 
districts, and schools, including the U.S. Department of Education. 
After all, how were States to know what beginning reading assessments 
were valid, reliable and scientifically based? How were they to know 
which beginning reading programs were based on the best available 
science? Whose science and what evidentiary standards of science were 
education officials to use in carrying out these basic teaching and 
administrative tasks?
    To ensure the success of this initiative, it was imperative that 
answers to these questions be provided in a short and condensed period 
of time to comply with the timetable provided in the legislation. As 
such, it was necessary to rely on researchers from around the country 
who possessed the knowledge and expertise to do the work. With perfect 
hindsight, and given the scope of the ongoing inquiries, it is now 
clear that more should have been required by the U. S. Department of 
Education and others involved in the program, including me, to prevent 
the issues that have arisen.
    My involvement in the Reading First Program began in August 2001. 
At that time, I was asked by the Department of Education, initially 
through a colleague, to put together a committee charged with the 
responsibility of developing both a process and a product that would 
provide assistance to State and local educational agencies in selecting 
``screening, diagnosis, and classroom-based instructional reading 
assessments'' called for by the Reading First legislation. To respond 
to this request, I selected seven researchers to develop and apply a 
process, criteria, decision rules and procedures for identifying 
reading assessment instruments designed for screening, diagnosis, 
progress monitoring, and outcome evaluation. The need for such a 
committee may strike those uninitiated to education as peculiar. After 
all, one could ask, wasn't this information already established, 
available and used widely? The short answer is no.
    In a period of eight months (September, 2001 to May, 2002), my 
colleagues and I developed operational definitions of the five 
``essential components of reading instruction'' as specified in the 
2002 No Child Left Behind (NCLB) legislation.\1\ These five essential 
components are phonemic awareness, phonics, vocabulary, fluency and 
reading comprehension. We also developed operational definitions of the 
four ways to evaluate how well children read, which include screening, 
diagnosis, progress monitoring, and outcome evaluation. The five 
essential components of reading instruction and the four purposes of 
assessment also had to be considered in the context of four grade 
levels--Kindergarten through Grade 3 (K-3). In addition, we developed a 
34-page coding form that permitted independent reviewers to code the 
technical information found in the test manuals of the reading 
assessment measures. As an aside, the independent reviewers spent an 
average of 6-12 hours coding the technical information for each of 
these tests. Finally, using the coded information, six members of the 
committee were paired into three teams to judge the ``trustworthiness'' 
or sufficiency of the technical information for each of the assessment 
measures. To select the assessment measures, the Committee reviewed 
more than a 100 assessment measures and selected 29 they judged to be 
the most popular and frequently used instruments and readily available 
for review. In selecting some of the best assessment experts in the 
country, it is not surprising that those experts would also be authors 
of popular and innovative assessment tools, which the committee as a 
whole selected to review. It is also important to note that it was our 
understanding at the time that more assessment measures would be 
reviewed and that technical assistance to support states in the 
continued review and selection of assessment tools would be ongoing.
---------------------------------------------------------------------------
    \1\ See No Child Left Behind Act of 2001, Pub. L. No. 107-110, 20 
U.S.C. Sec.  6368 (2007).
---------------------------------------------------------------------------
    What lessons did we learn from this experience? On the technical 
side of this experience, we learned that if high and rigorous standards 
were maintained for judging trustworthiness, very few tests would meet 
those standards. Because so many tests failed to provide information 
about the required technical features, the committee adopted a set of 
minimum standards of trustworthiness with the goal of providing the 
field with the best of what was available. Thus, measures were deemed 
to be trustworthy if they provided relevant data that met the minimal 
requirements.
    On the non-technical side, I want to note at the outset that we 
took steps to avoid any conflicts of interests, even though we received 
no guidance (explicit or implicit) from the contractor or the U.S. 
Department of Education in this regard. As researchers, we employed 
traditional academic standards in reviewing and adjudicating the 
research and technical evidence. The standards we used required each 
committee member to disclose his or her proprietary interest in 
assessment instruments, and to not review those particular instruments. 
Moreover, committee members did not discuss as a group the ratings of 
any of the assessment measures. In addition, I would like to note that 
neither I, nor any member of the committee that I know of, violated the 
conflicts of interests procedures that we had established. Instead, 
each Committee member recognized the importance of this work and went 
to extraordinary measures to ensure not only that the work was 
conducted and completed with integrity in a very short period of time, 
but that it was done without any conflicts of interests. However, 
knowing now the various questions that have been raised about the 
appearance of conflicts, it is apparent that we should have required a 
different set of standards than the traditional academic standards. 
There should have been more formalized procedures for defining and 
identifying conflicts and even appearances of conflicts. Moreover, we 
should have addressed those in as transparent a manner as possible to 
ensure the integrity of the process.
    In the future, to guard against the perception of conflicts of 
interests, I recommend that an independent entity, such as the National 
Research Council of the National Academy of Sciences, be charged with 
the oversight responsibility of this task. I further recommend that the 
Review Panel be comprised of researchers and technical experts who do 
not have any proprietary interests in any assessment tools, protocols, 
and websites or test publishing companies. In addition, I recommend 
that a clear and unambiguous set of guidelines with concrete examples 
be provided on what constitutes conflicts of interests. Such a process 
and guidance should ensure that real and perceived conflicts of 
interests are not an issue.
    In addition to my work on the Assessment Committee, I also served 
as the Director of the Oregon Reading First Center from September 1, 
2002 to July 1, 2005, a period of 2 years and 10 months, and Director 
of the Western Regional Reading First Technical Assistance Center 
(WRRFTAC) from October 1, 2003 to July 1, 2005, a period of 1 year and 
9 months. The Oregon Reading First Center was responsible for providing 
technical assistance to the State of Oregon's Reading First grant 
program. In contrast, the Western Regional Reading First Technical 
Assistance Center was responsible for providing technical assistance to 
the western states including, as I recall, Minnesota, Wisconsin, North 
and South Dakota and American Samoa. As Director of these two technical 
assistance centers, I was responsible for ensuring that States received 
technical support that reflected the most current scientifically based 
reading research available. Again, even in the absence of any explicit 
or implicit guidance from the U.S. Department of Education or the 
contractors on what constituted a conflict, we took traditional 
academic steps to avoid any conflicts of interests in providing 
technical assistance to States. For example, as an author of a reading 
intervention program for Kindergarten children, I never promoted or 
provided technical assistance on that program. Moreover, neither I, nor 
any staff members that I know of, violated the conflicts of interests 
standards that were common to our professional practice. Instead, staff 
members took significant measures to ensure not only that the work was 
conducted with respect and integrity, but also that it was done without 
any conflicts of interests.
    Much of the work of these technical assistance centers involves 
translating research into practical and useable instructional practices 
that teachers and administrators can implement immediately, and at 
scale. There is no textbook or driver's manual for doing this work, and 
doing it in a way that is accessible, sensible and engaging for 
teachers and administrators who face the realities everyday of teaching 
struggling readers to read. As such, my colleagues and I relied on our 
knowledge of the reading research and the collective experience we had 
gained from our previous work. Thus, for the record, I want to note the 
experience that I brought to my role as Director of these two technical 
assistance centers. For example, I was one of 17 members that served on 
the National Academy of Sciences' Committee on the Prevention of 
Reading Difficulties in Young Children, which produced the first 
``consensus'' report on reading problems in 1998, a report that 
pronounced, yet again, the importance of the teacher's role in teaching 
children to read in an alphabetic writing system. In addition, my 
colleague, Deb Simmons, and I wrote the Reading/Language Arts 
Curriculum Framework K-12 for the State of California, which served as 
a major influence at the time on publishers and other state reading 
initiatives. I was also actively involved in the implementation of the 
predecessors of Reading First, the Comprehensive School Reform Act, and 
the Reading Excellence Act, which were hallmarks of the Clinton 
Administration. Finally, some of the materials we used in our Reading 
First work were developed as part of a 10-year technical assistance 
center that I co-directed with my colleague, Dr. Douglas W. Carnine, 
from 1991 to 2002. This center, called the National Center to Improve 
the Tools of Educators (NCITE), was funded by the Office of Special 
Education Programs and had as its primary mission working directly with 
publishers and developers of reading, language arts and mathematics 
curricula to ensure that the needs of students with disabilities and 
low performers were considered in the design and architecture of these 
materials.
    In conclusion, it is my sincere hope that issues regarding 
conflicts of interest procedures that have arisen in the implementation 
of Reading First do not irreparably tarnish this important and 
unprecedented federal program. Without doubt, these issues do not 
diminish the supreme importance in continuing to use rigorous, 
scientifically based evidence in making educational decisions so that 
education can give all children, particularly those who struggle with 
reading, a foundation in literacy to not just finish high school and 
perform at a proficiency level on the nation's reading report card, but 
to flourish as imaginative and productive citizens. I speak for myself 
and I believe for my colleagues when I tell you that we had good 
intentions and worked very hard, and we even put in place our own 
standards for avoiding conflicts of interests. However, it is now clear 
that good intentions and hard work are not enough. To prevent issues 
like this from occurring in the future, rigorous evidence and stricter 
internal controls must guide these good intentions and hard work.
    The welfare of our children and our nation requires that we teach 
our children to read in an alphabetic writing system; it will not come 
naturally to them in the absence of good, scientifically based reading 
instruction. Likewise, the stewardship of the Reading First program 
must deliver on its promise to ensure that all children will become 
readers at the end of Grade 3.
                                 ______
                                 

 TESTIMONY OF CHRISTOPHER J. DOHERTY, FORMER PROGRAM DIRECTOR 
        FOR READING FIRST, U.S. DEPARTMENT OF EDUCATION

    Mr. Doherty. Chairman Miller, Ranking Member McKeon and 
members of the committee, than you for the opportunity to 
address you today about my role in the management and 
implementation of Reading First.
    I worked diligently for nearly 5 years to implement one of 
the largest educational initiatives ever undertaken by the 
federal government, and my sole motivation was to help the 
children of this country learn how to read. Reading First 
offers millions of our most disadvantaged children the benefit 
of effective early reading instruction. I took my 
responsibility toward these children seriously, and all my 
decisions were based on compliance with the law and maximizing 
Reading First's impact on children learning how to read.
    That these efforts were successful is evidenced by the 
performance of Reading First schools and in states' 
satisfaction with the implementation of the program, documented 
by multiple sources. Due to time constraints, I will not be 
able to discuss all of these sources here. However, I submitted 
a number of them with my written testimony.
    These facts notwithstanding, a distorted story has been 
written over the past few months based on the worst possible 
interpretation of events that occurred during the early days of 
Reading First. I am pleased to have the opportunity today to 
offer a different view of the program.
    The Reading First section of the No Child Left Behind law 
placed very clear requirements on the instructional materials 
that could be used. The statute details in numerous places that 
all instructional materials must be based on scientifically 
based reading research. This limitation was not added by the 
department; it is very prominent in the legislation crafted by 
this committee and authorized into law.
    The requirements of the law recognized that some 
instructional programs and materials are based on 
scientifically based reading research and some are not. The 
suggestion that has been put forth by some recently that it was 
inappropriate to question grantees about programs that did not 
appear to comply with the law is stunning. In fact, we were 
questioned by congressional committees in 2003 and again in 
2004 about what the department was doing to ensure that Reading 
First funding was not going to programs that were not aligned 
with the research.
    We never directed which particular scientifically based 
instructional materials states or districts must use. The point 
was to comply with the law and maximize Reading First's impact 
on children learning to read.
    States did not have to identify programs in their 
applications. They had only to identify the criteria they would 
use to select programs. Clearly, states got this message. Only 
three state educational agencies specifically identified the 
core reading programs that their districts would use in their 
Reading First applications.
    I believe Reading First has worked well because we insisted 
on faithful implementation of the law. It is making a real 
difference for states, districts and schools and, most 
importantly, children throughout the country. Reading First is 
the only No Child Left Behind program to receive an effective 
rating from the Office of Management and Budget. Only 17 
percent of federal programs reviewed across the government have 
received this highest rating.
    The data from Reading First schools, which have been 
painfully and surprisingly absent from this debate about the 
program's administration, speak for themselves. Based on the 
data available when I left the department and corroborated by 
new data released by the department yesterday, Reading First 
schools, which are, by definition, the most disadvantaged and 
lowest-performing schools in their states and districts, have 
shown dramatic gains on reading outcome measures across all 
grades and across all disaggregated subgroups.
    To give just one example of increases in state-level data, 
Arizona announced that academic gains had ``skyrocketed,'' 
their word, in its Reading First schools, with students in all 
grades K-3 making dramatic gains that far outpaced comparison 
schools. Arizona has seen the achievement gap close, the entire 
purpose of this historic No Child Left Behind Act. Ninety-seven 
percent of white students, 96 percent of Hispanic students and 
95 percent of Native American students in its Reading First 
schools finished first grade at grade level.
    Reports from both the Government Accountability Office and 
the Center on Education Policy show the high level of 
satisfaction that states had with the department's 
implementation of Reading First. States have not been silent in 
their criticism of many other components of No Child Left 
Behind. However, they credit Reading First with improvements in 
student achievement and have consistently spoken highly of the 
department's management of Reading First.
    I am proud of what the program has achieved and of my role 
in its implementation. I respected the chain of command at the 
Department of Education, receiving directives which I never had 
reason to question and keeping superiors informed about this 
high-profile, billion-dollar-a-year program which was under 
scrutiny from its inception.
    Did I take my responsibility for rigorous implementation of 
Reading First seriously? I respectfully and proudly tell you 
that yes, I did, because I wanted to ensure compliance with 
this law and maximize Reading First's impact on children 
learning how to read.
    I sincerely thank you for your attention.
    [The statement of Mr. Doherty follows:]

 Prepared Statement of Christopher J. Doherty, Former Program Director 
            for Reading First, U.S. Department of Education

    Chairman Miller, Ranking Member McKeown and Members of the 
Committee: Thank you for the opportunity to address you today about my 
role in the management and implementation of the Reading First program. 
I worked tirelessly for nearly five years to implement one of the 
largest educational initiatives ever undertaken by the Federal 
government, and my sole motivation was to help the children of this 
country learn how to read. Too many of our nation's children are denied 
the opportunity to achieve to their full potential because they do not 
become proficient readers. The Reading First program offers millions of 
our most disadvantaged children the benefit of effective early reading 
instruction, and the limitless possibilities that come with being a 
literate citizen.
    I took my responsibility toward these children seriously every day, 
and all decisions were based on compliance with the law and maximizing 
the program's impact on children learning how to read. That these 
efforts were successful is evidenced by the performance of Reading 
First schools and in states' satisfaction with the implementation of 
the program, documented by multiple sources. These facts 
notwithstanding, a distorted story has been written over the past few 
months based on the worst possible interpretation of events that 
occurred during the early days of the Reading First program. I am 
pleased to have the opportunity today to offer a different 
interpretation of those events, the one that I know to be true.
    The Reading First section of the No Child Left Behind law broke new 
ground for Federal education programs. This landmark legislation placed 
very clear requirements on the instructional materials that could be 
used in connection with the Reading First program. The statute details 
in numerous places that all instructional materials must be based on 
scientifically based reading research. This limitation was not added by 
the Department; it is very prominent in the legislation crafted by this 
Committee and authorized into law.
    Improving the quality of reading instruction in our nation's most 
disadvantaged schools is what the law charged us to do. The 
requirements of the law recognized that some instructional programs and 
materials are based on scientifically based reading research and some 
are not. The suggestion that has been put forth by some recently that 
it was inappropriate to question grantees about programs that did not 
appear to be based on scientifically based reading research is 
stunning. In fact, we were questioned by Congressional committees in 
2003 and again in 2004 about what the Department was doing to ensure 
that Reading First funding was not going to programs that were not 
aligned with the research.
    We did monitor implementation, and we did question the use of 
programs that did not appear to be based on scientifically based 
research. The point in doing this was never to direct which particular 
scientifically based instructional materials grantees or subgrantees 
must use--the point was to comply with the law and maximize the 
program's impact on children learning to read. The law was clear that 
programs must align with the research, and the research is clear that 
programs that are most effective in teaching children, especially 
disadvantaged children, how to read feature explicit and systematic 
instruction in five areas of phonemic awareness; phonics; fluency; 
vocabulary and comprehension. The importance of explicit and systematic 
instruction must be underscored--many vendors claim their programs are 
aligned with the research because they include the instructional 
components I just named. But a program is not aligned with the 
scientific findings about how children learn how to read if it does not 
include explicit and systematic instruction.
    The Department worked hard to dispel the belief held by some that 
there was a `secret' approved list of programs. It is asserted in the 
Inspector General's report that a practitioner panel during the 
Secretary's Reading Leadership Academies--one short session within a 
multi-day event--convinced states that they could only use the handful 
of programs identified during that panel. The Secretary's Academies 
were held in the earliest days of the program and were an introduction 
to scientifically based reading instruction. Although no mention is 
made of this any of the Inspector General reports, the Academies were 
followed by Writer's Workshops, attended by all the states, which were 
specifically about the Reading First application. The point was made 
repeatedly at the Writers' Workshops that there was no approved list of 
programs, and that states did not have to identify programs in their 
applications--they had only to identify the criteria they would use to 
select programs.
    There is clear evidence that states got this message--only three 
state educational agencies--California, Michigan, and American Samoa--
specifically identified the core reading programs that their 
subgrantees would use in their Reading First applications. It has been 
repeatedly and falsely asserted that the approval of Michigan's 
application sent a message to other states that they had to include 
certain programs in their applications. The fact is Michigan was among 
the first six states to receive its Reading First grant, and the other 
five states did not identify programs. It has been similarly asserted 
that the expert review panel tried to steer states toward certain 
programs, and would not recommend applications for approval until this 
occurred. The fact that only three states identified programs shows 
this simply did not happen.
    I believe much misunderstanding has arisen from confusion about the 
timing of events. The first Inspector's General report, which purports 
to be about the application review, includes events that occurred after 
states had begun to implement their approved plans. As I noted earlier, 
questioning of programs was done to ensure that grantees were complying 
with the requirements of the law. But no one was ever told they must 
use a certain program or programs instead of others.
    Much has also been made of the fact that a technical assistance 
provider appears to have become somewhat persistent in recommending a 
particular instructional assessment on two occasions. Yes, this 
occurred, and as the Inspector General's report shows, it was 
immediately addressed by the program office. Technical assistance 
providers had hundreds of contacts with states. That two isolated 
incidents of this kind could be identified among hundred of contacts is 
evidence of a very good track record of technical assistance, not a 
pervasive pattern of inappropriate activity.
    The same conclusions can be drawn about the Reading First program 
as a whole: while not perfect in every detail, the program has a very 
good track record. It has been well implemented and is making a real 
difference for states, districts, schools, and most importantly, 
children throughout the country. Reading First is one of only four 
Department of Education programs to receive an effective rating from 
the Office of Management and Budget--and the only program that is part 
of the No Child Left Behind Act to receive this distinguished rating. 
As you know, OMB's assessment is based on program performance and 
management, and only 17% of Federal programs reviewed across the 
government have received an effective rating.
    The data from Reading First schools--which have been painfully and 
surprisingly absent from this debate about the program's 
administration--speak for themselves. Reading First is a very large 
program--implemented in nearly six thousand schools--and despite its 
size there is clear evidence of its positive impact. Based on the data 
available when I left the Department, Reading First schools have shown 
dramatic gains on reading outcome measures across all grades and across 
all disaggregated subgroups. Sixty percent of third grade students in 
Reading First schools were reading at the proficient level on measures 
of reading comprehension--up from 28% when the program began, and as 
you know, Reading First schools are by definition the most 
disadvantaged and lowest performing schools in their districts and 
states.
    These impressive increases hold for all subgroups across the same 
time period--third grade economically disadvantaged students have 
increased from 20% to 58%; third grade English language learners from 
13 to 59%; and students with disabilities from 12 to 33%. To give just 
two of the many examples of increases in State level data--students in 
Reading First schools doubled the gains of non-Reading First schools in 
Washington State, despite the fact that the poverty rate in Reading 
First schools is more than twice the rate in non-Reading First schools. 
Arizona announced that academic gains had ``skyrocketed'' in its 
Reading First schools, with students in all grades K-3 making dramatic 
gains that far outpaced comparison schools. Arizona has also seen the 
achievement gap close--the entire purpose of the historic No Child Left 
Behind Act itself. 97% of white students, 96% of Hispanic students and 
95% of Native American students in its Reading First schools finished 
first grade at grade level. And the Bureau of Indian Affairs--which 
serves some of the highest needs schools and students in the country--
saw the percentage of students at benchmark increase from 28% to 50% in 
its first two years of Reading First implementation.
    There is also clear evidence of the high level of satisfaction 
states have with how Reading First has been implemented and its impact 
on students. Reports from both the Government Accountability Office and 
the Center on Education Policy show not only that the states credit 
Reading First with improvements in student achievement, but that the 
states were satisfied with the Department's implementation.
    What is perhaps most incongruous about the present controversy is 
that it has nothing to do with the success or failure of the program 
for America's children. The complaints against the program were made by 
a handful of vendors, not by the program's grantees or subgrantees. The 
Inspector General launched several extensive audits of Reading First 
based on these vendor complaints, and it became very clear early on 
that the Inspector General's findings of mismanagement were a foregone 
conclusion. I was presented with preliminary findings before I had a 
single interview with the auditors. False findings of this kind are 
perhaps unsurprising given the climate of mistrust that has afflicted 
government service in recent decades. As Steve Kelman of Harvard 
University noted in a recent Washington Post op-ed on the Inspector 
General Process, there is a consistent focus on the negative, on 
controls rather than creativity, and on documentation rather than 
performance. Any shred of evidence that seems to support the 
investigator's hypothesis--in this case a small number of regrettably 
coarse emails--can be elevated to the status of gospel.
    Let me conclude by returning to my original theme: Reading First 
has been an extremely successful program and its achievements for the 
nation's children did not happen by accident. They are a result of 
faithful implementation of the law and a desire to maximize the 
program's impact on children learning to read, both of which required 
ensuring that only instructional materials based on scientifically 
based reading research were used. I am proud of what the program has 
achieved and of my role in its implementation. My career has been 
devoted to public service--beginning in the foreign service, and then 
working to improve educational opportunities for disadvantaged children 
in Baltimore. This included being the first director of the Baraka 
School in Kenya, the subject of the award-winning documentary ``The 
Boys of Baraka.''
    When I was asked to serve as director of Reading First, I was 
honored and humbled by the importance and magnitude of the task. I 
endeavored always to fulfill my role with integrity. I respected the 
chain of command at the Department of Education, faithfully executing 
orders from superiors, which I never had reason to question, and 
keeping superiors informed about the program. The suggestion that 
Reading First was mismanaged has deeply hurt me and my family and is 
completely unfounded.
    Did I take my responsibility for rigorous implementation of this 
program seriously? I respectfully and proudly tell you that, yes, I 
did, because I wanted to ensure compliance with the law, and maximize 
the program's impact on children learning how to read. I am pleased to 
report that the effort has been a success. I can only hope that more 
children will learn to read as a result of this vitally important 
program in the years ahead.
    Thank you for your attention.
                                 ______
                                 

 TESTIMONY OF ROLAND GOOD, ASSOCIATE PROFESSOR, UNIVERSITY OF 
                             OREGON

    Mr. Good. Chairman Miller and members of the committee, 
thank you very much for the opportunity come here and 
participate in clarifying the record about our involvement in 
Reading First. I have submitted written testimony, and I would 
like to summarize and elaborate on that today.
    First, I think that Reading First has been a remarkable and 
incredible bipartisan effort across Democrats and Republicans 
to make a much needed change in reading outcomes for our 
children and especially for the children who are most at risk, 
our poor and children from diverse backgrounds.
    I am a professor at the University of Oregon. For about the 
last 20 years or so, I have been doing research and teaching 
and presenting on reading with particular emphasis on reading 
assessment, especially around the areas of early literacy and 
of a prevention-oriented model to ensure that all of our 
children are on track.
    Very early in the Reading First process, I was invited to 
participate on the assessment committee of the secretary's 
Reading Leadership Academies. I was invited by Dr. Kame'enui 
and had the opportunity to participate on a committee of 
scientists and of researchers who in our field are without peer 
with the highest scholarly credentials that we have. I was very 
honored to be a part of that committee.
    As a result of that committee work, we began a process of 
establishing scientific standards and applying those standards 
to assessments to be able to put into practice the words about 
scientifically based reading research in evaluating 
assessments. In doing that, we followed the highest standards 
of avoidance of conflict of interest in the academy.
    As a professor, we are not unfamiliar with conflict of 
interest. Whenever we research, whenever we publish, there are 
always issues of conflict of interest. We address those within 
the university setting by first being public about what our 
investment is. Second, we focus on evidence. It is not about 
judgment, but it is about evidence, what science can we bring 
to bear. And third, we avoid direct participation in any 
evaluation of our own work or of our own product, and we have a 
blind review process of things that we are involved in.
    DIBELS was one of the 29 measures that was evaluated by 
that committee. In every review of DIBELS, I recused myself 
from any discussion and did not participate directly in any 
discussion of DIBELS, and I do not know who did. Whoever 
reviewed it is blind to me. That review encompassed DIBELS and 
many others.
    Subsequent to my involvement on the assessment committee, I 
also was faculty on the Western Region Reading First Technical 
Assistance Center for a period of time and participated in 
presentations at the secretary's Leadership Academy and at 
subsequent Reading First national conferences.
    In that time, I would really championed the use of 
assessment in a prevention oriented model. I have used DIBELS 
as examples in those presentations. I have used other 
assessment measures as examples as well.
    Currently, I continue to do research and training around 
early literacy assessment. I continue to consult with states 
when I am requested to.
    I would really like to see this important innovation 
continue. I would really like to see the words ``scientifically 
based reading research'' turned into practice in a way that can 
be defended. I think we need to have a panel that is 
continuing, that is charged with review of programs and review 
of assessments, a panel and a process where it can be above 
even the appearance of a conflict of interest and rigorously 
supervised. All of that is very important to continue this 
important landmark work that is Reading First.
    This has been an opportunity to change in a very meaningful 
way the lives of our children who are most at risk.
    Thank you very much for the opportunity to speak with you 
today. I would be very pleased to answer any questions you 
have.
    [The statement of Mr. Good follows:]

     Prepared Statement of Roland H. Good III, Associate Professor,
                          University of Oregon

    Mr. Chairman and distinguished members, it is a pleasure and honor 
to testify before you. For the past 19 years my colleague Ruth 
Kaminski, myself, and a team of researchers and graduate students have 
pursued a program of research expanding the measurement technology that 
is the foundation for DIBELS 6th Edition. Our work builds on the 
previous research begun initially by Professor Stan Deno and the team 
of researchers at the Institutes for Research on Learning Disabilities 
at the University of Minnesota and carried on today by many researchers 
in Curriculum-Based Measurement of Reading, or CBM. CBM is a 
measurement technology for developing brief, one-minute, repeatable, 
fluency-based measures of reading proficiency. The measurement 
technology has remarkable reliability and validity supported by over 30 
years of research. Today that measurement technology is used in many 
reading assessments including DIBELS 6th Edition.
    Our research team has extended that measurement technology and 
research base in two primary areas: (a) a downward extension of the 
measures to the early literacy skills of phonemic awareness and phonics 
in kindergarten and early first grade, and (b) the extension of a 
decision-making model to general education settings with an emphasis on 
early intervention and problem prevention.
    Our research focus on early literacy assessment was motivated by a 
crisis in our reading instruction and reading outcomes for our 
children, especially our children from poor and diverse backgrounds. We 
began with an exhaustive review of the existing research literature at 
that time and identified core components of early literacy that should 
form the content of instruction and the target of assessment. Those 5 
core components were eventually identified by the National Reading 
Panel as phonemic awareness, fluency, vocabulary development, and 
reading comprehension. It is not a coincidence that we targeted very 
early essentially the same skills identified by the National Reading 
Panel: We were reading the same research.
    Our most important work so far has been the articulation of a 
prevention-oriented decision model supporting educators to use 
assessment to inform instruction to change reading outcomes. In the 
Outcomes Driven model, we recommend that educators use assessment to 
(a) identify need for support, (b) validate need for support, (c) plan 
and implement support, (d) evaluate and modify support, and (e) review 
support. Essentially those decisions require that assessment be used 
for the purposes of screening, diagnostic assessment, progress 
monitoring, and evaluation of outcomes.
    Those 5 core components and 4 purposes of assessment form the 
backbone of Reading First assessment requirements. I believe Reading 
First represents the state of the science about early literacy 
assessment and instruction. We did not develop early literacy 
assessment for Reading First, we have spent almost 20 years developing 
early literacy assessments for the state of the science about reading 
instruction. We arrived at essentially the same place as Reading First 
through a convergence of paths.
    Some see DIBELS 6th Edition as an extremely valuable measure that 
has been instrumental in helping schools with very high educational 
needs make dramatic changes in reading outcomes for their children. 
However, DIBELS 6th Edition is just a set of simple, easy measures that 
utilize public, readily available measurement technology. Others can 
and have developed competing measures using that measurement 
technology. The principle value of DIBELS 6th Edition is not in the 
measures themselves, it is in the extensive program of longitudinal 
research that documents the reliability, validity, and decision utility 
of the measures. From that research we know what level of early skill 
places a student at risk of not achieving later reading outcomes. We 
know what levels of early literacy skills students need to achieve by 
when in order to make adequate progress toward reading proficiency. 
Most important, we can evaluate a student's progress toward goals on a 
direct and frequent basis and know, within weeks, whether our 
instruction is adequate or must be modified or enhanced on a student-
by-student basis.
    Throughout our work with DIBELS 6th Edition and prior editions, we 
have tried to maximize the impact of our work for children. We strive 
to make this powerful measurement technology readily, easily, 
inexpensively available for educators. A version of DIBELS 6th Edition 
is easily available on the internet for free download and unlimited 
photocopying for educational purposes. We are unconditionally committed 
to continuing to have DIBELS future editions available for free 
download and unlimited photocopying as long as there are users who need 
it. We also have the same materials available in published form from 
Sopris West, and Wireless Generation offers the same assessment on a 
handheld Palm device. Ruth Kaminski and I developed a similar set of 
measures called Voyager Indicators of Progress (VIP) embedded within 
the Voyager Universal Literacy curriculum. Schools may choose to 
download for free, or purchase version, or use the handheld Palm. Or 
schools may choose to use the curriculum embedded version.
                                 ______
                                 
    Chairman Miller. Thank you.
    Dr. Simmons?

     TESTIMONY OF DEBORAH C. SIMMONS, PROFESSOR OF SPECIAL 
                EDUCATION, TEXAS A&M UNIVERSITY

    Ms. Simmons. Mr. Miller and Mr. McKeon and members of the 
committee, like Dr. Good, I have submitted written testimony, 
and I will briefly summarize my involvement in Reading First 
for you today. Thank you for this opportunity.
    I have always told folks I had the most important and best 
job in the world. I get to teach future teachers. I get to 
observe in classrooms. I get to help solve school's problems.
    And one of the biggest problems that Reading First is 
addressing is the number of children that we have who are not 
readers and who are not readers by the end of Grade 3, and we 
know that if a child is not a reader by the end of first grade, 
there is a very low probability that they will become a 
successful reader, and that is where I have spent my life's 
work.
    I spent the first 10 years as a special educator in public 
schools. The next 10 years, I worked with schools to try to 
help them fix programs and reading programs. Asking teachers to 
fix an ineffective program is like asking a pilot to fly and 
build a plane at the same time. It is just physically 
impossible. So good programs and scientifically based programs 
are at the heart of what I do.
    Regarding my involvement in Reading First, I was involved 
in two primary areas. I worked as a member of the assessment 
committee. As Dr. Good and Dr. Kame'enui have described, this 
was an important work that helped establish assistance for 
schools as they tried to implement Reading First. There 
literally was no resource for schools to go to to help identify 
assessments to use, and that was the purpose of the assessment 
committee, was to provide some assistance to schools.
    Members of that committee were the most professional 
experts with whom I have ever worked. They never reviewed 
assessments with which they were affiliated. I am not an author 
of an assessment, but I can speak from participating in that 
committee that the rigor was at the highest level on that 
committee.
    My second area of involvement was in the area of 
presentations that I did. Two of those were at the Leadership 
Academy. Those presentations involved components of effective 
instruction, and at no point in those presentations did I 
endorse or promote specific programs.
    Though my involvement in Reading First was very limited and 
largely constrained to 2001 and 2002, it was a time of great 
excitement and great hope, and recently I have had 
opportunities to be observing in schools that have been 
involved in Reading First, and I can tell you that I see a big 
difference in those schools.
    I see children who at the beginning of kindergarten knew no 
letters and no sounds reading sentences and writing words. I 
see schools that look very differently than they would have 
without this assistance from Reading First, and it has been a 
privilege to participate in those activities.
    Thank you.
    [The statement of Ms. Simmons follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Miller. Thank you.
    Ms. Lewis?

  TESTIMONY OF STARR LEWIS, ASSOCIATE COMMISSIONER, KENTUCKY 
                    DEPARTMENT OF EDUCATION

    Ms. Lewis. Chairman Miller, Ranking Member McKeon, and 
honorable members of the committee, thank you for this 
opportunity to share Kentucky's experience in Reading First.
    I serve as the associate commissioner in the Kentucky 
Department of Education's Office of Teaching and Learning, and 
in this role, I led our efforts during the Reading First grant-
writing phase, and my office is responsible for the 
implementation of the Kentucky Reading First plan.
    I would like to begin my comments today by saying that 
Kentucky's involvement in Reading First has been extremely 
beneficial, allowing us to create a statewide support system 
for beginning readers, their teachers and administrators.
    I am extremely proud of the Kentucky schools involved in 
this program and of the staff at the Kentucky Department of 
Education who support their efforts. However, there were some 
issues that we faced in Kentucky, issues the committee may want 
to consider as they prepare for reauthorization of Reading 
First.
    Our introduction to Reading First was in February of 2002 
when we attended the department's Reading Leadership Academy. 
Using the knowledge we obtained from the academy and other 
technical assistance provided, we drafted our proposal and 
submitted it to the department's expert review panel for 
approval in May of 2002.
    Our commissioner at the time, Gene Wilhoit, reported to our 
board of education that this proposal was the best thought-out 
and well-written proposal he had seen. In short, we were 
confident that we had put together an excellent proposal and 
that it met all established criteria.
    Unfortunately, this proposal was rejected by the 
department's expert review panel, as were our second and third 
proposals. It was only after our fourth submission that our 
proposal was approved.
    We had asked for but had not received the expert review 
panel's actual comments. I must add that I did receive them 
yesterday from staff. But the summary sent to us by the Reading 
First director, Chris Doherty, repeatedly pointed to concerns 
about one of our proposed assessments.
    Our first two proposals did not include DIBELS. We were 
hoping to build on our existing experience with another 
assessment called Developmental Reading Assessment, or DRA. We 
really felt that we had strong experience and evidence of 
success from schools and districts using this assessment.
    After the expert review panel rejected our first two 
proposals, we contacted Mr. Doherty who referred us to RMC 
Research Corporation to obtain technical assistance. During our 
conversation with the RMC technical assistance team, we were 
given advice about a number of issues related to our proposal, 
but we were repeatedly advised to replace DRA with DIBELS.
    I mentioned on a conference call with the RMC team that 
endorsing DIBELS appeared to be a conflict of interest, given 
the involvement of a number of individuals connected to DIBELS 
who also served on the Reading First Academy assessment 
committee. The RMC team acknowledged the connections, but 
continued to say that our proposal would likely be viewed more 
favorably if we included DIBELS. After this call, we learned 
that one of the members of the technical assistance team, Joe 
Dimino, was a DIBELS trainer.
    Commissioner Wilhoit sent a letter to then-Secretary of 
Education Rod Paige appealing that decision to deny Kentucky's 
funding based on inconsistencies in expert review panel 
decisions across states and on our concerns related to 
potential conflicts of interest. We received a response from 
Eugene Hickock, the former deputy secretary of education, 
assuring us that there were no discrepancies between state 
reviews and no conflicts of interest.
    After receiving the response from Mr. Hickok, we 
reorganized our proposal to more clearly and explicitly address 
the concerns of our panel and resubmitted in December 2002. In 
this second proposal, we addressed every concern identified in 
the summary provided by Mr. Doherty and even added DIBELS, but 
we did not drop DRA. On January the 8th, 2003, we received 
notification that our expert panel had again rejected our 
proposal.
    In March of 2003, we had a conference call with Mr. 
Doherty. We pointed out that we had been reviewing other state 
approved plans and that at least one included DRA. He assured 
us that the state in question had agreed to remove the 
assessment even after approval. While Chris never actually said 
the words, ``Kentucky will never be funded as long as it 
includes DRA,'' we all left the discussion understanding that 
to be the case.
    We removed DRA, kept DIBELS, resubmitted our proposal in 
March of 2003. We were approved for funding in the next month.
    During the proposal phase, Kentucky did not experience 
pressure concerning core programs or intervention programs. As 
we described in our proposal, Kentucky has legislation that 
gives all curriculum decision-making authority to school 
councils and explicitly prohibits the Kentucky Department of 
Education from mandating curriculum materials.
    However, after we started implementing Reading First and 
after our first federal monitoring visit, the monitoring team's 
report raised concerns about Reading Recovery and Rigby as not 
being sufficiently grounded in scientifically based reading 
research. In the letter from Mr. Doherty accompanying the 
report, he did not name the programs specifically, but raised 
concerns.
    Again, we had a conference call with him during which he 
suggested that our funding might be in question if we continued 
to allow schools to purchase these two programs. We asked Chris 
to put in writing that we could not use Reading First funds for 
Reading Recovery or Rigby, he refused, but he did invite us to 
write a defense of the two programs. We did so and have never 
received a response from the department.
    Since the recent reports and the departure of Mr. Doherty 
from the department, we have received e-mails, letters and 
calls from new Reading First staff, but we have referred them 
to the letter we sent to Secretary Paige, and we have requested 
the names of our expert panel members and copies of their 
responses. We got the responses yesterday but not the names, 
and we had not received the information before then.
    I want to repeat that Reading First has been a success in 
Kentucky. I am here today to give feedback to the committee on 
the problems we faced so that Reading First can go forward 
stronger and continue to make a difference in classrooms across 
Kentucky.
    Thank you.
    [The statement of Ms. Lewis follows:]

       Prepared Statement of Starr Lewis, Associate Commissioner,
                    Kentucky Department of Education

    Chairman Miller, ranking member McKeon, and honorable members of 
the Committee, thank you for this opportunity to share Kentucky's 
experience in Reading First. My name is Starr Lewis and I serve as the 
Associate Commissioner in the Kentucky Department of Education's Office 
of Teaching and Learning. In this role, I led our efforts during the 
Reading First grant-writing phase, and my office was and is responsible 
for the implementation of the Kentucky Reading First plan.
    I would like to begin my comments today by saying that Kentucky's 
involvement in Reading First has been extremely beneficial to our 
state. It has allowed us to create a statewide support system for 
beginning readers, their teachers and administrators. Reading First has 
shifted our focus onto struggling readers and provided Kentucky with 
the resources to give teachers the skills and tools needed to help 
these students. I am extremely proud of the Kentucky schools involved 
in this program and of the staff at the Kentucky Department of 
Education who support their efforts. However, there are some issues we 
faced in Kentucky, which the Committee may want to consider as they 
prepare for reauthorization of Reading First.
    Our introduction to Reading First was in February of 2002 when we 
attended the Department's Reading Leadership Academy. The purpose of 
the Academy was to help states gear up for the implementation of 
Reading First. Using the knowledge we obtained from the Reading 
Leadership Academy and other technical assistance provided, we drafted 
our proposal and submitted it to the Department's expert review panel 
for approval in May of 2002. Our Commissioner at the time, Gene 
Wilhoit, reported to our Board of Education that this proposal was the 
best thought-out and well-written proposal he had seen. In short, we 
were confident that we had put together an excellent proposal and that 
it met the established criteria. We were excited about helping young 
readers and expected to implement Reading First starting in the fall of 
2002. Unfortunately, this proposal was rejected by the Department's 
expert review panel, as were our second and third proposals. It was 
only after our fourth submission that our proposal was approved.
    While we have asked for but have not received the expert review 
panel's actual comments, the Department's summary sent to us by the 
Reading First Director, Chris Doherty, repeatedly pointed to concerns 
about one of our proposed assessment tools. Our first two proposals did 
not include the Dynamic Indicators of Basic Literacy Skills assessment 
tool, which is now commonly referred to as DIBELS and which was 
developed at the University of Oregon. Instead, we were hoping to build 
on our existing experience with another reading assessment tool, 
Diagnostic Reading Assessment (DRA). We felt that we had strong 
experience and evidence of success from schools and districts using 
DRA. After the expert review panel rejected our first two proposals, we 
contacted Mr. Doherty who referred us to RMC Research Corporation, a 
Department contractor, to obtain technical assistance. During our 
conversations with the RMC technical assistance team, we were given 
advice about a number of issues related to our proposal and we were 
repeatedly advised to replace our current assessment tool with DIBELS. 
I mentioned on a conference call with the RMC technical assistance team 
that endorsing DIBELS appeared to be a conflict-of-interest given the 
involvement of a number of individuals with connections to DIBELS and 
who also played roles in the implementation of Reading First in that 
they served on the Reading First Academy Assessment Committee. The RMC 
technical assistance team acknowledged the connections, but continued 
to say that our proposal would likely be viewed more favorably if we 
included DIBELS. After the call we learned that one of the members of 
the technical assistance team, Joe Dimino, was a DIBELS trainer.
    Commissioner Wilhoit, sent a letter to then Secretary of Education, 
Rod Paige, appealing the decision to deny Kentucky's funding based on 
inconsistencies in expert review panel decisions across states and on 
our concerns related to potential conflicts-of-interest. We received a 
response from Eugene Hickock, the former Deputy Secretary of Education, 
assuring us that there were no discrepancies between state reviews and 
no conflicts-of-interest.
    After receiving the response from Mr. Hickok, we worked with two 
members of the RMC staff. After we had reorganized our proposal to more 
clearly and explicitly address the concerns of our panel, we 
resubmitted our proposal in December 2002. In this second proposal, we 
addressed every concern identified in the summary provided by Mr. 
Doherty and even included DIBELS, but we did not drop our current 
assessment tool.
    On January 8, 2003, we received notification that our expert panel 
had again rejected our proposal.
    In March of 2003, we had a conference call with Mr. Doherty. We 
pointed out to Mr. Doherty that we had been reviewing other states' 
approved plans and that at least one included the assessment tool we 
wanted to use. Mr. Doherty assured us that the state in question had 
agreed to remove the assessment tool even after approval. While Chris 
never actually said the words, ``Kentucky will never be funded as long 
as it includes DRA,'' we all left the discussion understanding this to 
be the case. We removed the proposed assessment tool, included DIBELS 
and resubmitted our proposal in March of 2003. We were approved for 
funding in the next month.
    During the proposal phase, Kentucky did not experience any pressure 
concerning core reading programs or intervention programs. As we 
described in our proposal, Kentucky has legislation that gives all 
curriculum decision-making authority to school councils and explicitly 
prohibits the Kentucky Department of Education from mandating 
curriculum materials. However, after we started implementing Reading 
First and after our first federal monitoring visit, the monitoring 
team's report raised concerns about Reading Recovery and Rigby as not 
being sufficiently grounded in scientific based reading research. In 
the letter from Mr. Doherty accompanying our monitoring report, he did 
not name the programs specifically but raised concerns. Again, we had a 
conference call with Mr. Doherty, during which he suggested that our 
funding might be in question if we continued to allow schools to 
purchase these two programs with Reading First funds.
    We asked Chris to put in writing that we could not use Reading 
First funds for Reading Recovery or Rigby. Chris refused, but he did 
invite us to send him a defense of the two programs. We did so, but we 
never received a response from the Department.
    Since the release of the recent OIG reports and the departure of 
Mr. Doherty from the Department, we have received emails, letters, and 
calls from new Reading First staff at the Department inviting us to 
share any concerns. We have referred Department staff to the letter we 
sent to Secretary Paige outlining our concerns. Also, we have requested 
the names of our expert panel members and copies of their responses, 
but we have not yet received that information.
    In closing, I want to repeat that Reading First has been a success 
in Kentucky. I am here today to give feedback to the Committee on 
problems we faced in Kentucky so that these issues can be addressed. 
Addressing these problems now will help ensure that Reading First will 
be stronger going forward and that it will continue to make a 
difference in classrooms across America.
Additional written testimony:
    Preparing for this hearing gave me the opportunity to review the 
responses of our expert panel sent to use from Chris Doherty and Sandi 
Jacobs. In general I found the responses to be vague and not helpful, 
and they led to very few substantive changes in our proposal. The 
repeated rejections did lead to substantial delay in implementing our 
programs. We were a full year behind in getting reading programs 
implemented in our schools.
    The most substantial change we made in our plan related to the 
removal of our original proposed assessment and the addition of DIBELS. 
The developers of DIBELS point out that the test is available for free 
on the web. While this is the case, teachers have to print out the 
assessment in paper version. This requires teachers to manipulate a 
variety of tools at one time while at the same time listening to a 
child's reading performance. In order to have DIBELS available in a 
form that promotes ease of use and fast turnaround of results, teachers 
need a handheld device with DIBELS software. In order to have this 
version of the tests, we contract with Wireless Generation. Following 
is a list of our contracts with Wireless Generation, totals that do not 
include the cost of the handheld devices:

                          2004-2005--$244,700

                          2005-2006--$255,000

                          2006-2007--$225,000

    I have been asked several times if we would switch to our original 
assessment if given the opportunity. My answer is that we are now a 
DIBELS state, and I would not want us to make a decision that would 
cause that much change for teachers implementing this program.
    I mentioned in my oral testimony that Kentucky's Reading First 
schools have made gains in student achievement. Our Reading First 
schools made a 15% gain on Group Reading Assessment for Diagnosis and 
Evaluation (an additional assessment used in Reading First schools) in 
the number of students scoring at the Kentucky benchmark from the end 
of the 1st year of implementation to the end of the 2nd year. They are 
also on pace to make another 10.5% gain this year from last year. 
Schools have a higher percentage of students at the benchmark at every 
grade level K-3.
    Reading First schools made a 19% gain on DIBELS in the number of 
students scoring at benchmark from the end of the 1st year of 
implementation to the end of the 2nd year.
    Reading First schools made better gains than the state average on 
our state assessment.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    And thank you to all the panelists for your testimony and 
again for your participation.
    Mr. Higgins, as I understand it, we are currently funding 
Reading First at a little over $1 billion--is that correct?--
and it has fluctuated somewhere between $900,000 and $1 billion 
over the last 5 years.
    Mr. Higgins. Yes.
    Chairman Miller. This is a very significant program within 
No Child Left Behind.
    Mr. Higgins. Definitely.
    Chairman Miller. Mr. Higgins, looking at your final report, 
in your Finding 1A, you say the department did not select an 
expert review panel in compliance with the requirements of 
NCLB.
    You go on to point out that the law specifically described 
the panel selection process and states that the secretary, in 
consultation with the National Institute of Literacy, the 
National Academy of Sciences, the National Institute of Child 
Health and Human Development--that people will be selected from 
those panels, three people from each of those organizations--is 
that correct?--and then the secretary will have selections. Is 
that correct?
    Mr. Higgins. Yes.
    Chairman Miller. You go on to also point out that none of 
the subpanels that were finally put together possessed adequate 
representation from each of the organizations identified in the 
law under No Child Left Behind. Is that correct?
    Mr. Higgins. Yes.
    Chairman Miller. You state--and if I could have Slide A--
that ``the department created a total of 16 subpanels to review 
the state applications. A majority of the panels were nominated 
by the department in 15 of the 16 panels, and seven of the 16 
subpanels consisted entirely of department-selected 
panelists.'' Is that correct?
    Mr. Higgins. Yes.
    Chairman Miller. So these panels, these 16 panels, in your 
opinion, in your report, in matching them with the law, are out 
of compliance?
    Mr. Higgins. Correct.
    Chairman Miller. So then prior to forming these subpanels, 
you tell us that a department official expressed concern that 
the use of the subpanels would not be in compliance with the 
law.
    Mr. Higgins. Correct.
    Chairman Miller. And then the Office of the General Counsel 
and high-level department officials, including the assistant 
secretary, approved a plan for the department to create a 12-
member advisory oversight panel.
    Mr. Higgins. Correct.
    Chairman Miller. And, again, they were supposed to select 
three individuals, almost in accordance with the law, from 
NIFL, from NAS and from National Institute of Child Health and 
Development. Is that correct?
    Mr. Higgins. Yes.
    Chairman Miller. And I guess this is to try to come into 
compliance with the law.
    Mr. Higgins. Correct.
    Chairman Miller. But it is not in compliance with the law.
    Mr. Higgins. No, it is not in compliance with the law 
totally, but I think they thought that this would bring them 
closer to being in compliance because the number of subpanels 
that there were they could not do with the 12 people.
    Chairman Miller. So the 16 subpanels on Slide A, in fact, 
continue to be out of compliance with the law, and they are 
used for the reviews that Ms. Lewis talked about. Is that 
correct?
    Mr. Higgins. Right, but they thought that the advisory 
panel that they put that was supposed to have reviewed the 
results of the subpanels would satisfy the law.
    Chairman Miller. Okay. So you go on to say that the 
advisory and oversight duties would include examining the 
progress of the subpanels, reviewing the recommendations of the 
subpanels, making final findings and recommendations for the 
secretary, thus ensuring a common high level of quality and 
consistency across the subpanels. That was the intent.
    Mr. Higgins. That was the intent.
    Chairman Miller. And you say, ``Although the assistant 
secretary of OESE and the Office of General Counsel officials 
agreed, the advisory and oversight panels were never created.''
    Mr. Higgins. Correct.
    Chairman Miller. So the panel that was supposed to cure the 
original violations of the law was never, in fact, empanelled.
    Mr. Higgins. Right.
    Chairman Miller. So, Mr. Higgins, why all this interest in 
the makeup of these panels and we essentially only end up with 
your department nominees?
    I am sorry. Mr. Doherty? Mr. Doherty?
    Mr. Doherty. I beg your pardon, sir. I heard Mr. Higgins' 
name.
    Chairman Miller. Did you hear the question?
    Mr. Doherty. Could you please repeat it?
    Chairman Miller. Well, the question is, why do we have 
these panels, contrary to the law, essentially ending up with 
only department nominees as membership? And, as is pointed out 
by the inspector general, we have 15 of the 16 panels with a 
majority of members nominated by the department and we have a 
number of panels with all members nominated by the department.
    Mr. Doherty. The expert review panel process was very 
complicated and very challenging.
    We wanted to ensure that we had sufficient reviewers 
available in the event that all states came in with their 
applications at the same time. The funds were to become 
available as early as July 1, 2002. The application was 
released in April, and we prepared the panel so that if all 
states or many states came in at the same time, we could 
process that.
    We modeled our review panel process on the Reading 
Excellence Act, which is the closest precursor program that 
exists to Reading First. We thought then and we think now that 
our efforts did meet the law. We had subpanels that satisfied 
the requirements of the statute, and we worked this process out 
with the Office of General Counsel.
    An advisory and oversight panel was suggested to us to 
ensure even clearer accordance with the law. We, in fact, sent 
out messages to a 12-member advisory and oversight panel, but, 
in fact, we never convened that panel because we viewed it as 
being necessary in the event that the subpanels did not come to 
consensus.
    So we certainly did not have the sense in 2002, 2003, 2004 
and 2005 that we were not in accordance with the law. We really 
did not.
    Chairman Miller. Mr. Doherty, with all due respect, from 
day one, you were out of compliance with the law by the makeup 
of the panels. You made a decision not to include nominees from 
the other three organizations.
    Mr. Doherty. Sir, I disagree. We really had a logistics 
issue, and we had nominees----
    Chairman Miller. Mr. Doherty, we are talking about ethics. 
So your logistics overrode the law.
    Mr. Doherty. I respectfully disagree, sir.
    Chairman Miller. Well, we asked you why this interest, and 
noncompliance with the law is found by the inspector general, 
and your answer is logistics.
    Mr. Doherty. No, I was trying to give some context as to 
how we put these panels together. First, we used the 
structure----
    Chairman Miller. The panels were out of compliance. Do you 
agree to that?
    Mr. Doherty. I am not sure. I----
    Chairman Miller. Have you read the inspector general's 
report? Have you read the law?
    Mr. Doherty. Yes.
    Chairman Miller. What is your answer again?
    Mr. Doherty. My answer is that we thought the panel 
configuration----
    Chairman Miller. No, no. The question is: Were you in 
compliance with the law?
    Mr. Doherty. I believe that we were.
    Chairman Miller. You believe that you were. Continue.
    Mr. Doherty. As I say, we modeled our process after the 
Reading Excellence Act. They had the same requirements to have 
panels that satisfied various requirements. In our case, a 
panel needed to have a psychometrician, someone familiar with 
reliability and validity data. We needed to have an expert in 
professional development. We needed to have someone with 
classroom experience, and we had subpanels that reviewed these 
things.
    Chairman Miller. So, Mr. Doherty, out of a nation of 300 
million people, you could not find the people for these panels. 
I mean, this is like when the FDA said they could only find 
people who were on retainers from conflicted interest, and then 
when the law changed, they found out they could find people who 
were not conflicted.
    Mr. Doherty. We got----
    Chairman Miller. Out of the entire education community and 
all the researchers and all the people getting grants, from all 
of the universities and people with all of the history, it is 
only these people sitting at the table that can comply?
    Mr. Doherty. The size of the original panel was over 70 
people.
    Chairman Miller. Yes.
    Mr. Doherty. We received nominations from the agencies you 
mentioned, and yet we did have more nominees from the 
Department of Education for the reasons that we simply did not 
have enough nominations from the other agencies to meet the 
demand if all of the----
    Chairman Miller. So you just went ahead and violated the 
law.
    Mr. Doherty. We did not think we violated the law. We 
worked very closely with the Office of General Counsel in order 
to satisfy the law.
    Chairman Miller. We will come back to that in a moment.
    Perhaps the IG has a better answer in his report when, on 
page 17, he states, ``The Reading First director''--that would 
be you--``took direct action to ensure that a particular 
approach to reading instruction was represented on the expert 
review panel. Direct Instruction is a model for teaching that 
requires the use of Reading Mastery, a program published by 
SRA/McGraw-Hill, to teach reading. The Reading First director 
formerly served as the executive director of the Baltimore 
Curriculum Project which implemented Direct Instruction in 
Baltimore City Schools since 1996.
    ``The Reading First director personally nominated three 
individuals who had significant professional connections to 
Direct Instruction to serve on the expert review panel. The 
Reading First director selected these selected these three 
individuals to serve on a total of seven of the 16 subpanels, 
and one of these individuals to serve as panel chair on five 
subpanels. These three individuals were collectively involved 
in reviewing a total of 23 state applications.''
    And then, a subsequent response from the Reading First 
director suggested his intention is to ensure a ``Direct 
Instruction presence on the expert review panel: `Funny that 
the Baltimore City Schools calls me to inform me that there are 
some pro-Direct Instruction folks on my panel! Too rich!' he 
says. The panelist then asked, `Does he know who you are? Past 
and present?' The Reading First director''--that being you, Mr. 
Doherty--``replied, `That is the funniest part. Yes! You know 
the line from Casablanca, I am shocked, I am shocked that there 
is gambling going on in this establishment? Well, I am shocked 
that there are DI people on this panel.'
    ``Shortly before the exchange, the department employee 
reported to the Reading First director that the department had 
received a question from a member of the media about the panel 
composition. The response by the Reading First director 
suggests that he may indeed have stacked the expert review 
panel. The employee stated, `The question is: Are we going to 
stack the panel so that programs like Reading Recovery do not 
get a fair shake?' The Reading First director''--that would be 
you, Mr. Doherty--``responded, `Stack the panel? I have never 
heard of such a thing.' ''
    That sounds like a better answer that complies with the 
facts, the laws as found by the inspector general.
    Mr. Doherty. May I respond?
    Chairman Miller. You certainly can.
    Mr. Doherty. The suggestion that we did not screen for 
conflicts of interest in the expert review panel is not 
correct. It is pointed out in the IG's report that the Reading 
First Program was not required to screen for conflicts of 
interest, and yet we chose to screen for conflicts of interest 
anyway using the strictest methods at the time which applied to 
discretionary grant programs, not formula grants like Reading 
First.
    So, although we were not required to screen, as pointed out 
by the inspector general himself, we chose to, and we worked 
hand in glove with the Office of General Counsel to come up 
with a screening process. We screened in accordance with the 
strictest standard, and we reviewed every application when it 
came in.
    The standard that we used, the one that is on the books, is 
direct financial involvement with a particular program. We 
actively screened for that, and when every application came in, 
circa 200 or more pages, we read through those applications to 
make sure that no panel member who had a link with that program 
would review that application.
    Chairman Miller. I thank you.
    Mr. Doherty. Were there people on the panels who were 
familiar with Direct Instruction? Yes, there were because the 
law requires subject matter expertise, and that is going to 
manifest in professionals having knowledge of and some links 
with programs, but not direct financial involvement, sir.
    Chairman Miller. If I might respond, we understand there 
obviously would be people who would be linked to these various 
theories and programs, but the inspector general tells us, ``A 
few days before the department publicly announced the panelists 
it had chosen to serve, one of the department's nominated 
panelists contacted the Reading First director and shared his 
strong bias against Reading Recovery''--strong bias against 
Reading Recovery--``and the strategy for responding to any 
state that planned to include Reading Recovery in its 
application. The Reading First director,'' Mr. Doherty, 
``responded, `I really like the way you are viewing and 
approaching this, not just because it matches my own approach--
I swear!'
    ``This individual later served as the panel chair of the 
subpanel that reviewed Wisconsin's state application, and in 
response to the state's plans to use Reading Recovery, he 
included an 11-page negative review of Reading Recovery in his 
official comments on the application.
    ``Around the same time, Reid Lyon''--I think he is the 
president's guru on reading--``former chief of childhood 
development and behavior at NICHD, advised the Reading First 
director and the assistant secretary of OESE and the senior 
advisor to the secretary that one of the panelists had been 
actively working to undermine the National Reading Panel's 
report on Reading First initiatives.
    ``Lyon further stated, `Chances are that other reviewers 
can trump up a bias on her part.' In a written response to all 
the people involved, the senior advisor said, `We cannot 
uninvite her. We will just make that sure she is on a panel 
with one of our barracuda types.' ''
    Do you still think your panels are in compliance with the 
law? Do you still think this was about evenly distributing 
people who might support or believe in Direct Instruction or 
any other kind and that is all you were doing, is evenly 
distributing people?
    Mr. Doherty. Yes, sir, I do. I note for the record that 
when the 54 state applications came in, only three applications 
even chose to write the names of core reading programs. So the 
panels, which were screened appropriately, did not even know 
the----
    Chairman Miller. That is interesting. They did not know the 
makeup of the panels.
    Mr. Doherty. I beg your pardon?
    Chairman Miller. They did not know how the panels were 
created, and the question of whether they mentioned it or not 
is not at issue here.
    The question is: At the outset of this program, for the 
panels that are supposed to screen the time and the effort of 
people like Ms. Lewis in the state of Kentucky, they thought 
that they were walking into a law that required evenly 
distributed interests and knowledge and expertise and 
experience on the part of all of the panelists. That is not 
what they were talking into.
    As Ms. Lewis's testimony points out, it is not all a matter 
of the written record, and we will visit that in my next round 
of questioning.
    Mr. McKeon?
    Mr. McKeon. Thank you, Mr. Chairman.
    Mr. Higgins, in your testimony, you outlined the ways in 
which the department failed to follow the statute in creating 
the peer review panel and subpanels. You also show that the 
department might have sought to ensure that certain types of 
products had advocates on those subpanels, while other types of 
products did not.
    If Congress took steps to grant the department explicit 
authority to form subpanels but required those subpanels to 
include representatives from each of the four entities 
currently included in the statute and prohibited the subpanels 
from being comprised of a majority of members from only one of 
those entities, do you think that would help protect the 
integrity of the peer review process?
    Mr. Higgins. Yes, I do think that would help, but you might 
also want to expand the group to more than four of the 
organizations that are out there that are experts in the field. 
That would be my only comment.
    Mr. McKeon. Thank you.
    You also talk about how the peer review panelists' comments 
were not made available to the states.
    If Congress took steps to require the department's guidance 
for the peer review process to provide for publicly available 
documentation to support the recommendations of the peer review 
panels, do you think that would help create a more transparent 
process?
    Mr. Higgins. Definitely.
    Mr. McKeon. One of the other suggestions that came out of 
your reports was to provide opportunities to states to talk 
directly with the peer review panel so the states could get a 
clearer understanding of what revisions were needed in their 
applications. Among other things, this would prevent department 
officials from mischaracterizing or misinterpreting the 
comments of the panels and thereby providing inaccurate 
information back to the states.
    If Congress required the department to provide states the 
opportunity for direct interaction with the panels, do you 
think that would create a stronger peer review process?
    Mr. Higgins. Yes, I do.
    Mr. McKeon. You discussed the weakness in the department's 
efforts to screen for potential biases among the peer review 
panelists. It is accurate, correct that the statute currently 
does not require the department to screen panelists for 
potential conflicts of interest?
    Mr. Higgins. Yes.
    Mr. McKeon. If Congress amended the statute to require such 
a review that included a review of panelists' financial 
interests in reading products and other professional 
connections to products or methodologies and included a 
requirement that the conflict of interest review be designed to 
prevent bias or the appearance of it, would that strengthen the 
peer review process and provide it more credibility?
    Mr. Higgins. Yes, it would.
    Mr. McKeon. Clearly, we want to strengthen the peer review 
process to ensure that these appearances of bias are avoided in 
the future, and our bill, what I introduced yesterday, does 
that.
    But I do want to be clear on one point: In its response to 
your report, the department responded that there were six 
panelists who had connections to particular teaching programs. 
Is that number accurate?
    Mr. Higgins. Yes.
    Mr. McKeon. And that is six out of how many?
    While they are looking at it, let me----
    Mr. Higgins. Approximately 70.
    Mr. McKeon. Six out of 70?
    Mr. Higgins. Yes.
    Mr. McKeon. The department further claimed that the 
inclusion of these six did not result in any, ``problematic 
behavior or that any of these panelists review the state 
application that included such a program.''
    Did you find any evidence to support or refute this claim 
by the department?
    Mr. Higgins. No, we did not.
    Mr. McKeon. Mr. Doherty, would you care to respond to that?
    Mr. Doherty. Yes. Thank you.
    From the beginning days of the program, we took conflicts 
of interest very seriously, as evidenced by the fact that we 
choose to do a rigorous screening for conflicts of interest, 
even though we did not need to.
    As I mentioned, the expert review panel members in only 
three out of 54 cases even had an opportunity to see actual 
program names in the application, and above and beyond that, we 
screened incoming applications to make sure that no one was 
presented with an application that had reference to a program 
that they were involved with. The standard that we used was the 
existing standard at the department, which was direct financial 
interest.
    As Mr. Higgins' last answer, that is also my belief, that 
no members of the panel who even had a professional link with a 
certain program, which was itself not the standard of the day, 
was in a position to grant funds to that program. I do not 
believe there were any real conflicts of interest, although I 
regret any perception of conflicts of interest that may have 
occurred.
    Mr. McKeon. Thank you.
    Mr. Higgins, your reports highlight a number of weaknesses 
with the conflict of interest screening process within the 
contracts between the department and RMC Research Corporation 
and subcontracts entered into by RMC to provide technical 
assistance.
    If Congress included a screening process for these 
situations that required a review of the potential financial 
interests in and other connections to particular products for 
each individual consultant hired under one of these contracts 
and required the screening process to be designed to prevent 
bias or the appearance of it, would that strengthen the 
technical assistance process?
    Mr. Higgins. Yes, it would.
    Could I also correct a statement that I made before?
    Mr. McKeon. Yes.
    Mr. Higgins. It was not 70. It was 25.
    Mr. McKeon. Six out of 25?
    Mr. Higgins. Yes.
    Mr. McKeon. Thank you.
    Mr. Higgins. That we reviewed.
    Mr. McKeon. Thank you.
    Mr. Doherty. May I make an important clarification to agree 
with Mr. Higgins?
    My understanding is that as part of their review, the 
inspector general reviewed 25 as a sample of the larger group 
of about 70. So the six that were found to have this link, 
which we do not perceive as a conflict of interest, was out of 
the 25. That is not to say there were only 25 expert panel 
members.
    Thanks for letting me clarify that.
    Mr. McKeon. Thank you.
    Beyond what Congress can do to address your specific 
findings, Mr. Higgins, I do want to get into other aspects of 
your reports.
    We often hear complaints from grant applicants who think 
the department--and other agencies, for that matter--include 
requirements that are not perfectly defined in the statute. I 
guess that is because we do not always pass perfect bills here 
in Congress.
    In your September 2006 report, you state that the 
department included language in the application that was not 
based on the statutory language, and as a result, states were 
forced to meet standards that were not required by the statute.
    As I read your report, these nonstatutory-based 
requirements include having, ``coherent instructional design 
that includes explicit instructional strategies, coordinated 
instructional sequences, ample practice opportunities and 
aligned student materials, protected dedicated block of time 
and small group instruction as appropriate to meet student 
needs with placement and movement base on ongoing assessment.''
    These all sound reasonable to me, although I am not an 
expert on reading instruction. Since you make a point of this 
in your report, my question is: Is it your view that in order 
to ask states to meet these types of conditions, Congress must 
specifically put such conditions in the statute in order for 
the application to be valid?''
    Mr. Higgins. What we were talking about----
    Mr. McKeon. Mic. Mic.
    Mr. Higgins. I need the microphone.
    What we were talking about was that there were specific 
requirements added to the statute for the panels to be 
reviewing. The requirement of requiring a 90-minute dedicated 
block of reading time and the requirement to require small 
groups of instruction, we believe, was designed to lock in 
Direct Instruction. We also believe that conversely that to 
eliminate requiring early intervention and reading----
    Mr. McKeon. So you are not suggesting that we do put that 
language in the statute?
    Mr. Higgins. No. I am not. No.
    Mr. McKeon. Mr. Doherty, would you care to respond to that?
    Mr. Doherty. Yes, thank you.
    From the time that No Child Left Behind was signed into 
law, January 8, 2002, a great many people at the Department of 
Education worked very hard and very quickly to turn that 
excellent statute--and specifically, in my case, the portion 
that applies to Reading First--into an application package that 
states could respond to, fill out, be reviewed against, and 
then be given their funds for their program.
    Although I had never taken part in this exercise before, I 
quickly learned that there are a number of judgment calls when 
a team of people takes a guiding statute and turns it into a 
much larger and much more comprehensive application package to 
give to our states.
    We worked in concert with the Hill on that process. We went 
back and forth in rigorous discussions with both sides of the 
aisle on what the application package would entail, and we 
thought we faithfully and in a good manner translated--that is 
probably not the right word--but we took the guiding statute 
and made an application package out of it.
    As far as the coherent instructional strategy of protected 
dedicated block of time and small group instruction, we 
thought--and think--that those components emanate directly from 
the guiding research, and in no way was that designed to lock 
in Direct Instruction. If I am not mistaken, Direct Instruction 
today represents a very small percentage of Reading First 
schools.
    I do stress we did our best effort to determine an 
excellent statute into an excellent application and in no way 
made those decisions to lock in Direct Instruction.
    Mr. McKeon. Thank you.
    Sticking with this issue, Mr. Higgins, I assume the 
department's lawyers reviewed the application, made sure that 
it conformed to the law. Is that accurate, and if so, do you 
know why the department's lawyers signed off on the 
application?
    Mr. Higgins. I do not know that the general counsel did 
review it, to be honest with you.
    Mr. McKeon. Mr. Doherty?
    Mr. Doherty. Yes. The Office of General Counsel, on a 
complex a new program like this was involved in a very 
collaborative and supportive way from day one and ongoing. So 
we fully believe that the Office of General Counsel, along with 
many other offices, approved this application.
    Mr. McKeon. Mr. Doherty, I want to spend some time talking 
about this influencing curriculum issue. I assume that you are 
familiar with Section 9527 of the SEA and Section 103 of the 
Department of Education Organization Act, both of which 
prohibit the federal government from dictating local school 
curriculum. How does the department define ``curriculum''?
    Mr. Doherty. Actually, I cannot give a formal answer as to 
how the department officially defines ``curriculum.''
    Mr. McKeon. Maybe you could respond on that for the record, 
if you could follow up later with that.
    Mr. Doherty. Okay. I certainly will.
    Mr. McKeon. Thank you.
    What policies does the department have in place to ensure 
this prohibition is not violated?
    Mr. Doherty. I cannot speak authoritatively for the 
department as a whole. I can say that as regards Reading First, 
we from the first days felt what you might call a structural 
tension between the very explicit requirement in Reading First 
that all instructional materials must be based on 
scientifically based research and our statutory duty to 
undertake that obligation, that there is, I think, an 
undeniable underlying tension between that very clear bright 
line law and the sections of law that you mentioned earlier, 
sir.
    Mr. McKeon. Mr. Higgins, maybe I will ask you that same 
question. What policies does the department have in place to 
ensure that prohibition is not violated?
    Mr. Higgins. Actually, we had asked the general counsel if 
there was a definition of ``curriculum,'' and they told us that 
there was not. So I do not think there are a lot of safeguards.
    Mr. McKeon. No definition, so there is no reason----
    Mr. Higgins. Exactly.
    Mr. McKeon. So maybe that needs to be addressed.
    How did the department's Office of General Counsel 
communicate with department staff regarding these prohibitions 
and the policies related to them, Mr. Doherty?
    Mr. Doherty. I do not recall any particular conclusion that 
the Office of General Counsel gave us as far as marching orders 
other than to say we worked closely with the Office of General 
Counsel, always aware that a new and different law, like 
Reading First, which specifically required us to ensure that 
all programs and materials were based on scientifically based 
research, was something that the department needed to do by 
law, and we never were told on any occasion that we were 
violating either of those other sections of law that you cited.
    Mr. McKeon. How many states included a specific list of 
reading programs in their applications for funding?
    Mr. Doherty. To the best of my recollection, three of the 
54 state educational agencies mentioned core reading programs 
by name in their applications to the expert review panel. The 
others, sir, described the criteria with which they would go 
forth and pick programs with their districts, and they were 
approved based on those criteria.
    Mr. McKeon. Of those three, how many were sent back for 
revisions or were denied because of the programs included on 
their list?
    Mr. Doherty. Of the three states that cited programs? Sir, 
is that your question?
    Mr. McKeon. Yes.
    Mr. Doherty. I do not recall how many times those three 
state educational agencies had their programs reviewed, but I 
do mention that there are 25 criteria which an application 
needs to satisfy, and although we are focusing on programs 
here, there are a great many other requirements as part of 
Reading First. So it is quite possible that those states in 
question might have had a round or two or three of review, and 
it may or may not have had anything to do with the programs 
that they cited in one part of their application.
    Mr. McKeon. Thank you.
    Is my time expired, Mr. Chairman?
    Chairman Miller. Do you want to finish what you are asking.
    Mr. McKeon. Well, I might have to submit some of these for 
the record because there are more than I am sure I have time 
for.
    Chairman Miller. I thank the gentleman.
    I am going to go ahead and start my second round of 15 
minutes.
    I want to advise the members of the committee I will 
probably only take 5 minutes because we do have a vote on. It 
is my understanding that we have nine. We have nine votes.
    Some of you will have children and grandchildren before we 
get back here. [Laughter.]
    I am going to start and take 5 minutes, and then we will 
recess for the votes. Then we will come back, I will finish, 
and then Mr. McKeon gets his time.
    I hate to be a stickler for the law, Mr. Doherty, but this 
law, as the inspector general says a number of times, is pretty 
explicit with respect to some guidelines for Reading First, and 
it was written by the proponents of Reading First.
    If I could look at Slide B in the guidance--and we will 
come back to what the guidance was--you decide that the 
guidance is fundamental, that is where you will put the law, 
and you state in this e-mail that ``It has been suggested to me 
that the guidance may be the most problematic place to put some 
of your suggestions for increased boldness. Why? The guidance 
is the official place where the state people with the closest 
meaning to the law will go to see where Ed have overstepped the 
law and let them say in remarks to groups or face to face in 
meetings about what the review panel will or will not accept. 
The opportunities for boldness and perhaps extralegal 
requirements are many.''
    So, according to the inspector general's report. The 
guidance is going to be used to provide a written facade of 
compliance with the law, but, in fact, what is going to take 
place off the record is to some extent different.
    The inspector general on page 15 goes on to say, ``The 
assistant secretary''--Susan Newman I believe it is--``planned 
for the Reading First guidance to include language that was not 
in the statute and exclude language that was in the statute.
    ``After reviewing the revision of the department's draft on 
the Reading First guidance, the assistant secretary for OESE,'' 
Ms. Newman ``wrote the Reading First director, `Under Reading 
First plans, I would like not to say ``This must include early 
intervention and reading remediation materials,'' which I think 
could be read as ``reading recovery.'' Even if it is the law, I 
would like it taken out.' ''
    We go to the question of it being the law, twice in the 
law, ``based on scientifically based reading research, 
including early intervention and reading remediation materials, 
programs and approaches.'' We say that twice in the law, 
Section 120(d)(1) and 1203(b), and the secretary says she wants 
that taken out of the law because it might let somebody capture 
reading recovery, which many schools, districts, states and 
others use, that somehow that might allow it to happen.
    So we are back to your giving her the signal earlier on 
that the opportunities for boldness and perhaps extralegal 
requirements are many. And they are.
    ``The Reading First director illustrated this strategy by 
providing the following examples in pre-reading notes 
documents: Providing expanded opportunities to students.'' This 
is Section F2 2(b) of the guidance. It says, ``Providing 
expanded opportunities to students in kindergarten through 
Grade 3 who are served by eligible local educational agencies 
for receiving reading assistance from alternative providers.''
    I do not know what that sentence says, but you say, ``We 
make absolutely no mention of this opportunity in the 
application because we do not like it and we do not want to 
open the door to this, but it is in the law and it needs to be 
addressed somewhere reasonably official--like the guidance--as 
a best compromise.''
    Then you go on to state another example. ``Are there any 
required priorities for funds reserved to the states? Yes, a 
state educational agency shall give priority to carrying out 
the activities described in Question F2.''
    You go on to say again, ``My belief is that this is a 
potential back door through which some of the money could flow 
to unwanted directions, and, therefore, required priorities for 
funds reserved for the states element of the law is not--not--
in the application, but we do have to reflect it, as we know it 
exists somewhere in the place, and that is the guidance.''
    So you threw out the guidance to the states. Ms. Lewis and 
others looked at this and said, ``This is the process by which 
we are going to work,'' and back door on your BlackBerry, you 
are undermining the integrity of the program. What was your 
commitment to the law and your apology is what, that mistakes 
were made, because that is kind of the mantra in the 
administration?
    Mr. Doherty. As the e-mail that you cited shows, I was 
being pressured for not being bold enough. I was being 
pressured in another e-mail that the inspector general cited 
for not being bold enough. The directive that was given to me 
was to take such-and-such out. I indicated, as you read, that 
we were unable to do that.
    Again, we worked with a team of people to decide which 
parts of the statute would be reflected in application criteria 
and which parts of the statute----
    Chairman Miller. That pressure came from whom? You 
mentioned that in your opening statement also.
    Mr. Doherty. It is the woman that you mentioned.
    Chairman Miller. Ms. Newman?
    Mr. Doherty. Yes, sir.
    Chairman Miller. The assistant secretary?
    Mr. Doherty. Yes, sir.
    Chairman Miller. So she was asking you to violate the law?
    Mr. Doherty. Well, I was just commenting on the slide that 
you put up there as far as ``I want such-and-such taken out,'' 
and my response, as I remember it, in that message was, you 
know, ``We cannot do that. We need to address this,'' and as I 
say, turning that statute into a program, into an application 
and into guidance involves judgment calls as to what goes 
where.
    Chairman Miller. Mr. Doherty, maybe that is the way the 
ethics standards in this program lapsed. You do not get to 
override the law because you are turning the law into a 
program.
    Mr. Doherty. I did not mean to suggest that.
    Chairman Miller. Agencies and departments and nonprofit 
organizations and states struggle with this all the time, and 
they do not just decide at some point, well, we will just 
violate the law. You do not get to do that. You do not get to 
do that.
    In this case, as pointed out, twice in the law that 
specific language is there. The department does not just get to 
ignore that.
    Mr. Doherty. I am sorry if I suggested that I thought we 
were ignoring the law.
    Chairman Miller. Well, you suggested that because of 
logistics, because of the time frame, because you might get 50 
applications all at one time--you have a whole litany of 
reasons why you did not have to abide by the law.
    Mr. Doherty. We thought then and think now that we did 
abide by the law.
    Chairman Miller. Okay. With that, I will reserve the 
balance of time.
    The committee will adjourn, and we will return promptly at 
the end of the last vote. It will be a little while, so if 
somebody wants to get a cup of coffee or something, feel free 
to do so.
    [Recess.]
    Chairman Miller. Thank you very much. I apologize for the 
interruption here. This was supposed to be, when we scheduled 
this, a light day on the floor. It turned out to be a multiple-
vote day on the floor.
    The meeting will reconvene.
    Ms. Lewis, you have listened to this conversation, and the 
inspector general spent some time on Kentucky. You, in your 
opening statement, went through some of the difficulties you 
have. I just wondered if you might have something you want to 
add in light of what you have heard back and forth here.
    Ms. Lewis. Well, I have been a bit curious about the panel 
review process from the beginning. We asked early on in the 
denials of funding to find out who was on our expert review 
panel, and we were told that we could not know who was on the 
panel.
    As we looked at the summary of the reviews from the panel, 
we often found that the information we were given was vague, 
not very helpful. It would say things like, ``There are pieces 
in this that are not sufficiently scientifically based,'' but 
the panel review did not really give us specific information 
about what it was that was problematic in terms of our 
scientific basis.
    I guess what I would want to say about the overall process 
is when I look at our first proposal and I look at our fourth 
proposal, I do not see anything really substantially different 
in terms of our plan. We had really hoped to have Reading First 
in our schools in the fall of 2002, which is why we really 
scrambled to put together a proposal in May of 2002. Of course, 
with the delays that we had, being denied three times, it put 
us a year behind in implementation.
    Chairman Miller. Did you have any awareness--or your team--
or when you talked to others, since a lot of states were making 
application, that, in fact, the panel review had been 
intercepted, if you will, that what you saw was not reflective 
of the panel review? Did you assume what you were seeing was 
the panel review?
    Ms. Lewis. I assumed that what I saw in the comments from 
the summaries from the department that they reflected the panel 
reviews. As I mentioned earlier, I was given yesterday----
    Chairman Miller. When did you learn there were two 
versions?
    Ms. Lewis. Yesterday. I was----
    Chairman Miller. Mr. Higgins, that would not be unusual?
    Mr. Higgins. That is what we found also.
    Chairman Miller. You say in your report to us, ``While the 
panel chair summaries''--I guess which were supposed to be sent 
to the states, correct?--``provide constructive comments, the 
impact of the expert panel review's comments on the state 
revisions is uncertain because of actions taken by the 
department's Reading First office. After the panel chair 
submitted the panel chair summaries to the Reading First 
office, the Reading First director and his assistant created 
what they called expert review team reports.''
    That is what you saw. Is that correct, Ms. Lewis?
    Ms. Lewis. That is what I saw.
    Chairman Miller. ``This was provided to the states. No 
other documents reflecting the expert review panel's comments 
were provided to the states. The department did not explain 
this practice in the review or guidance or in the Reading First 
guidance.''
    So, in fact, there was a misrepresentation being made to 
the states, and in your report--I do not know if this is 
exhaustive or not--you cite the state of Nevada, the state of 
New York and the state of Georgia where sort of back-channel, 
off-the-record actions are taken and/or the information just 
does not comport with the initial panel reviews.
    Mr. Higgins. Right. Correct. We found that there were cases 
where the comments were changed, comments were left out, and 
there were additional comments added.
    Chairman Miller. Is that allowed in the law? Is that 
discretionary, or is it allowed?
    Mr. Higgins. I would not think it would be allowed, but I 
do not know if----
    Chairman Miller. The panel reviews had specific duties 
under the law, as I understand it. Is that correct?
    Mr. Higgins. Yes, but I do not think it got that specific 
about what was allowed and what was not allowed, but I 
certainly----
    Chairman Miller. Well, Mr. Doherty could have created this 
panel and not violated the law. He could have created this----
    Mr. Higgins. Yes, definitely.
    Chairman Miller. He just created a fraud in terms of the 
states because they--I am not asking you to comment--got a 
misrepresentation of what the panels concluded or thought about 
their program.
    Mr. Higgins. They did not get what the panelists said.
    Chairman Miller. So you had to go through, what, four 
submissions? Three submissions?
    Ms. Lewis. The fourth submission was funded.
    Chairman Miller. Well, it is interesting because we have 
the appearance again in the guidance and others of the law 
being followed, but there is this off-the-books activity by Mr. 
Doherty and others, and Kentucky was the recipient of some of 
that activity, but, apparently, you are tougher than you look 
because when you decided that you wanted him to put it in 
writing, you never heard back.
    Ms. Lewis. Never heard back, no.
    Chairman Miller. And you were funded.
    Ms. Lewis. What we asked him to put in writing was to say 
that we could not use the two programs.
    Chairman Miller. The inconsistency. Yes, yes.
    Well, thank you very much. And, again, I am sorry that it 
went like that for the state in terms of the delay and the 
rest.
    Excuse me one second. The inspector general--again Mr. 
Higgins--cited on page 19 that the ``department intervened to 
release an assessment review document without the permission of 
the entity that contracted with the development.''
    Again, there was a process for an assessment review 
document to be created. I think this was prior even to the law, 
was it not?
    Mr. Higgins. Yes.
    Chairman Miller. And that was to do what? That was to 
advise the states?
    Mr. Higgins. Well, it was a review of the assessments, and 
what happened was that NIFL was uncomfortable with the results 
of the assessment, and they were not going to approve it. Mr. 
Doherty asked Mr. Kame'enui to put it on the Web site of the 
University of Oregon without the permission of NIFL.
    Chairman Miller. And if you wanted to see what assessment 
tools had been reviewed--in theory by the department--that was 
the presentation--the only place that this existed was on this 
Web site, was it not?
    Mr. Higgins. The University of Oregon's Web site. And NIFL 
did not know it was on that.
    Chairman Miller. NIFL was supposed to create this. Were 
they not responsible for it?
    Mr. Higgins. The assessment committee was to produce it 
under contract for NIFL.
    Chairman Miller. So, Mr. Kame'enui, how did you get this on 
the Web site without NIFL's approval?
    Mr. Kame'enui. I received an e-mail from Mr. Doherty to 
post our findings from the Reading First assessment committee.
    Chairman Miller. And you assumed what, that he was speaking 
for the department?
    Mr. Kame'enui. Yes.
    Chairman Miller. And so, as far as you were concerned, this 
was the official posting of these assessment tools.
    Mr. Kame'enui. That is correct. I was not aware of NIFL's 
involvement in the support of the Reading First assessment at 
that time. That became evident later, not at the time.
    Chairman Miller. But, Mr. Good, you were aware of this?
    Mr. Good. I was aware of what?
    Chairman Miller. The troubles with posting this? Were you 
involved in the creating of the assessment committee?
    Mr. Good. I was not involved in the creation of the 
committee or the decision to post or not post on the Web site.
    Chairman Miller. Do you sit on the assessment committee?
    Mr. Good. Yes.
    Chairman Miller. And the assessment committee selected a 
group determined sufficient for Reading First? You looked at 
29--is that right?--and you selected 24.
    Mr. Good. We examined 29. Weren't there 27 that had 
evidence of support?
    Chairman Miller. There were seven that were directly tied 
to members of the committee. Maybe that is the seven you are 
thinking of.
    If we can look at Slide D, then I will try to conclude 
this. I do not think anybody is there. But what it points out 
is that you had 29 tools subject to review, I believe, again, 
18 of which were personally recommended by assessment committee 
members, and then I think the remainder were taken off the list 
from the Southeast Education Lab, or one of those 
organizations. Then the assessment committee members then 
reviewed these, and they found 24 of them sufficient for 
Reading First, and we have seven of those sufficient tied 
directly to assessment committee members.
    Mr. Good. That sounds about accurate.
    Chairman Miller. So yes. Does ``conflict of interest'' 
cross your mind at all when you hear that?
    Mr. Good. As I say, we followed the standards of the 
academy in looking at that issue of conflict of interest.
    Chairman Miller. What academy?
    Mr. Good. By that, I mean sort of the university world. If, 
for example, we are publishing a paper, that paper would be 
peer reviewed by other experts who know about it. We do not 
know that peer review group, and the person who does the review 
is not directly involved in the paper. So we followed really 
those standards as best that we could.
    Chairman Miller. What about when the people reviewing each 
other's papers know one another?
    Mr. Good. This is frequently the case in the university 
world.
    Chairman Miller. The academy may want to review it as a 
potential conflict of interest.
    Mr. Good. The person who has authored the paper never knows 
who the reviewers are.
    Chairman Miller. Yes. So you are suggesting that the 
members of the assessment committee did not know one another?
    Mr. Good. We knew each other, but we did not----
    Chairman Miller. You did not know one another's products?
    Mr. Good. And we knew each other's products. We were very 
public about that. But I do not know who reviewed DIBELS on 
that committee. So the specific people are blind to me, and for 
their products----
    Chairman Miller. I am out of time. We will have to come 
back to this.
    I want to yield to Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman.
    I yield 15 minutes to Mr. Castle, the subcommittee ranking 
member.
    Mr. Castle. I thank both the Chairman for holding this 
hearing and the senior Republican for his interest in what we 
are doing here as well.
    I have read the full notebook that was prepared for us, I 
have read your testimony, and I have listened to you here, and 
it is hard for me to conclude anything other than the fact that 
there were some conflicts of interest. There were ethical 
lapses here. I do not know if they were violations of the law 
or not. That is beyond my prerogative at this point. And I do 
not know if some of these things happened because of political 
or ideological or financial reasons or some combination of all 
of the above, but it all concerns me.
    But there is a certain irony to all this, and that is that 
virtually all of you--and my own state of Delaware in an 
opening statement which I submitted--basically praise this 
program of Reading First. We hear a lot of negatives about No 
Child Left Behind, but this is one program which we hear 
virtually all positives.
    So, hopefully, with the legislation that Mr. McKeon's 
introduced which I have cosponsored, working with Mr. Miller, 
we can straighten out some of these problems and put forth a 
program which generally does what all of you have indicated, 
which is to help the children of this country be able to read 
sooner and better.
    I am going to start with--this is a very dangerous 
practice--a question I am going to ask all of you to answer. 
So, hopefully, you can be fairly brief in your answers.
    We have heard a lot today about improper procedures and 
biases against certain reading programs, notably Reading 
Recovery and DRA, Diagnostic Reading Assessment. On the other 
hand, we know Congress's mandate to the department was to only 
fund scientifically based reading programs and assessments. In 
other words, the department was required to be biased against 
some programs. I do not think we can fairly answer the question 
whether the department was appropriately or inappropriately 
biased unless we know whether the programs were scientifically 
based or not.
    Why was there a perception that certain programs, such as 
Reading Recovery and DRA, were not scientifically based, and 
were those perceptions accurate? Now some of you may feel you 
cannot answer that, but I want you all to take a stab at it.
    Ms. Lewis, I would like to start with you and work that 
direction. Kentucky seems to have been hurt or biased against 
or whatever, but you may not know the answer to that particular 
question. I would be interested in your views.
    Ms. Lewis. I can tell you how we tried to approach it. We 
went to technical assistance sessions with the U.S. Department 
of Education and the Reading First staff. As I point out in my 
testimony, we went to every technical assistance session, and 
one of them was on assessments.
    We were trying to learn what the program staff meant when 
they talked about scientifically based reading research. We 
felt that it was our job to take on learning what that meant 
and share that information with our schools.
    We looked into all the different assessments that we were 
considering using. We looked into their technical manuals. We 
looked into the information about their efficacy. We did lots 
of research with other states in terms of what kinds of 
assessments they were using and how effective they were. We 
also looked at the research on Reading Recovery.
    Now sometimes when I look at scientifically based reading 
research, it almost sounds like it is in the eye of the 
beholder, and I am going to give you an example of this. The 
department has a Web site called The What Works Clearinghouse. 
Now I would assume that The What Works Clearinghouse would care 
about scientifically based research programs.
    There are very few programs that make it on to The What 
Works Clearinghouse. Reading Recovery was just added to that 
list. It is a very narrow list, and I would assume that there 
are strong standards, high standards that programs would have 
to match.
    So my confusion about scientifically based reading research 
is: How does one determine that? Is it based on real concrete 
criteria, or is there room for opinions and thoughts about a 
particular program?
    Mr. Castle. Maybe we will get the answer.
    Ms. Lewis. We did our best in applying what we understood 
about scientifically based reading research.
    Mr. Castle. Thank you.
    Dr. Simmons?
    Ms. Simmons. I am not familiar with the Diagnostic Reading 
Assessment, the DRA, so I cannot speak to that one.
    But my knowledge as a reading researcher on Reading 
Recovery is based on a synthesis of research that was one in 
about 5 years ago that was published in the Educational 
Researcher that indicated that it was effective in some 
conditions, but I cannot recall the specifics of that.
    But, overall, the conclusion was that after a summary of 
research and a review of that that it was not as effective as 
has been documented.
    Mr. Castle. Thank you.
    Dr. Good?
    Mr. Good. I have not conducted a review of Reading Recovery 
or of DRA, and I have not done research on them. I am not 
qualified to say that they are or are not scientifically based.
    Mr. Castle. Thank you.
    Mr. Doherty?
    Mr. Doherty. On the issue of the Diagnostic Reading 
Assessment and whether that particular assessment is valid and 
reliable--and in the case of Kentucky, the DRA was put forth 
for application--I can just say that from my memory four 
different psychometricians, four different folks extremely well 
versed and trained in determining whether assessments are valid 
and reliable, across six different panels came back to the 
department and said that the DRA was not valid and reliable for 
the purposes that had been suggested in the states. Not being a 
psychometrician myself, but requiring to have them on the 
panels, we in turn took that feedback and gave it back to the 
states; in one case, to Ms. Lewis in Kentucky.
    As far as Reading Recovery is concerned, I do not have 
anything to add to Dr. Simmons' answer.
    Mr. Castle. Thank you.
    Dr. Kame'enui?
    Mr. Kame'enui. Well, I think you posed the right question 
about how do we define scientifically based reading research, 
and I think it is fair to say that in educational research we 
have such an immature science, it is still formalizing, still 
developing, as Ms. Lewis noted.
    The What Works Clearinghouse, which utilizes the highest 
rigorous standards--randomized control trials, quasi-
experimental trials--to look at the reading research, just 
basically noted that Reading Recovery met the highest 
standards.
    But prior to that, I think you noted it. It is very 
difficult to define scientifically based reading research. Up 
to the most current review of the research, Reading Recovery, 
the assessment, at least the judgment in the field, was that it 
did not meet the most rigorous standards, and there were other 
issues--the cost of it, the fact that it focused on individual 
students as opposed to groups of students and so on.
    So I think we still have a lot to learn about that.
    Mr. Castle. Thank you.
    Mr. Higgins, I was going to skip over you because I think 
it is beyond your prerogative. If you have something quickly 
you want to add, I would be happy to hear it.
    Mr. Higgins. No, I do not have anything to add. I do not 
think our office really has the expertise.
    Mr. Castle. I did not think so either, sir.
    Dr. Kame'enui, you stated during the assessment committee 
process, you never received guidance from the department or the 
contractor regarding conflicts of interest. Did the department 
or the contractor ever express any concerns about ensuring the 
impartiality of the committee's report or ask you what you were 
doing to ensure impartiality?
    Mr. Kame'enui. No, it did not.
    Mr. Castle. Let me ask Mr. Higgins then. Who has the 
responsibility to ensure that the contractors address these 
conflicts?
    Mr. Higgins. Well, I think the department had a 
responsibility in its oversight capacity, but I do believe that 
this was contract with NIFL. Are you specifically talking about 
the RLAs?
    Mr. Castle. Actually, I was asking more generally than 
that.
    Mr. Higgins. Well, I think the department has a 
responsibility to monitor it.
    Mr. Castle. Thank you.
    Dr. Simmons, the inspector general's report highlighted 
your role in working with Maryland to develop their list of 
core reading programs. Could you tell us about that process and 
how you came to be involved in it, and were you then connected 
in any way to any of the programs ultimately chosen by 
Maryland, particularly Reading Mastery?
    Ms. Simmons. I was actually surprised when I was reading 
the inspector general's report to see my name mentioned because 
I honestly had no recollection of that involvement. I do not 
have the e-mail documents that were referenced in that report, 
so I do not recall making recommendations to Maryland.
    However, if I did, I was referring Maryland to the Oregon 
review of programs, and the Oregon Reading First Center 
conducted a review of core reading programs that included 
conflicts of interest and no one associated with the program 
was involved in that review.
    And, no, I have no affiliation with Reading Mastery.
    Mr. Castle. Thank you.
    Let me ask this question, I think, of Mr. Doherty. From 
what we have heard, schools need a database system to go with 
DIBELS for the purpose of scoring the assessment and reporting 
the data. To what degree are you involved with the DIBELS 
database system operated out of the University of Oregon and 
how much are schools charged for that service and where does 
that revenue go?
    Actually, I am going to ask that question to several 
people.
    Mr. Doherty. Do you want me to start, sir?
    Mr. Castle. Well, you can start, yes.
    Mr. Doherty. Okay. If the first part of the question is 
whether I have any personal or professional connection to 
DIBELS itself, I do not. I do not now, and I never have in the 
past.
    For the rest, well, there are DIBELS experts on either side 
of me, but my understanding is that DIBELS, because you asked 
about the cost, I think, is free to those who want to use it 
and download it from the Web.
    Mr. Castle. Yes. Well, that is true, but there are also 
explanations of why that is complicated and why you need to 
subscribe rather than download it from the Web from reading the 
background on it.
    Mr. Doherty. I defer to those who created DIBELS for a much 
better answer.
    Mr. Castle. Let me go to Dr. Kame'enui then, if I may, on 
that question.
    Mr. Kame'enui. Yes. My involvement with DIBELS is not as an 
author, not as a creator. At the time, I was director of the 
Institute for the Development of Educational Achievement, which 
is a research entity at the University of Oregon, and we 
developed, with support from the university, the database 
system that supports DIBELS.
    As a result, schools can get access to that data system, 
use the data system. They can input children's data from DIBELS 
and get reports back in about 30 seconds. The charge for the 
service of that is $1 per kid per year, primarily for the use 
of that data system.
    The revenues go to the university. I do not profit from the 
data system at all, and because DIBELS is a unique and 
innovative kind of assessment tool, it takes about a minute to 
use to assess and evaluate a child's reading performance on 
different types of reading skills.
    So schools are attracted to it because they can use it in a 
minute, get access to results in about a minute and a half from 
the data system and then use that information to make timely 
decisions about instruction that is required for children.
    Mr. Castle. Dr. Good, your involvement with DIBELS?
    Mr. Good. Thank you.
    I have been involved with DIBELS data system from its 
inception. In fact, the prototype version of it was run by 
myself on my computer with research partners.
    We have, with DIBELS, made public all of the decision rules 
and all of the procedures, and there is nothing unique about 
DIBELS data system in creating those reports or using those 
decision rules. In fact, we do strongly recommend a database to 
use with DIBELS, but there are very many different options of 
database that are available.
    There is the AIMSweb data system which uses that 
information from our reports to report on DIBELS. There is the 
PMRN data system from Florida. There is the First Track----
    Mr. Castle. I do not mean to cut you off, but I am going to 
move on, if I can, because I need to go through some other 
questions. Please sum up quickly.
    Mr. Good. Okay. And also many school districts create their 
own data system using those public decision rules. So there are 
lots of choices. DIBELS data system is only one.
    Mr. Castle. Dr. Simmons, what is your DIBELS involvement, 
if any?
    Ms. Simmons. I am not an author of DIBELS, and like Dr. 
Kame'enui, I was at the University of Oregon at the time. Any 
revenues that were created by schools' choice to use the data 
system were always returned for the analysis and reports that 
were sent back to schools, and I made no profit from that.
    Mr. Castle. Thank you.
    Let me ask you a follow-up question, Dr. Good. The Reading 
Leadership Academies have attracted a great deal of attention, 
as we know. The inspector general found that DIBELS may have 
inappropriately endorsed at those academies.
    What role did you play at those academies? Did you ever 
speak with your faculty colleagues or people at the department 
about having a role at the academies or how you could 
disseminate information about DIBELS through those academies?
    Mr. Good. I participated in the development of the 
assessment module for the academy and presented that module, I 
think in Washington and in San Francisco. That presentation was 
vetted. I turned over that presentation to Department of Ed, 
and they reviewed it and the contents, gave feedback. I 
modified consistent with that and made that presentation.
    Mr. Castle. My time is up, I think. May I ask one more 
question, Mr. Chairman?
    One very last question to Mr. Doherty on DIBELS, and it 
relates to sort of where your testimony began. The assessment 
committee gave its stamp of approval to 24 different 
assessments. Why is it that DIBELS has faired so well in these 
stamps of approval?
    Mr. Good. I----
    Mr. Castle. Actually, that is to Mr. Doherty.
    Mr. Doherty. My take on why DIBELS has faired so well has 
to do with the fact that, like the law itself, DIBELS looks at 
the things that are important to assess as the five components 
of reading--phonemic awareness, phonics, fluency, comprehension 
and vocabulary--and it had assessments for K, 1, 2 and 3.
    So when the states were presented with the rather daunting 
task of needing to have valid and reliable assessments for all 
five components in four grades, they were really scrambling, 
and DIBELS looked at the reading assessment world in a similar 
manner, and it was ready to go.
    Second, there was another program that is highly regarded, 
the Texas Primary Reading Inventory. At the time the law came 
about, TPRI, as it is known, did not have its third-grade 
portion completed. So, when states chose to go with DIBELS, 
they essentially got a lot of the assessment burden covered by 
that one instrument.
    And lastly, although I understand that there is a $1-per-
kid-per-year fee for the database service, it is also my 
understanding that it is free if you want it without the 
database service, and, frankly, I think that that also made it 
very attractive to states who are always trying to maximize 
their use of funds for something that seemed to fit so well and 
was free to them.
    Mr. Castle. Thank you.
    I yield back, Mr. Chairman.
    Chairman Miller. Without objection, I am going to ask for 
10 additional minutes just to follow up on that point, and I 
probably will not use all of my own time. With no objection. 
Thank you.
    Like a lot of questions, there is more than one answer. Mr. 
Doherty has one answer, and the inspector general has another, 
and in this case, the answer to Mr. Castle's question, in 
Finding 2, the inspector general says that the ``secretary's 
Reading Leadership Academy handbook and guidebook appeared to 
promote DIBELS.'' I am shorthanding, skills assessment test. 
``The Reading First statute required the use of screening 
diagnostics, and we found the department appeared to promote by 
including articles featured in the handbook and the 
guidebook.''
    Mr. Inspector General, Mr. Higgins, this was the only 
article that was included in the guidebooks and the handbooks 
that were handed out to the states and at these training 
sessions. Is that correct? This 29-page article was the only 
one that was included on DIBELS?
    Mr. Higgins. Correct. On both the handbook and the 
guidebook.
    Chairman Miller. So DIBELS was approved by that original 
committee where they are reviewing one another's products 
before the law was passed where there were 29 products, 24 were 
found sufficient and seven were linked to the members of the 
committee who knew they were reviewing one another's works.
    Mr. Higgins. Right.
    Chairman Miller. And then on the assessment committees, we 
have Mr. Kame'enui--is that right?--Ms. Simmons, Mr. Good, who 
are on those committees. Is that correct? And Mr. Kame'enui's 
school is getting royalties from DIBELS, Mr. Good is getting 
royalties from DIBELS, and Ms. Simmons is getting royalties 
from DIBELS, correct? You are not getting----
    Ms. Simmons. No. There were no royalties from DIBELS. The 
dollars for the services went back to the University of Oregon.
    Chairman Miller. But in your publishing with Mr. Kame'enui 
where you have DIBELS included in your textbook, I guess, I 
would say you are publishing now with DIBELS in your product. 
Is that correct?
    Ms. Simmons. I am not aware of that.
    Chairman Miller. It is not a part of--what is the textbook 
that you put together with Mr. Kame'enui? What is the name of 
it?
    Ms. Simmons. The intervention program?
    Chairman Miller. Yes.
    Ms. Simmons. It is called the Early Reading Intervention 
Program.
    Chairman Miller. And that is packaged with DIBELS. Is that 
correct?
    Ms. Simmons. It is not.
    Chairman Miller. It is not packaged with DIBELS.
    Ms. Simmons. No.
    Chairman Miller. Is that right, Mr. Kame'enui?
    Mr. Kame'enui. I do not think it is, sir, but I have been 
away from the University of Oregon and from the publishing 
world for about 3 years. So, at the time, it was not.
    Chairman Miller. This is the product by Scott Foresman?
    Mr. Kame'enui. The Early Reading Intervention is published 
by Pearson/Scott Foresman. That is right.
    Chairman Miller. And this is Early Reading Intervention. Is 
that the product?
    Ms. Simmons. That is the kindergarten intervention, yes.
    Chairman Miller. Yes. And you were negotiating with Scott 
Foresman while you were on the committee?
    Ms. Simmons. While I was on the assessment committee?
    Chairman Miller. Yes.
    Ms. Simmons. I was working with Scott Foresman, yes, but 
not on anything related to DIBELS.
    Chairman Miller. Well, you were working on Early Reading 
Intervention, which is published with DIBELS.
    Ms. Simmons. No, sir. Early Reading Intervention does not 
have DIBELS.
    Chairman Miller. Well, I may be wrong, but that is the 
publisher.
    Ms. Simmons. The Early Reading Intervention does not have 
DIBELS. You may be speaking of the Scott Foresman program which 
was published in 2006 that I am now an author of.
    Chairman Miller. Which is what?
    Ms. Simmons. It is a reading program that was published in 
2006 that is a kindergarten through Grade 3 reading program.
    Chairman Miller. What is the name of it?
    Ms. Simmons. It is Scott Foresman. The name of it is 
Reading Street.
    Chairman Miller. Okay.
    Ms. Simmons. Yes. It was published in 2006.
    Chairman Miller. So you were negotiating with Scott 
Foresman when you were on the assessment committee?
    Ms. Simmons. No, sir. Not about that.
    Chairman Miller. Not about that?
    Ms. Simmons. No.
    Chairman Miller. So you are receiving no royalties from 
DIBELS?
    Ms. Simmons. No, sir.
    Chairman Miller. But, Mr. Kame'enui, are you?
    Mr. Kame'enui. I do not receive any royalties from DIBELS.
    Chairman Miller. The center does?
    Mr. Kame'enui. I am sorry.
    Chairman Miller. Does the center at Oregon?
    Mr. Kame'enui. The center receives support from the 
university to continue to support the database system.
    Chairman Miller. And, Mr. Good, you do. You receive 
royalties. Is that correct?
    Mr. Good. Yes. I am with Dynamic Measurement Group, and 
Dynamic Measurement Group is paid royalty fees from Sopris West 
for the published version of DIBELS.
    Chairman Miller. Which you benefit from.
    Mr. Good. I do not benefit directly from those fees. Those 
fees are held in trust, and we spend them on sort of 
redevelopment of DIBELS, research on DIBELS. Those fees do not 
go directly to----
    Chairman Miller. And that is the organization you work for.
    Mr. Good. But they do go to the organization I work for, 
correct.
    Chairman Miller. So you work for what? What is it called?
    Mr. Good. Dynamic Measurement Group. It is DMG.
    Chairman Miller. Do you work for them?
    Mr. Good. Yes.
    Chairman Miller. Are you a shareholder?
    Mr. Good. Yes, I am a 50 percent shareholder.
    Chairman Miller. Oh, I like to work for those kind of 
companies.
    Well, maybe that adds something to the question of why 
DIBELS is so pervasive across this Reading First Program. When 
we see the extent to which through almost every step that was 
critical to the states making decisions, we either have a 
conflict of interest or we see where the individuals 
responsible for running the program simply decided not to obey 
the law, and it has led to this situation.
    With that, I would like to yield to Mr. Yarmuth. Is he 
here?
    How much money comes into DMG from DIBELS?
    Mr. Good. Actually, I might have to pull that out.
    Chairman Miller. While you are looking for that 
information, Mr. Yarmuth is here.
    Mr. Yarmuth, you are recognized for 5 minutes.
    Mr. Yarmuth. Thank you, Mr. Chairman.
    It gives me particular pleasure to welcome Ms. Lewis, a 
constituent of mine and someone who has worked very diligently 
to improve education in our state.
    Ms. Lewis, when you heard Mr. Doherty talking about the 
types of things that they considered in applications and the 
emphasis on criteria and the mention that there was never a 
need to mention individual program providers, what was your 
reaction to that? Did that seem consistent with your 
experience?
    Ms. Lewis. It is consistent with our experience in terms of 
reading programs, and it is true that we did not name any 
reading programs or any intervention programs in our proposal. 
We did, however, name the assessments. Again, this has been 
awhile, but I do not know why we would have named the 
assessments, had we not been required to do so.
    We felt that we had legislative cover, so to speak, in 
terms of not listing core reading instructional programs, but 
we did not feel that we had any kind of opt-out situation in 
terms of the assessments. We went to all the technical 
assistance workshops. We went to the ones on assessments. We 
put together what we felt was required, and we did name the 
assessment programs in our proposal.
    Mr. Yarmuth. And to reinforce and to clarify what you had 
said earlier, you made three applications which were rejected 
and then a fourth that was accepted, and you said that there 
was nothing substantially different from the first one to the 
fourth one. What about from the third one to the fourth one?
    Ms. Lewis. In the third one, we did include DIBELS. That is 
when we started the inclusion of DIBELS in that process. And 
then in the fourth one, we removed DRA. Those were our big 
changes in terms of our proposal.
    Mr. Yarmuth. And in terms of the criteria and all the other 
factors related to the Reading First Program in Kentucky, those 
were the only two significant changes.
    Ms. Lewis. We had questions along the way about our 
professional development plans. We were guided by our technical 
assistance team from RMC to name particular individuals from 
particular universities. In fact, we were encouraged to include 
presenters in our professional development from the University 
of Oregon and from Texas.
    At first, in our first couple of proposals, we were trying 
to make the argument that we have many people in Kentucky that 
meet the criteria that were stated for the professional 
development providers in terms of their experience with 
scientifically based reading research.
    If you look at our last proposal, I believe we did add 
information that we would contact other individuals, and, in 
fact, when I got the reviewer notes from yesterday, the 
reviewers were quite happy to see that we had named particular 
individuals from those particular universities.
    Mr. Yarmuth. So is it safe to say that, in your opinion, 
the pivotal factor in the ultimate acceptance of your proposal 
was the fact that you had included DIBELS and dropped DRA?
    Ms. Lewis. Yes.
    Mr. Yarmuth. And that was the only significant factor?
    Ms. Lewis. Yes.
    Mr. Yarmuth. Thank you.
    Mr. Doherty, we have talked today a lot about conflicts of 
interest concerning the screening panel. Can you tell me 
whether you had any conflicts of interest in this process at 
all?
    Mr. Doherty. In this process?
    Mr. Yarmuth. Yes.
    Mr. Doherty. My wife is a part-time consultant for an 
organization that is involved with Direct Instruction, and I 
made the department aware of that. She has never worked in a 
Reading First school. She only works part-time in Baltimore, 
Maryland. So, in my opinion, I did not have and do not have now 
any conflicts of interest.
    Mr. Yarmuth. But isn't it true that in 2002 you listed her 
in terms of the required conflict of interest disclosure 
because she had received income above a certain threshold from 
DI?
    Mr. Doherty. That is correct. I did fill out paperwork that 
indicated my wife's employer and how much she made.
    Mr. Yarmuth. But you did not include that in subsequent 
years. Was there a change in the situation?
    Mr. Doherty. There was no change in the situation. The 
subsequent years was an oversight on my part, but in no way 
changed the fact that I had declared my wife and her part-time 
employment and had an official memo on the file to that effect.
    Mr. Yarmuth. Looking back over this whole process, Mr. 
Doherty, is there anything that after listening to the 
discussion today that you would have done differently, that we 
should take as instruction as to what we should do differently 
in terms of a person in your position in the process that you 
supervised?
    Mr. Doherty. Yes. I think that, although we endeavored from 
the first days to follow the conflicts of interest protocols 
and worked with the Office of General Counsel to do so, we 
obviously did not do a very good job of keeping the perception 
of conflicts of interest from taking root and, frankly, dogging 
the program from the beginning.
    So I think it is very clear that we and I did not do the 
kind of job we wanted to, although we endeavored to do so and 
followed the rules as they were written.
    But your point is well made. I definitely think to keep 
these kinds of impressions from dogging a very successful 
program, we should change and improve our procedures, yes.
    Mr. Yarmuth. Thank you.
    Thank you, Mr. Chairman.
    Chairman Miller. Will the gentleman yield? Will the 
gentleman yield?
    Mr. Yarmuth. I will yield.
    Chairman Miller. In response to this question, you filled 
out the form about your wife's employment on the advice of the 
general counsel. Is that correct?
    Mr. Doherty. Yes. When I originally filled out the form and 
sent it in, shortly thereafter, I was contacted by the Office 
of General Counsel and asked, ``Do you have any spousal 
employment?'' and I said, ``Yes, I do.'' They said, ``Well, you 
need to add that to the form.'' I verbally over the phone with 
this person talked about my wife's employment. It was added----
    Chairman Miller. This is an annual form? This is a 
department form?
    Mr. Doherty. It is an annual form.
    Chairman Miller. So then you did not fill it out after 
that?
    Mr. Doherty. To the best of my recollection, 15 months 
after this conversation with the Office of General Counsel, I 
filled out the next form, and I proceeded to make the same 
innocent mistake that I had made on the first one, which is to 
very carefully list my mutual funds and other things, and I----
    Chairman Miller. So, after you were advised by the general 
counsel, you made an innocent mistake again to not list it?
    Mr. Doherty. That is correct. It was an oversight on my 
part.
    Chairman Miller. You are looking at people here that have 
to fill these forms out every year. I mean, it is just amazing, 
your image of the law.
    Mr. McKeon?
    Mr. McKeon. Mr. Castle? Five minutes for Mr. Castle.
    Mr. Castle. Well, thank you, Mr. McKeon.
    To Dr. Good, you mentioned that DIBELS is available for 
free on the Internet or could be bought through Sopris West. 
How do you say it? Sopris West? And since it is available for 
free, why would schools pay for it at all through Sopris West?
    Mr. Good. I do not have exact numbers of the numbers of 
schools who are using DIBELS because it is freely downloaded. A 
lot of people do it, and we do not have a record of it.
    Mr. Castle. Do you know how many are paying for it?
    Mr. Good. I have too many papers going around, but, for 
last year, there were about 800,000 students who had been 
tested with DIBELS using a paid version of it. I think we are 
tracking probably close to about three millions students now in 
DIBELS data system. I think there is probably at least another 
800,000 in PMRN and other data systems. So I think maybe a 
third to one-quarter are using a published version as opposed 
to a freely downloaded version. It is a very rough kind of 
guestimate of it.
    Mr. Castle. When schools use DIBELS, they must also find a 
way to collect and report the data. I am told that you are 
involved with a company called Wireless Generation that 
provides those services. Is that correct?
    Mr. Good. Yes. Wireless----
    Mr. Castle. And if so, what is the nature of that 
relationship?
    Mr. Good. I am not sure of our initial date for working 
with Wireless Generation, I would have to look that up, but we 
have a contract, an alliance agreement, with Wireless 
Generation.
    Mr. Castle. You say we. Who is we?
    Mr. Good. Dynamic Measurement Group. Dynamic Measurement 
Group has a relationship with Wireless Generation.
    Mr. Castle. And there an economic part of that contract?
    Mr. Good. Yes, there is.
    Mr. Castle. And can you explain briefly how that works?
    Mr. Good. Wireless Generation makes a payment to the 
Dynamic Measurement Group of 40 cents per child that they are 
doing as an alliance payment.
    Mr. Castle. Okay. What steps did you take to avoid any 
conflicts of interest or the appearance of conflicts? That has 
been a major underlying theme here. Did the Western Technical 
Assistance Center, the RMC Research Corporation or the 
department ever request formal disclosures from you or 
otherwise screen your involvement for conflicts of interest? 
Did the university require you to disclose conflicts of 
interest before being hired by their center?
    Mr. Good. No.
    Mr. Castle. No to all of the above?
    Mr. Good. No to all of the above. I have always been public 
about my role in DIBELS and involvement in DIBELS throughout 
all of these steps. I have not been particularly concerned 
about a conflict of interest in that regard in part because I 
have been very public about my role in DIBELS, but also in part 
because we have offered the assessment for free on the 
Internet, and we have always done so, and we are committed to 
continuing to do so.
    Mr. Castle. This is just a comment. There seems to be sort 
of a loose interpretation of these conflicts or a difference 
between government agents, employees and academics in this 
field based on some of the best language I have heard here 
today.
    Let me turn to a question for Dr. Simmons and Dr. 
Kame'enui.
    Dr. Simmons, you mentioned in your written statement a 
document you co-authorized with Dr. Kame'enui called ``A 
Consumer's Guide to Evaluating Core Reading Programs, Grades K-
3.'' That document has received significant attention, and the 
inspector general highlighted a few cases where states were 
referred to in this document.
    How is it that this document came to be viewed as the 
Reading First document containing a federally approved list of 
programs? Did you or anyone else that you are aware of ever use 
their involvement in Reading First to push this guide into 
programs included in it?
    I will ask both of you that question.
    Ms. Simmons. The Consumer's Guide was a document that was 
created and published in 2000, and it was created to help 
schools identify criteria that are important in a research 
phase that should be part of reading programs. It was never 
developed for Reading First.
    I remember being asked by a colleague at the University of 
Oregon if we had any tools that could help evaluate reading 
programs, and I reminded him of the Consumer's Guide, and I had 
no idea it was going to be used in Reading First, and I never 
encouraged or asked it to be used as a Reading First document.
    Mr. Castle. Dr. Kame'enui, can you shed any further light 
on that issue?
    Mr. Kame'enui. I do not think I can. I think Dr. Simmons is 
right. This is a development. This is an instrument, a tool, an 
evaluation tool that we developed at a center that we had from 
1991 to 2002. We did a lot of work with publishers at the time. 
We created this tool, and it was adopted by Reading First 
Program. It is probably one of the few tools available to 
evaluate reading programs, and there is no proprietary interest 
or profit from that particular tool.
    Mr. Castle. Thank you.
    Thank you, Mr. Chairman.
    Chairman Miller. Mr. Kildee?
    Mr. Kildee. Thank you, Mr. Chairman.
    Inspector General, aside from a possible referral to the 
Department of Justice and in addition to your responses to Mr. 
McKeon on possible changes in No Child Left Behind, do you have 
other ideas where we could change No Child Left Behind that 
would minimize these problems?
    Mr. Higgins. Not at this time. All of the recommendations 
that we have are in our reports.
    Mr. Kildee. Is there any thought of referring some of these 
matters to the Department of Justice?
    Mr. Higgins. We have referred some of these matters to the 
Department of Justice.
    Mr. Kildee. You have referred some?
    Mr. Higgins. Yes.
    Mr. Kildee. So some of these matters are before the 
Department of Justice at this time.
    Mr. Higgins. Yes.
    Mr. Kildee. Thank you very much.
    Inspector General, Mr. Doherty has testified that the 
inspector general's findings of mismanagement were a foregone 
conclusion. Your office has spent a great deal of time on this 
matter, putting out six or seven reports.
    Can you comment on Mr. Doherty's suggestion that your 
office did not conduct an impartial investigation?
    Mr. Higgins. Well, I do not agree with him. We have 
safeguards in place. We have standards that we have to follow. 
I just do not agree with it. May I also point out that the 
department agreed with our reports?
    Mr. Kildee. The department did agree with your reports.
    Mr. Higgins. They also adopted all of our recommendations 
and have acted swiftly to put most of them in place already.
    Mr. Kildee. Okay. So they, in a sense, validated your 
report then.
    Mr. Higgins. Well, that is my position, yes.
    Mr. Kildee. Okay. Do you use the same basic standards that 
you always use as inspector general when you are investigating 
this area?
    Mr. Higgins. No. We use standards put out by the General 
Accounting Office for the audits, and we use standards put out 
by the president's Council on Efficiency and Effectiveness for 
the inspections, with the one inspection.
    Mr. Kildee. Mr. Doherty, did you voluntarily resign from 
the department, or were you asked to resign?
    Mr. Doherty. I would say it was strongly suggested to me 
that I ought to resign.
    Mr. Kildee. All right. Who else resigned at that time, and 
did they resign voluntarily or were they strongly suggested to 
terminate their employment?
    Mr. Doherty. Sir, is your question who else voluntarily 
resigned at the time?
    Mr. Kildee. Yes. At the time.
    Mr. Doherty. At the time that I did?
    Mr. Kildee. Yes, yes.
    Mr. Doherty. I do not recall anyone resigning along with me 
at about the same time, sir.
    Mr. Kildee. Not Assistant Secretary Newman?
    Mr. Doherty. No, sir. She left the department in January of 
2003 or December of 2002, as best as I can recall.
    Mr. Kildee. Okay. So, when these matters broke, you were 
strongly suggested, as you put, that you terminate your 
employment?
    Mr. Doherty. Yes, sir, that is the impression that I got, 
that it was suggested to me that I resign or else I might be 
fired.
    Mr. Kildee. I thank you.
    And I yield back the balance of my time, Mr. Chairman.
    Mr. McKeon. I yield 5 minutes to Mr. Castle.
    Mr. Castle. Thank you, Mr. McKeon.
    Ms. Lewis, let me go back to you. Let me, first of all you, 
thank you for being here. You have had a great deal of 
influence, I think, in our thinking here, and I am glad to hear 
that Reading First really has had a positive impact on your 
state in spite of some of the problems we have heard today. I 
keep hearing that throughout all this testimony. I think all of 
us are troubled by your experiences.
    You mentioned this, so I am not sure I understood where we 
are with this. Did you ever receive any feedback as to why DRA 
was not viewed as an acceptable assessment by the peer review 
team or the department?
    Ms. Lewis. No. In the summaries that were sent to us by 
department staff, it was simply stated that DRA was not 
sufficiently valid and reliable, but there was no explanation 
as to why.
    Mr. Castle. Okay. Thank you.
    To you again, Ms. Lewis, if Congress created a more 
transparent peer review process that provided states the 
opportunity for direct interaction with the peer reviewers, do 
you think that would help prevent any repeats of what you and 
perhaps others have experienced?
    Ms. Lewis. Yes. I think that we would have heard what the 
concerns were. We would have been able to get greater detail 
about their concerns and their guidance. But as it was in many 
cases, we were simply guessing about what the problems were. 
But I think had we been able to communicate with the panelists, 
we would have had a greater understanding and been able to make 
the changes we needed to make.
    Mr. Castle. Okay. Thank you.
    Mr. Higgins, let me go to you finally. I know you have made 
in your reports a lot of suggestions. I also know the 
department either willingly or begrudgingly has agreed to many 
of the suggestions which you have made. Do you have any other 
suggestions or anything else you want to highlight that should 
be done?
    As you know, Mr. McKeon has introduced legislation. I think 
all of us on this committee want to resolve this problem. We 
believe in Reading First, but we believe in running these 
programs correctly, and I was just wondering if you have 
anything you want to feature or anything beyond anything you 
have already said that you want to bring up to us.
    Mr. Higgins. Not at this time, but I would like the 
opportunity to think about it and follow up.
    Mr. Castle. Okay. You can submit further testimony in 
writing, and we can certainly submit a question to you.
    Mr. Higgins. Okay. Thank you.
    Mr. Castle. I would be personally very interested in 
hearing that myself. I think it is important.
    Mr. Higgins. Thank you.
    Mr. Castle. Thank you.
    I yield back, Mr. Chairman.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Doherty, I was intrigued when you said you were not 
required to screen for conflicts of interest because it was not 
specifically mentioned in the law. Do we need to put that in 
the law? I mean, most people would think that that would be 
just kind of perfunctory that you had checked for conflicts of 
interest? People with conflicts of interest just would not be 
qualified to serve on these committees. Is that optional?
    Mr. Doherty. I agree with you that most people would assume 
that conflicts of interest screening would be done, and that is 
why we did it with Reading First, even though it was not 
required. I think perhaps making it required would be a good 
change, yes.
    Mr. Scott. Well, some of us would think it would be so 
inherently expected that we would not have to put it in 
writing, but with some I guess it may be so.
    You have indicated that these panels complied with the law. 
Was it your understanding that the law required these panels to 
have balanced representation from four sources--the Department 
of Education, National Institute for Literacy, National 
Research Council, the National Academy of Science and the 
National Institute for Child Health and Human Development? Is 
that your understanding, that the law required these panels to 
have balanced representation?
    Mr. Doherty. My understanding of the law was that those 
four agencies must all nominate individuals to the panel.
    Mr. Scott. The law did not require the panels to be 
balanced?
    Mr. Doherty. Off the top of my head, sir, I do not know 
whether that word was part of the statute, but I do know that 
all agencies needed to nominate members. We got nominees----
    Mr. Scott. Based on what when you read the law, you thought 
you were in compliance?
    Mr. Doherty. Yes.
    Mr. Scott. We have talked about conflicts of interest, and 
we asked Dr. Good how much money he was receiving.
    Mr. Higgins, did you go through to find out how much money 
was being generated by these decisions?
    Mr. Higgins. No, we did not.
    Mr. Scott. How much money the University of Oregon was 
getting when they apparently had an interest?
    Mr. Higgins. No, we did not look into the financial aspects 
of this.
    Mr. Scott. Did you look to see if anyone was getting 
campaign contributions as a result of any of these decisions?
    Mr. Higgins. No, we did not.
    Mr. Scott. Mr. Doherty, how much money was involved in 
these decisions and was anyone getting campaign contributions 
as a result?
    Mr. Doherty. I am sorry. How much money was involved in 
which decision, sir?
    Mr. Scott. Well, if you are helping one organization, 
DIBELS, did the University of Oregon get some money and another 
partnership was getting some money? How much money are we 
talking about?
    Mr. Doherty. Like the others, I have never heard and do not 
have a sense of how much money is involved in these particular 
decisions, and I do not know of any campaign contributions.
    Mr. Scott. Does anybody on the panel know of any campaign 
contributions that were affected or potentially affected or 
people giving money that might have influenced any of the 
decisions?
    Ms. Lewis, did I understand your testimony to say that you 
did not see any substantive difference between your application 
when it did not have DIBELS as the sole provider and when it 
did have DIBELS as the sole provider? There was not any other 
substantive difference?
    Ms. Lewis. We do have other assessments in our proposal.
    Mr. Scott. Did that seem to make the difference? Was there 
any other substantive difference where they could have 
legitimately turned down the first couple of applications and 
approved the fourth, other than----
    Ms. Lewis. We felt we were ready to roll in May of 2002 and 
go forward with implementing Reading First in our schools.
    Mr. Scott. Mr. Higgins, if someone is inappropriately 
denied, is there any remedy?
    Mr. Higgins. Well, I guess there would be appeal to the 
secretary. You mean a district was----
    Mr. Scott. Well, after the fact. I mean, didn't Kentucky 
lose a year of funding?
    Mr. Higgins. I do not know that there is any remedy.
    Mr. Scott. Not yet.
    Mr. Higgins. Correct.
    Mr. Scott. And, Mr. Higgins, can you indicate whether or 
not the Department of Education has changed its policy to 
prevent this kind of thing from happening in the future?
    Mr. Higgins. Well, like I said previously, we made a series 
of recommendations. They very quickly accepted them, and we 
have seen them take a lot of the actions already. We have not 
evaluated the actions yet, and we plan to follow up on that.
    Mr. Scott. Have they taken action to avoid conflicts of 
interest in the future? Are you aware of anything?
    Mr. Higgins. Specifically, I do not know on that one.
    Mr. Scott. Thank you, Mr. Chairman.
    Chairman Miller. Thank you.
    Mr. Hare?
    Mr. Hare. Mr. Doherty, I am deeply troubled by a couple of 
the e-mails that you sent.
    I wonder if we could put Slide E up.
    In this, it says, ``We want to beat the `expletive deleted' 
out of them in a way that will stand up to any level of legal 
and whole language apologist scrutiny, hit them over and over 
with the definitive evidence that they are not SBRR, never have 
been and never will be. They are trying to crash our party, and 
we need to beat the `expletive deleted' out of them in front of 
all the other would-be party crashers who are standing on the 
front lawn waiting to see how we welcome these dirt bags.''
    My two questions are: Could you tell the committee who are 
the party crashers and the dirt bags are?
    Mr. Doherty. First, please allow me to say that I deeply 
regret the coarse language I used in that e-mail. It was 
written to a close colleague, and it was unprofessional, and I 
deeply regret it.
    When I referred, regrettably, to the crashing of the party, 
the party I was referring to was the statutorily required fact 
that only scientifically based instructional materials could be 
funded by Reading First.
    So, in this regrettable image that I have created, we were 
trying to energetically enforce that law and keep programs that 
were not aligned with research from getting into the program 
where we feel the program would have been watered down and 
would have become like so many other programs.
    We feel the program has been successful because of our 
energetic implementation of this good law.
    Mr. Hare. Well, I would concur that I think your e-mail 
really went over the line.
    If I could maybe have Slide C up for the other e-mail, 
please.
    It says, ``This confidential update comes after a direct 
call I made to Maryland after a suggestion from Silbert. This 
clarification represents a marked shift from their earlier 
comments and, although not settled completely yet, bodes well 
for DI in Baltimore. Who knows Michael Coyne, the assistant 
professor at the University of Connecticut? Well, we need to 
ensure that when Maryland does do its application of Consumer 
Guide that Reading Mastery, a DI reading program published by 
McGraw-Hill, is not relegated to supplemental status, which 
would be horrible for so many schools in Baltimore.''
    My two questions to you, Mr. Doherty, are: Who is Mr. 
Carnine and who is Mr. Silbert, and why were they getting 
updated from you, and why should they be involved in this whole 
selection process by Maryland?
    And my second part to that question, it is my understanding 
that prior to working at Reading First, you were the executive 
director of Baltimore Curriculum Project which implemented 
Direct Instruction beginning in 1996. So can you explain what 
Direct Instruction is and why you are advocating for Reading 
Mastery, a Direct Instruction project?
    Mr. Doherty. Yes. First, Mr. Carnine and Mr. Silbert are 
affiliated with the University of Oregon and also affiliated 
with the Direct Instruction Program which is a family of 
different programs of which Reading Mastery is one.
    That particular e-mail came after the state of Maryland, as 
I recall from 2002 or 2003, had decided that Reading Mastery 
was one of their scientifically based programs. They were 
entering a follow-on decision as to whether that scientifically 
based program was a core comprehensive program or a 
supplemental program.
    In my experience with Direct Instruction, it is a core 
comprehensive program and I did send, you know, that e-mail in 
order to help ensure that a program that the state of Maryland 
had already chosen would be reviewed so as to classify it 
correctly.
    Mr. Hare. So you do not have any problem with the e-mail 
then?
    Mr. Doherty. Certainly now, as I look back at this e-mail 
and what has ensued, I certainly wish I had not sent that e-
mail, but I did not think then and do not think now that I was 
pushing this program on Maryland because they had already made 
their decision to include Reading Mastery. As I say, they were 
making a follow-on decision as to whether this program was a 
core comprehensive program or a supplemental program.
    Chairman Miller. Will the gentleman yield?
    Mr. Hare. Yes, I certainly would.
    Chairman Miller. I am using your time.
    But it is just kind of interesting in response to your 
question, the one law you decided to strictly enforce was the 
law you could use to keep party crashers from participating in 
this process.
    I thank the gentleman for yielding.
    Mr. Hare. I yield back the balance of my time, Mr. 
Chairman.
    Chairman Miller. Ms. Shea-Porter?
    Oh, excuse me, Lynn. I did not know you came back.
    Ms. Woolsey. You can go ahead.
    Chairman Miller. Okay.
    Ms. Shea-Porter. Thank you, Congresswoman.
    And thank you, Mr. Chairman.
    I have to say, first of all, Mr. Doherty, that I am very, 
very concerned about the tone of paternalism and heavy-
handedness that comes from you. And I am concerned because, 
being familiar with education myself and knowing how states 
sometimes view the federal government and the Department of 
Education, this reflects very poorly on the department because 
it does look as if everything was orchestrated from the 
department, but, apparently, it was orchestrated in large 
measure by you, and I am deeply disturbed by this.
    What we have been able to do with federal funds is improve 
children's ability to read, and we do not want the American 
public to lose confidence in this, and by doing something like 
this, they do lose confidence. They wonder if they are fully 
represented. You have had complaints from other programs that 
thought it was a fair, level playing field, and it was not, and 
I find that very, very disturbing.
    My questions are for Mr. Good, though.
    Dr. Good, your written statement for the record highlights 
many years of research on DIBELS, and I am assuming that 
federal grant funds may have been involved at some point during 
your research. If so, can you tell me how much and what it was 
used for?
    Mr. Good. DIBELS has really been sort of a loose research 
effort for a number of years and formally published under the 
name DIBELS starting in about 2003, is when the published 
version was first available. Prior editions of DIBELS were 
known under CBM Pre-Reading, under Primary Prevention of Early 
Academic Problems and under Individual Growth and Development 
Indicators.
    Federal funds were used to support the initial research and 
development on the measurement technology. DIBELS 4th edition 
was based largely on prototype measures that were developed 
with federal funds and also other measures that had been 
developed for research purposes under other projects. DIBELS 
5th edition was a mixture of those prototype measures developed 
with federal funding and also measures that were developed with 
personal and private funds.
    DIBELS 6th edition then was reinventioned using the 
technology but not using any federal funds to develop the 
measures. All of the items were developed anew. All of the 
forms were developed anew. So no federal funds went into the 
development of DIBELS 6th edition.
    Ms. Shea-Porter. But federal funds did go into the previous 
ones.
    Mr. Good. Federal funds did go into the development of the 
measurement technology, and that measurement technology is used 
then by other test publishers as well and other tests are 
available with that.
    Ms. Shea-Porter. Well, I would like to point out the good 
work, first of all, that federal funds can do in gathering some 
research that is helpful to America. However, I am concerned 
about that because if federal grant money was involved in 
development of what is now DIBELS--and how many people were 
involved in its creation?--how did you wind up with the DIBELS 
copyright?
    Mr. Good. We reinvented DIBELS off campus with our own 
personal and private funds, in part so that we could control 
the copyright and continue to maintain a free version of DIBELS 
available on the Web.
    Ms. Shea-Porter. Dr. Good, could you rephrase that for me, 
please? You used federal funds in the research.
    Chairman Miller. On campus.
    Mr. Good. We did use----
    Ms. Shea-Porter. To gather the research.
    Mr. Good. We used federal funds for research and 
development of the technology that goes into the assessment. 
For example, federal funds developed the technology for Oral 
Reading Fluency as well, and we have built upon that technology 
as we implemented DIBELS.
    Ms. Shea-Porter. So, in other words, it was federal money, 
taxpayers' money, that created the base upon which you created 
your company.
    Mr. Good. Yes. Federal funds created the knowledge base, 
the technology that we used to apply to develop the specific 
form that is DIBELS 6th edition. The federal funds supported 
the knowledge building, but they did not support this specific 
edition, DIBELS 6th edition.
    Ms. Shea-Porter. Okay. Well, let me ask you then. You could 
not have created DIBELS without taxpayers' money for the 
research. You had to have the research in order to create your 
final product.
    Mr. Good. We had to have the knowledge base and the 
technology to develop this final product.
    Ms. Shea-Porter. Then may I ask you why you own it instead 
of the American people?
    Mr. Good. Why I what?
    Ms. Shea-Porter. Why your company is yours instead of 
belonging to those who paid for it, why you did not keep it 
inside the university or inside a setting that would give 
access and continue to develop it based on the fact that the 
American people paid for this?
    Mr. Good. The American people paid for the development of 
the knowledge. We created that knowledge, and we made that 
freely and publicly available for people to use, and others are 
using that knowledge as well.
    We created Dynamic Measurement Group in part to protect our 
ability to give the measures away for free. When we talked with 
the University of Oregon and about our desire to have control 
over publication of it, they were not interested in making that 
assurance. So we reinvented and we redeveloped the measures 
separate from the University of Oregon so that we could give 
them away for free.
    Ms. Shea-Porter. Once again, I would like to mention I am 
disturbed by this, and also that I do not believe it is totally 
for free because I have been looking at what they are paying to 
have the handheld wireless set. So it is actually not for free. 
If they really want to maximize its use and have it make some 
kind of context, then they need the rest of the technology that 
you are selling.
    Thank you.
    Chairman Miller. Ms. Woolsey?
    Ms. Woolsey. Thank you, Mr. Chairman. This is quite a 
hearing. Thank you.
    So here is what I am getting out of it before I ask my 
questions. It seems like you are telling us, some of you up 
there, that there is only a very small group of experts in this 
country that would be qualified to write the rules, provide the 
overview of the program, train to review, recommend, and 
possibly profit from this very positive No Child Left Behind-
mandated program.
    I mean, this is a huge country of wonderfully educated 
people. I am having the hardest time thinking that there is 
only a small group that can do all of this and that there was 
no room for any independent oversight, that there were no 
experts out there that did not have their, for lack of a better 
way to say it, finger in the pie in one way or another.
    Mr. Kame'enui--I do not think I got it--I think you are one 
of that very small group. What reading products did the state 
of Oregon select for Reading First?
    Mr. Kame'enui. I am sorry. What reading products?
    Ms. Woolsey. What reading products?
    Mr. Kame'enui. I cannot tell you what reading products the 
state of Oregon selected for Reading First. I imagine they made 
available a number of products that school districts could 
select from.
    Ms. Woolsey. So, in your capacity, did you refer anyone to 
the Oregon list of approved products while you were part of the 
Reading First initiative or involved with the Reading First 
initiative.
    Mr. Kame'enui. Yes. If people asked, I referred them to the 
curriculum review that the state of Oregon, the Oregon Reading 
First Center, conducted to evaluate a range of reading 
programs. That is right. I did refer them.
    Ms. Woolsey. And did you have any financial interest in the 
outcome of any of the programs that you recommended?
    Mr. Kame'enui. At the time that I was director of the 
Oregon Reading First Center, I had an interest in the Early 
Reading Intervention Program that was published by Pearson/
Scott Foresman in 2002.
    Ms. Woolsey. And how far did that get in the process?
    Mr. Kame'enui. Well, there were two different processes. 
There are curriculum programs that are designed for children K 
through 6, and there is another process that reviews programs 
that are called intervention or supplemental programs that try 
to target a particular skill. So the Early Reading Intervention 
Program is designed for struggling readers at kindergarten.
    Ms. Woolsey. And they were accepted or you recommended 
them?
    Mr. Kame'enui. It was reviewed. Again, I think the Oregon 
curriculum review was conducted in a way that would meet the 
appropriate standards for conflict of interest. They were 
reviewed independently by two to three different independent 
reviewers, and then the results were made public.
    Ms. Woolsey. And they were aware that it was one of your 
programs, that you had a part of that?
    Chairman Miller. Would the gentlewoman yield?
    Ms. Woolsey. Yes, sir.
    Chairman Miller. Early Reading Intervention.
    Mr. Kame'enui. Yes.
    Chairman Miller. You received revenues from that?
    Mr. Kame'enui. I did.
    Chairman Miller. So you get royalties from that?
    Mr. Kame'enui. I do, yes.
    Chairman Miller. And that is the program you developed with 
Ms. Simmons?
    Mr. Kame'enui. That is right.
    Chairman Miller. Okay.
    Ms. Woolsey. All right. Thank you. I have obviously missed 
the big piece of what has been going on while I was on the 
floor earlier. I am sorry.
    All right. Then I am going to change and ask Ms. Lewis a 
question. And I think you were asked this before, but I need to 
hear it, the name of the program that originally was the 
Kentucky program. What was that program before?
    Ms. Lewis. It was the Developmental Reading Assessment that 
we had originally included in our proposal.
    Ms. Woolsey. So were you given reasons and rationale why it 
was not considered appropriate instead of DIBELS?
    Ms. Lewis. Our panel summary said that it was not 
sufficiently scientifically based, reliable and valid, but they 
did not explain why.
    Ms. Woolsey. Ever?
    Ms. Lewis. No.
    Ms. Woolsey. So what happens to that company when they get 
that kind of an assessment without any explanation?
    Ms. Lewis. I have had no conversation with DRA. I do not 
know how they responded.
    Ms. Woolsey. Okay.
    Mr. Chairman, I yield back.
    Chairman Miller. Thank you.
    Susan Davis?
    Mrs. Davis of California. Thank you, Mr. Chairman.
    Thank you all for being here.
    I wanted to go back, I guess, to Dr. Good. Did you have any 
role in the criteria that was developed to try and establish 
which programs were used? I was interested in the fact that you 
did not call out a number of programs in, I guess, what I would 
call an RFP of sorts for state education agencies.
    But I am trying to understand who actually played a role in 
putting that criteria together. Were you on the commission at 
that time, and did the commission actually play a role in that?
    Mr. Good. I was on the assessment committee, and we played 
a role in describing the criteria that we would an assessment 
to meet to be considered as scientifically based reading 
research supported assessment.
    Mrs. Davis of California. Was DIBELS fully developed at 
that time? Were you aware that they would meet the criteria, or 
did you know that if you established that criteria and then set 
out to be certain that it met that criteria that there would be 
some relationship there?
    Mr. Good. DIBELS 5th edition was available at that time. 
The criteria were really very standard criteria that are 
publicly available to evaluate assessments--reliability, 
decision utility, validity of the assessment--and we created a 
coding form to do that.
    Mrs. Davis of California. If I could, I am sorry, I just 
wanted to just turn to Ms. Lewis.
    Were you under the understanding that, in fact, a Kentucky 
program answered that criteria and did it have an evaluation K 
through 3?
    Ms. Lewis. Yes. In our opinion and application of the 
criteria, we felt that the assessment we selected met the 
established criteria.
    Mrs. Davis of California. And I have no knowledge or 
whether or not it would have or not. I am just trying to 
understand how that chain of assumptions, if you will, or 
involvement was.
    When you were working with this criteria, did you have any 
knowledge of any other companies that would be putting forth 
proposals and what their basic fundamentals were specific to 
this kind of a program? Did you have any knowledge of any other 
programs around the country at that time?
    Mr. Good. I would have a general knowledge of assessments 
that are available, but not specific knowledge of their intent 
or what proposal they would put forward. These are general 
criteria that any assessment should meet.
    Mrs. Davis of California. Were any of the individuals from 
the company that Kentucky had worked with on the panels in any 
way?
    Mr. Good. Not that I know of.
    Mrs. Davis of California. Mr. Doherty, I am trying to 
understand. In some ways, I think part of what we are confused 
with is why an individual--and it just happens to be you, Dr. 
Good. It could have been somebody else, I guess--would have 
been instrumental in developing the criteria and also 
instrumental in working with the company that seemed to have 
answered that criteria so well. Do you know why you were asked 
to be on the commission?
    Mr. Good. I believe I was asked to be on that commission 
because of my expertise in reading and reading assessment. The 
most important work that I have done is not actually DIBELS. It 
is a decision model for how to use assessment generally to 
change outcomes for children.
    Mrs. Davis of California. Are you planning to take that 
into Spanish language?
    Mr. Good. Yes, we have a Spanish version that is a 
reinvention of DIBELS in Spanish.
    Mrs. Davis of California. Thank you very much. I appreciate 
it.
    Mr. Good. You are welcome.
    Mrs. Davis of California. Mr. Doherty, how is it that Dr. 
Good became a commissioner?
    Mr. Doherty. First, I agree with Dr. Good's general answer 
that due to his expertise in reading and reading assessment, 
that is what led to his being asked to be on the assessment 
committee, although, as Dr. Kame'enui pointed out, that 
committee was started on or about August of 2001. I joined the 
department in January of 2002, so I do not know the specifics 
other than the people on the panel had the requisite research 
and experience background.
    Mrs. Davis of California. I guess to Dr. Kame'enui, did you 
ever ask about the ethical concerns or the conflicts of 
interest? Did you inquire about that and to whom did you 
inquire?
    Mr. Kame'enui. Not only did I ask about it, we established 
conflict of interest procedures, and we put them in place to 
ensure that members of the committee who had proprietary 
interest in an instrument would not review their own 
instrument. We did not receive any guidance, explicit or 
implicit guidance, from the Department of Education on how to 
go about on that conflict of interest. So we put in place our 
own.
    Mrs. Davis of California. Dr. Good, as well, did you make 
inquiries about conflicts of interest? You had mentioned 
earlier that it just seemed kind of nebulous to you a little 
bit.
    Mr. Good. In my participation on the assessment committee, 
one of the very first things that I did was acknowledge my role 
and involvement in DIBELS, although DIBELS at that time was not 
published and was not generating any revenue at that time.
    But I was very public and said, ``Is that going to be a 
concern?'' and we talked about what procedures would be in 
place, notably that I would not be involved in any discussion 
of DIBELS or participate in any way in the review of DIBELS.
    Mrs. Davis of California. Thank you.
    But you did participate in reviews of other programs?
    Mr. Good. Yes, I did participate in reviews of other 
programs.
    Mrs. Davis of California. Thank you.
    Thank you, Mr. Chairman.
    Chairman Miller. Mr. Tierney?
    Mr. Tierney. Thank you, Mr. Chairman.
    Mr. Chairman, I am going to use my time probably more for a 
statement than for questions. But I want to just sort of recap 
some of the reasons why I think people are concerned starting 
with where Ms. Davis left off with the conflict of interest.
    Mr. Doherty, you had specific recommendations from your 
ethics counsel to what questions to use with respect to ethics, 
and you left out just one of those questions, the one question 
you left off was ``Are you aware of any other circumstances 
that might cause someone to question your impartiality in 
serving as a reviewer for this competition?'' That was designed 
to exclude individuals who had financial connections to 
products or programs, and you left that out, the only one you 
left out.
    You also did not bother to look at any resumes. The 
inspector general went through and said, you know, of over 25 
resumes he looked through, six of them identified significant 
professional connections. We are concerned because that just 
seems a little too convenient.
    We are concerned that the department did not select the 
expert review panel in compliance with the requirements of No 
Child Left Behind because, as the inspector general says, 
probably then none of the applications that were approved are 
in compliance with the law. That should concern you also, 
although apparently it does not.
    We are concerned that the peer review process was not 
followed. The local state education groups were not given an 
opportunity to address issues and concerns by the expert panel 
reviewers. In fact, you then substituted your report without 
even telling them that you had done that. That should be of 
concern for you. Apparently, it is not.
    We are concerned that you set conditions that were not 
included in the statute. In fact, it seems that very little was 
taken from the statutes in some of those situations, and in 
your own language, some of it was extralegal. That is of 
concern and should be of concern to you.
    We are concerned that in implementing the program, you 
obscured the statutory process on that and the requirements. In 
fact, we are also concerned that after people had been 
approved--and this directly affects Massachusetts--you then 
meddled into it--or intervened, in the words of the inspector 
general--and tried to unwind some of the programs.
    In Massachusetts, you went in and you made a call after the 
process had been approved. I am going to go right to the page 
on that for you. I think it is page 25 if you want to see the 
inspector's report. ``In Massachusetts, the Reading First 
director''--that would be you--``raised questions about the 
SBRR qualifications of programs in four districts.'' This is 
after the application had already been approved and they had 
been allowed to develop their own guide by the LEAs.
    This concern was raised in that situation, and the 
districts were using Wright Group, Rigby, Literacy 
Collaborative and Harcourt Collections, and basically, only the 
group that was using Wright Group elected not to change their 
program, and that is the one whose funding you stopped. That 
should be of concern to everybody here.
    Clearly, you had an agenda. The agenda is phonics, the 
agenda may be some people that you were associated with, and it 
goes right down the line. What is the difference, Mr. Doherty, 
between Wright Group--what is the one thing that differentiates 
that--from the other programs that you accepted? One was 
phonics, and one was whole language, correct?
    Mr. Doherty. Our agenda was the scientifically based 
reading research.
    Mr. Tierney. Yes, right. Now, just to interrupt for a 
second, because my time is limited, the difference between 
Wright and the others was that Wright was a whole language and 
the others were phonics, correct?
    Mr. Doherty. One aligned with the statute and one, 
apparently, did not.
    Mr. Tierney. I mean, you are a big educator, so I assume 
you understand English. One was phonics, and one was whole 
language. Am I correct?
    Mr. Doherty. To say that a program is phonics, the law 
requires five components of----
    Mr. Tierney. All right. Never mind. Thank you, Mr. Doherty. 
I think we understand where you are from.
    Let me just read some statements and close out on this, Mr. 
Chairman, if I might, about why we are concerned here.
    And you folks can stop me at any point of time you think 
that this is inaccurate on that.
    When the department needed reviewers to evaluate reading 
assessment programs, they contacted the University of Oregon 
team that was led by Edward Kame'enui, Roland Good and Deborah 
Simmons. Mr. Good had developed an assessment called DIBELS, 
and Mr. Kame'enui, Good and Simmons had all served on the 
design team for Voyager Passport, which is a remedial program 
built around DIBELS. Ultimately, DIBELS was the only assessment 
used in Reading First, and Voyager was the most popular 
supplemental program.
    Then the department steered states to just three providers 
of professional development services--Kame'enui and Simmons of 
Oregon, Ms. Moats, and a Sharon Vaughn of the University of 
Texas. Ms. Vaughn, of course, was the other member of the 
Voyager Passport design team and one of four chairmen of the 
secretary's Reading Literature Academy. That exerted a 
tremendous influence over Reading First, but the other chairmen 
were Moats, Kame'enui and his Oregon colleague, Mr. Carnine.
    Mr. Kame'enui and Simmons also wrote the Consumer's Guide 
that most states use and agree to use to evaluate the Reading 
First Programs and ran one of Reading First's three technical 
assistance centers in Oregon. Mr. Simmons and Kame'enui co-
wrote another book, and Mr. Kame'enui earned more than $100,000 
last year for royalties of another, according to his own 
financial disclosure statement.
    You can see the pattern here, Mr. Doherty, about what is 
going on.
    I will just close out with Elaine Garan who wrote a book in 
2004 entitled ``In Defense of Our Children: When Politics, 
Profit and Education Collide'' She recalled that when she was 
writing a book, she color coded the various financial 
connections that were running through Reading First. She said, 
``When it came to Mr. Kame'enui, I ran out of colors.''
    I think we ran out of colors on a lot of these connections, 
and we ran out of colors to figure out how many ways you tried 
to interfere with the absolute implementation of that statute 
as it was written.
    I yield back, Mr. Chairman.
    Mr. Castle. Thank you, Mr. Chairman. I will yield my time 
to the distinguished ranking Republican, Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman.
    Thank you, Mr. Castle.
    Mr. Doherty, another state that has gotten attention that 
we have not talked about here today is Nevada. The inspector 
general's report stated that although the panel chair summary 
for the Nevada's application referred them to A Consumer's 
Guide to Evaluate a Core Reading Program, the expert review 
team report that you prepared omitted these comments. Why was 
that?
    Mr. Doherty. If any comments that the state needed to hear 
from the expert review panel summary were omitted, it was by 
mistake an omission. We produced those summary reports in an 
effort to be helpful and focused for the states. In no way did 
we attempt to change the substance of what the expert review 
panel members were saying. We genuinely thought and we are 
aware of no prohibition against making a summary report.
    I cannot say that every single report--and there were 
probably a couple of hundred--did not omit something by 
mistake, but we tried extremely hard to streamline and 
standardize the kinds of feedback that a state would receive 
pegged directly to the criteria of the application. As far as a 
particular omission in Nevada's report, I am unaware of that 
right now.
    Mr. McKeon. You know, given the benefit of hindsight, 
should you have been given better and more support from the 
Office of Elementary and Secondary Education and the Office of 
the General Counsel, especially when it came to examining 
possible conflicts of interest and establishing the peer review 
panels?
    Mr. Doherty. I think it is safe to say that we all agree 
that, given what we know now, we would have different 
procedures. At the same time, at the time, we were all on the 
same page--the Office of General Counsel, the Office of 
Elementary and Secondary Ed, the Office of the Secretary. We 
worked together as a team, and we were on the same page.
    I cannot imagine that any members of those groups would 
disagree with the suggestion that when people do it again that 
they take the learning from this process and make sure that 
such a large and regrettable distraction from the program does 
not happen again.
    Mr. McKeon. Thank you.
    Dr. Kame'enui, do you have any response to the previous 
questions?
    Mr. Kame'enui. I appreciate the premise that in hindsight 
we would do things differently. We absolutely would do things 
differently.
    I think I would recommend, as others have noted, an 
independent panel where there is no proprietary interest from 
any member of that panel to review, vet curriculum materials, 
assessment materials and so on. I think that would be wise.
    At the same time, I think it is important to appreciate the 
context in which the Reading First assessment committee did its 
work. It was very early on. We were asked to do it in 4 months. 
We delivered in 8 months a product that I am still proud of, 
and had we been informed of conflict of interest criteria, we 
would have certainly implemented those and followed those by 
the book.
    We created our own that I thought and I still do think that 
it meets the academic standards that are in place today, and I 
regret the perception of conflict of interest, but there was 
no, as I noted in my testimony and wrote, real conflict of 
interest that we engaged in at any time, either in the review 
of the Reading First assessment materials or the review of the 
curriculum materials that we conducted.
    Mr. McKeon. Thank you.
    And another one for Mr. Doherty, if you read all of the 
various reports, your head starts to spin after a while if you 
try to determine exactly what the reaction to Reading First has 
been in states and local school districts.
    On the one hand, we have the inspector general's report 
that clearly indicates that some states felt like they were 
unfairly pushed toward certain programs, Kentucky being one of 
these. The GAO report backs up that claim.
    On the other hand, we have the Center on Education 
Policies' 2006 report and that same GAO report stating that 
most folks are happy with the way the Reading First Program has 
been implemented and feel like it is having a good impact.
    When you left the department, what was your overall 
impression of how states were reacting to Reading First and has 
that impression changed as a result of the inspector general's 
reports?
    Mr. Doherty. I think it is hard to overstate the contrast 
between the controversy about Reading First here in Washington 
and the appreciation and support of Reading First in the vast 
majority of states across the country.
    Reading First was and will probably remain the highlight of 
my professional career. The respect and affection that I have 
for the state directors and the people who work in the 
districts is something that I cannot express.
    I think that the net effect of these six reports is to have 
mined thousands and thousands of e-mails and documents and come 
up with a very unrepresentative picture of a program that is 
very successful. I know that some state directors wanted to 
testify at this hearing today and offer a more positive 
opinion, and they were told that the panel is not interested in 
positive information about Reading First.
    I think the Reading First Program is successful because of 
the good law that was implemented faithfully by people who love 
the program. I do think that across the nation, Reading First 
is widely embraced, and I sincerely hope that it will only 
continue to improve in coming years.
    Mr. McKeon. Thank you.
    Chairman Miller. I appreciate your side, Mr. Doherty, 
except the problem is you are looking at a panel here that 
supports Reading First. That is why we are concerned about the 
integrity in the program from one end of this panel to the 
other, one of the authors. That is why we are concerned.
    Mr. Sarbanes?
    Mr. Sarbanes. Thank you, Mr. Chairman, for conducting the 
hearing and bringing scrutiny to this issue.
    The stakes are very high on this stuff, and there are many 
reasons. There are two in particular I would cite. The first 
is, as we have heard a little bit about already, there are 
these reading wars that have been going on for some time, and 
there are true believers in these wars, and they can be 
overzealous when it comes time to implement these programs. For 
that reason, it is incredibly important that whatever the 
review process is that is in place be balanced and neutral.
    The second reason the stakes are so high is that every 
school system in this country and just about every 
instructional professional is focused like a laser on the need 
to increase proficiency in math and reading by the year 2013, 
2014, and everybody is under a lot of pressure to achieve that, 
and so when you get to the question of scientifically based 
research and what it supports in terms of reading programs, it 
is hard to overstate how important it is to be balanced and 
fair.
    I am concerned and alarmed at evidence of tipping the 
scales that we have heard today. It particularly offends me, 
the appearance that that occurred, vis-a-vis the state 
department of education in Maryland, as we heard Mr. Hare, I 
think, refer to.
    The potential for this to interfere with professional 
judgment that people are trying to exercise reminds me a little 
bit, particularly because we are talking about scientifically 
based research, of a hearing, Mr. Chairman, we had in the 
Oversight and Government Committee on the administration's 
interference with the science on global warming. I mean, it 
seems to reflect a pattern and an impulse.
    Mr. Doherty, I guess what disappoints me is given your 
relationship to Direct Instruction, I would have thought you 
would have gone out of your way to ensure that the review 
process and the composition of these panels and so forth was 
done in a way that would make it absolutely clear that it was 
balanced and that there was no bias, and I wonder if you could 
just, looking back, tell me if you think you could have done a 
lot more to ensure that in the process.
    Mr. Doherty. Yes, I think that we could have done more to 
ensure that. I do want to point out that we did screen, and the 
screening that we did for Direct Instruction was consistent 
with the screening that was one at the department at the time, 
and none of those individuals that are cited had or have direct 
financial connections to the Direct Instruction program.
    These were people who had implemented the program, 
principals of schools who had used the program, but none of 
those properly screened people had direct financial involvement 
with Direct Instruction or, to my knowledge, have since joined 
in any financial way with Direct Instruction. But I absolutely 
agree that this whole day is evidence of how much better we 
could have done to have avoided the perception of conflicts of 
interest.
    Mr. Sarbanes. See, the financial interest is just one 
aspect of the conflict of interest that, I think, we have 
touched on here. The other is just, as I say, this notion of 
true believers on these things that are very, very important. 
So I am as concerned about that aspect of it because we are 
talking about what are the best practices to ensure that 
children will learn and learn to read and do it under this 
timeline for proficiency expectations that has been imposed by 
No Child Left Behind.
    I am sorry that Ms. Lewis is not at the table any longer. I 
was going to ask her to reflect or to discuss or describe what 
she thinks the impact is on morale in the field when people 
work their best to exercise professional judgment to determine 
what the best kinds of programs are, make good faith 
presentations of that to their superiors and those who are in a 
position to exercise a lot of influence and then feel like the 
scales are being tipped and like there is an imbalance, and I 
certainly regret the impact that that must have had on people 
in the field.
    Thank you, Mr. Chairman.
    Mr. Hinojosa. Thank you, Mr. Chairman.
    My first question is directed to Dr. Roland Good. Since 
DIBELS is offered in Spanish, which you answered the question 
from Congresswoman Susan Davis, do you have plans to offer it 
to other countries, to offer it for sale to other countries?
    Mr. Good. Currently, the Spanish version of DIBELS--it is 
called IDEL--is really designed for use in the U.S. for English 
language learners or for children who are learning to read in 
Spanish in the U.S. I think it would be something that would be 
valuable in other Spanish-speaking countries for children 
learning to read in Spanish. However, we would have to do that 
research in that context first before we felt comfortable 
offering that in other settings.
    Mr. Hinojosa. Will the DIBELS data system ever leave the 
University of Oregon and become part of your company, DMG?
    Mr. Good. I do not see a viable way in which DIBELS data 
system would leave the University of Oregon.
    Mr. Hinojosa. What does it cost to become a DIBELS-
certified trainer?
    Mr. Good. We would ask DIBELS-certified trainers to attend 
our DIBELS trainers' institute. I think the fee for that 
institute is $900, and it is a 4-day trainers' institute.
    Mr. Hinojosa. Are you seeing a lot of people taking that up 
and going for the training?
    Mr. Good. Not very many. Instead what we see is most DIBELS 
trainers have not attended that institute. May I elaborate just 
a minute?
    Mr. Hinojosa. Yes.
    Mr. Good. There is a very large number of people who are 
DIBELS trainers. Only a very small number of DIBELS trainers 
have any financial relationship with Dynamic Measurement Group 
or with DIBELS. Most of the DIBELS trainers are reading experts 
who have developed that expertise in DIBELS training, and they 
provide that through their own system.
    Mr. Hinojosa. In your testimony, you seem to always lead us 
to believe that you are not making money from all of this that 
we have discussed that you have created. Please tell me when 
was DIBELS made available for sale?
    Mr. Good. Our first royalties from DIBELS were in 2003.
    Mr. Hinojosa. Was your compensation at the University of 
Oregon based on revenues generated by DIBELS?
    Mr. Good. No.
    Mr. Hinojosa. Not at all?
    Mr. Good. No.
    Mr. Hinojosa. My question to Jack Higgins, where does the 
OIG go from here after today's hearing?
    Mr. Higgins. Well, the first thing we will be doing is 
following up on the recommendations that we made to the 
department to see if they do them, which we believe they are 
doing, and look at the effectiveness of the way they are 
implementing the recommendations. There are a few things that 
came up here today that we are going to follow up with, and if 
you have any suggestions for areas that you think we need to 
look at, we will be more than glad to hear what they are.
    Mr. Hinojosa. Well, it leads to a lot of concerns, and this 
has been a very interesting hearing. I have to say that the 
findings from this hearing need to go out throughout the 
country because we may be able to get additional information to 
this committee on facts that would impact the actions that you 
would have to take.
    I am concerned that much of the information that Mr. 
Doherty gave us leads us to want to search and find out more 
because it seems that $1 billion worth of federal investment in 
this program indicates that there could have been people who 
were benefiting from it being that they did not name all of the 
panelists that could have and should have been named.
    So I am pleased to have been able to listen to the 
testimony and to the many questions that were asked by my 
colleagues here as members of Congress.
    With that, Mr. Chairman, I yield back.
    Chairman Miller. Mr. Good, I had asked you about how much 
money your company had made.
    Mr. Good. Yes. Prior to 2003, there was no company and no 
revenue generated. From 2003----
    Chairman Miller. There would not be any money going to the 
company if there was no company and no revenue. Okay.
    Mr. Good. From 2003 through 2006, we have received royalty 
payments in the amount of about $1,291,333.79.
    Chairman Miller. And you are a 50 percent shareholder.
    Mr. Good. I am a 50 percent shareholder. May I elaborate?
    Chairman Miller. Yes.
    Mr. Good. Through 2005, we made contributions to the 
University of Oregon foundation to support----
    Chairman Miller. Mr. Good, I appreciate that.
    How long do these royalties continue?
    Mr. Good. Pardon?
    Chairman Miller. How long will these royalties continue?
    Mr. Good. These royalties will continue while DIBELS is a 
published measure.
    Chairman Miller. This company receives royalties off of the 
handheld?
    Mr. Good. We have an alliance agreement with Wireless 
Generation that we----
    Chairman Miller. So you get royalties off of that. You get 
40 percent of each student that is tested off the handheld. Is 
that correct.
    Mr. Good. Forty cents for each student.
    Chairman Miller. That is one student per annum?
    Mr. Good. Pardon?
    Chairman Miller. One student per year?
    Mr. Good. Yes.
    Chairman Miller. Okay. And you expect that to continue? I 
mean, that is not a time-limited royalty agreement?
    Mr. Good. I think it is time limited for a few more years.
    Chairman Miller. But you own the intellectual property, or 
would that be the end of it? Could they go ahead without you?
    Mr. Good. I do not think so. It would have to be----
    Chairman Miller. I bet they do not.
    Mr. Good, is it correct that you and Mr. Kame'enui and Ms. 
Simmons co-authored this 29-page article that was put into 
these--Mr. Higgins, what were they called?
    Mr. Higgins. Handbook and the guide.
    Chairman Miller. The handbook and the guide.
    Mr. Good. Yes.
    Chairman Miller. So who put them in the handbook and the 
guide?
    Mr. Good. I do not know.
    Chairman Miller. Ms. Simmons?
    Ms. Simmons. I do not know.
    Chairman Miller. I am sorry?
    Ms. Simmons. I am sorry, sir. This is the first time I was 
made aware that that article was in the guide, was in the 
handbook.
    Chairman Miller. Is that right?
    Ms. Simmons. Is it a DIBELS assessment?
    Chairman Miller. It is an article that you authored.
    Ms. Simmons. I have written articles with Dr. Good for 
sure, but I was not aware that it was in the handbook.
    Chairman Miller. Dr. Kame'enui?
    Mr. Kame'enui. I was not involved in the preparation of the 
handbook or the selection of the materials or the inclusion of 
materials, if it is the handbook that you are referring to as 
the guidance.
    Chairman Miller. Mr. Doherty?
    Mr. Doherty. If you are referring to the binder that went 
out during the secretary's----
    Chairman Miller. I am referring to the handbook and the 
guide that is referenced in the inspector general's report. It 
had a 29-page article in it on DIBELS.
    Mr. Doherty. Right. My understanding is that is the 
materials that were handed out at the secretary's Reading 
Leadership Academies. Those materials were put together in the 
second half of 2001 prior to my joining the department. To the 
extent that it was a NIFL contract, perhaps it was NIFL.
    Chairman Miller. Mr. Higgins, do you know?
    Mr. Higgins. No, I do not know. But I know the document 
says, yes, Department of Education on the back of it. So 
somebody at the department had to approve it being put in 
there.
    Chairman Miller. Mr. Kame'enui, I asked you this earlier, 
and I think your answer was yes. You are currently receiving 
royalties from Early Reading Intervention?
    Mr. Kame'enui. I am.
    Chairman Miller. According to the publisher, that is 
packaged with DIBELS.
    Mr. Kame'enui. At the time that I signed my royalty 
agreement, I did not know that that could be a marketing 
extension at this point in time, but, as I noted, I have been 
away from working with Pearson/Scott Foresman for 2 years. That 
could be, but I have no knowledge of that, sir.
    Chairman Miller. And, Ms. Simmons, you are receiving 
royalties for Early Reading Intervention?
    Ms. Simmons. I do, sir, but----
    Chairman Miller. So, at the time you were serving on these 
panels, you were negotiating with people who had a Reading 
First product?
    Ms. Simmons. May I clarify, sir? The Early Reading 
Assessment Intervention does not have a DIBELS component to it.
    Chairman Miller. Well, according to the publisher, it does. 
It is packaged with DIBELS. It is sold as a package with 
DIBELS.
    Ms. Simmons. I was not aware of that.
    Chairman Miller. Were you aware that you were negotiating 
with Scott Foresman during the time you were on the panel?
    Ms. Simmons. On the assessment panel, sir?
    Chairman Miller. Yes.
    Ms. Simmons. Yes. I was negotiating with Scott Foresman 
about a reading program, but not an assessment component.
    Chairman Miller. You were negotiating with Scott Foresman 
about a Reading First product. Is that correct?
    Ms. Simmons. About a reading program that is used in 
Reading First.
    Chairman Miller. In Reading First, yes. And you have 
received what in royalties for that so far?
    Ms. Simmons. I cannot give you specific figures, but I 
could give you estimates of what those are.
    Chairman Miller. Why don't you go ahead and do that?
    Ms. Simmons. Last year, it was about $150,000.
    Chairman Miller. Mr. Kame'enui, is that consistent with 
your royalties you have received from that product?
    Mr. Kame'enui. Yes, yes.
    Chairman Miller. So let me see. That was in 2002. So you 
have received royalties for 3 years?
    Ms. Simmons. About 3 years. Yes, sir.
    Chairman Miller. So about the same amount?
    Ms. Simmons. No, no. They have----
    Chairman Miller. It has grown?
    Ms. Simmons. It has grown over a period of time.
    Chairman Miller. Same situation with you, Mr. Kame'enui?
    Mr. Kame'enui. Yes.
    Chairman Miller. Is that consistent, Mr. Higgins, with what 
you know?
    Mr. Higgins. We did not look into the financial aspects.
    Chairman Miller. You did not look into the royalties.
    So nobody knows how this DIBELS article, the only article 
on an assessment tool, got into the official documents that 
were given to states and others to look and decide on how to 
make these decisions?
    Mr. Rasa, do you know?
    Mr. Rasa. No, I do not.
    Chairman Miller. See, I hoped he brought you along so you 
could tell us. [Laughter.]
    There you are.
    Mr. Rasa. I do know that 29 pages are in the----
    Chairman Miller. I am sorry. You need your microphone.
    Mr. Rasa. I do know that the 29-page article is in both 
documents, and it covers DIBELS.
    Chairman Miller. Okay. Thank you.
    Mr. McKeon?
    Mr. McKeon. Thank you, Mr. Chairman.
    Are we wrapping up now?
    Chairman Miller. Yes. Go ahead.
    Mr. McKeon. This has been very, very interesting to me. I 
have been here in Congress now for about 15 years, and we have 
passed legislation during that time that has started some new 
programs.
    One of them that kind of sticks out in my mind in my first 
term was AmeriCorps, and I opposed the program, but it was 
passed. It was started, and it was funded at less than half of 
the level of the program that we are talking about.
    I remember after a few years, we had a hearing. I remember 
we had the director of the program here, and at the time, we 
had tried to do an audit and they could not even tell us were 
the money was. They could not tell us how much money they had, 
they could not tell us how it was spent, and we could not get 
any kind of substantive idea of how the program was working.
    I think it has improved now, I think, considerably.
    Chairman Miller. I hope.
    Mr. McKeon. Yes. I am still not real excited about it.
    But the point is I have thought about this, you know, 
during our question-and-answer period and then while we were 
over voting. I have thought about this quite a bit. It seems to 
me you start a new program--and $1 billion is a lot of money--
and you say, ``Here. You are going to be responsible for this, 
and we want you to spend $1 billion this year and $1 billion 
next year and $1 billion the next year, and we want you to use 
that money to help the young children who really need the help 
to learn to read.''
    I think we have pointed out flaws in the implementation and 
how it has been done and maybe some people have made some money 
off of it--you know, people make money a lot of different ways, 
for a lot of different reasons--and I guess we can look at 
things as the glass is half empty or half full, and we can 
question people's motives. There are all kinds of things, but I 
think the bottom line, as I have seen it today, is the program 
has been very beneficial for a lot of young people, and it has 
worked very well.
    Let me just cite a couple of statistics.
    In Reading First schools, the percentage of first graders 
meeting or exceeding proficiency on Reading First fluency 
outcome measures increased by 14 percentage points, from 43 to 
57 percent, from 2004 to 2006.
    In Reading First schools, the percentage of third graders 
meeting or exceeding proficiency on Reading First fluency 
increased by 7 percentage points, from 36 to 43 percent, during 
the same period of time.
    On average, the 16 states with baseline data increased the 
percentage of students meeting or exceeding proficiency on 
fluency outcome measures by 16 percent for first graders, 14 
percent for second graders and 15 percent for third graders.
    Looking at these statistics, it seems to me that, as I 
said, the program has benefited a lot of young people. I think 
it has been a very good program, and I hope with all of this 
discussion there is no detraction from the program and that we 
can take what we have seen here today--I think everybody agrees 
that some things could have been done differently, and the bill 
that I introduced yesterday will address most of those issues 
as have been brought out by the inspector general's report--
and, hopefully, we will learn from this. We will take those 
things, incorporate them into the law and move to make the 
program better.
    I still feel when you introduce a program at the federal 
level and you have to come up with spending a lot of money in a 
very short period of time and put together all of the different 
components of that that all of you who have been involved in 
this to look at these kind of results must feel pretty good 
about that.
    I know there has been some discussion about agendas, 
phonics versus whole language. I was on a school board for 9 
years before I came to Congress, and I was involved in some of 
those fights, and I know there was a period of time where 
reading really declined. Then there was this fight in our state 
about phonics versus whole language, and phonics was brought 
back into the process and reading did improve.
    I no way profess to be any kind of an expert in any of 
this, but I just hope that you can feel that you have been part 
of a good process, that it has done a lot of good for a lot of 
young people, that we can take what we have learned here today 
and make the law better as we go forward in the reauthorization 
process.
    And I want to thank you for your service. You know, I have 
been here now almost 15 years, and I see a lot of people in 
this town get crucified, and I am just really getting sick of 
it. So thank you for what you have done--all of you--and I 
hope, as I said, that we make this a positive experience.
    Chairman Miller. I thank the gentleman, and I thank him for 
his participation and again for his suggestions that we will 
work with him for changes in this program as a result of the 
IG's report.
    I am a little concerned. You talked about people getting 
crucified. I am a little concerned--more than a little 
concerned--about the evidence that has been presented to us in 
the inspector general's report, and I am a little concerned 
that Mr. Doherty, in my opinion--that is my opinion--finds the 
law something to be worked around rather than worked with, 
except in the case of where we saw one e-mail where he used it 
to his or his friends' advantage.
    The answer to violating the law is not that people are 
happy with you. That is not a justification in the law. If e-
mail will tell you what a wonderful person you are, it is of 
little value compared to the law. You know, a lot of people go 
to a pizza parlor and they love the pizza, and it is produced 
by a criminal enterprise. It does not tell you anything about 
the enterprise. It tells you they love the pizza.
    We agree. We are fans of the program. But this 
implementation is very worrisome because I think you are very 
close to a criminal enterprise here.
    Have you made any criminal referrals, Mr. Higgins?
    Microphone. I cannot hear you. You have to do two things. 
You have to pull it closer, and then you have to turn it on.
    Thank you.
    Mr. Higgins. I am a slow learner.
    We have made referrals to the Department of Justice, and we 
are pursuing them.
    Chairman Miller. Well, I have to tell you that that just 
does not surprise me at all because I think that this process 
was cooked from the very beginning.
    Mr. Good, I know you are proud to be on the assessments 
committee, and I know you were picked for your expertise, but 
the report you produced the assistant secretary thought about 
junking it. You could not find an official sponsor for it. The 
e-mails are going back and forth about how you are going to 
represent this and how you are going to respond if somebody 
asks you questions, has it been reviewed and is it ready yet 
and all of these things.
    And finally it ends up posted out on the Web site at the 
University of Hawaii on the assessments, right, Mr. Kame'enui--
Oregon. Excuse me. Oregon. Hawaiian name, Oregon resident.
    So, apparently, it was not quite the crystal clear work in 
a lot of people's minds, but there was enough subterfuge--and 
it is outlined very clearly, if you want to read the trail, in 
the inspector general's report, the process that was used--to 
get it up and get it running, and it carries, again, conflicted 
recommendations because of the people's financial interests and 
personal interests and intellectual interests in the 
assessments that they were reviewing.
    On the expert review panels, the inspector general makes it 
very clear, that Congress was very clear about the kind of 
participation they expected and the impartiality that they 
expected. That was completely overridden, and even when it was 
brought to your attention, Mr. Doherty, and you somehow figured 
to set up your independent review of that which never came into 
place, it went forward. So then we had conflicted review 
panels.
    When it was suggested to you that there was an ethical 
problem, you did not take the advice of the general counsel's 
office. You went your own way. So you did not ask people that 
question that would have revealed. You did not look at their 
resumes to see whether or not you had conflicted individuals on 
these panels that were making determinations about other 
people's intellectual property, about other people's work, 
about determinations by school districts and others about those 
products. You chose to violate the law.
    You do not get to do that in this country because people 
rely on the law. School districts rely on the law. Families 
rely on the law. That is what people do, and you do not get to 
override that, but the fact of the matter is that you did.
    Then when the guidance was produced, the guidance, as we 
now see, was a front. It was a front for your little inside 
game. If you went to the guidance, it looked like it was on the 
level. If you went the other way, what you saw is that 
districts and individuals were being bashed off the record. 
Over and over and over again, they were being bullied. They 
were being bullied until they came into compliance with your 
vision of what Reading First should be.
    You know, we were very particular when we wrote this law 
because we understood the history of what somebody referred to 
as the reading wars. You were on the school board at about the 
time it almost engulfed our entire state. So we knew what was 
at stake. That is why we asked for that kind of broad 
participating and impartiality. That is why the law was there, 
for that exact reason, so zealots would not run off with this 
and destroy the program. That is why the law was there.
    I think you have to understand that, that we did not see 
that the academies were interested parties, were going out with 
guidebooks from the official government that carried one puff 
piece in it--one puff piece--authored by three people sitting 
at this table, three people who are getting royalties from some 
part of that work, three people who will continue to get 
royalties because some of this is in as many as 40 states. That 
sounds like a criminal enterprise to me. That sounds like an 
inside job.
    Fortunately, I think maybe Reading First has survived that, 
but, again, that is not the test. That is not the test for this 
committee. It is not the test for the IG. It is not the test 
for the department. The question is whether or not this program 
has been operated within the law. The IG suggested it has not 
been and strongly suggested it has not been. I think that when 
we put this evidence together, we may join you in those 
criminal referrals because something is very wrong here.
    Something is very, very wrong when a small group of people 
can direct and engage in the activities that were engaged here 
on behalf of a few programs and browbeat states and browbeat 
educational officers in those states and even go in after plans 
were approved and get people to give up programs or to change 
all in the name of some kind of intellectual adherence to the 
scientifically based reading programs, that that was the test 
that would be used.
    Yet we see even those who complied, if they were not part 
of the party, actions were taken against them, and then we see 
those who were excluded are now in The What Works list. 
Something is very wrong here.
    As to the suggestion that somehow this was all evidence 
driven, that this was all scientifically studied and that was 
the only concern, I have to think the IG has given us a record 
that suggests very strongly that pocketbooks and self-interests 
and future interests overwhelm the idea that this was to be 
somehow just scientifically based.
    You know, we took a lot of ridicule from people because we 
put that term in the law so many times because, you now, we 
knew what we were doing in changing the direction, we knew it 
was without controversy, and then we come along and see the 
very adherents of this program--from Mr. Lyons on down and 
tragically, I think, up into the department--we see the very 
adherents of that effort, that change, that, ``reform'' in your 
mind that somehow took it and prostituted it in its 
implementation beyond all recognition.
    Yes, the outcomes apparently are going to be okay, but I 
dare say this is not how in the land of laws you get to that 
result, and, I cannot tell you how dismaying this is. This was 
a huge decision by the Congress to dedicate this level of 
resources for this particular purpose, essentially a $1 billion 
rifle shot year after year, trying to meet the desires and the 
hopes of this nation that our children would reach reading 
proficiency at an early age, and to see that program scrambled 
in the manner in which you have done here is just unbelievable.
    I want to thank all of the members of the committee for 
their participation. It has been a long day.
    I want to thank Mr. McKeon and his staff for their help 
during the preparation for this hearing, and as I said earlier, 
I look forward to working with you on the changes that need to 
be made in the law.
    Thank you to all of the witnesses for appearing.
    Members will have 14 days to insert comments into the 
hearing record, and with that, the committee will stand 
adjourned.
    Thank you.
    [The prepared statement of Mr. Altmire follows:]

Prepared Statement of Hon. Jason Altmire, a Representative in Congress 
                     From the State of Pennsylvania

    Thank you, Mr. Chairman, for having this important hearing on the 
mismanagement of and potential conflicts of interest in the Reading 
First program.
    As members of the committee know, Reading First is a $1 billion a 
year program designed to ensure that all students are able to read at 
grade level by the end of third grade. Unfortunately, funds from the 
program were not used in an entirely appropriate manner and I am deeply 
concerned about how this mismanagement came about.
    A large part of the problem stems from a lack of Congressional 
oversight from this committee over the past six years. Without review, 
Reading First was mismanaged for much longer than would have been 
allowed to had appropriate Congressional oversight been occurring. That 
is why I am pleased with Chairman Miller's leadership and applaud him 
for making oversight of programs in the Department of Education a 
priority of this committee. By doing so, he has brought the issues of 
Reading First to light.
    Thank you again, Mr. Chairman, for your leadership on this issue. I 
yield back the balance of my time.
                                 ______
                                 
    [Responses from Mr. Higgins to questions posed by Mr. 
Miller follow:]

                   Office of the Inspector General,
                              U.S. Department of Education,
                                                    Washington, DC.
Hon. George Miller, Chairman,
Education and Labor Committee, U.S. House of Representatives, 
        Washington, DC.
    Dear Chairman Miller: Thank you and your colleagues on the 
Committee on Education and Labor for inviting me to participate in the 
April hearing on the Reading First program. I appreciated the 
opportunity to discuss the work my office has conducted in this area. 
Below you will find my office's responses to the questions posed by 
Committee members in response to my testimony and that of the other 
hearing participants. Please know that my staff and I are available if 
you have any additional questions, or require more information.

    (1) Should more than four groups be involved in the expert review 
panel?

    We believe that identifying more groups to be involved in the 
expert review panel would improve the process, because it would provide 
a broader base from which to select panel members without affiliations 
or connections to the matters that would come before them. It is also 
critical that the U.S. Department of Education (Department) abide by 
the law's requirement to involve identified groups in the process.

    (2) Does the statute require more stringent language regarding 
conflict of interest?

    We believe the conflict of interest language proposed in HR 1939 
adequately addresses the screening concern; however, it does not 
adequately provide an approach for resolving identified conflicts of 
interest for staff and contractors.

    (3) Who in the Department approved the final printing of the 
guidebook/handbook?

    We reviewed our records, inquired with the contractor and the 
Department and found that Susan Neuman, in her capacity as the 
Assistant Secretary of the Office of Elementary and Secondary Education 
(OESE), oversaw the review and approval process for the final printing 
of the handbook and guidebook. Further, during the course of our work, 
we interviewed Ms. Neuman, who indicated that she was the ultimate 
arbiter for decisions made concerning the presentations at the Reading 
Leadership Academies, which formed the basis of the materials included 
in the handbook and guidebook.

    (4) Does OIG have any other suggestions for amending the Reading 
First statute?

    In addition to the conflict of interest language proposed in HR 
1939, we suggest that the Congress clarify whether individual reading 
programs need to show scientific evidence of effectiveness in order to 
be eligible for funding under Reading First.

    (5) Mr. Doherty stated in his written statement and in his oral 
testimony that he was only following the direction of his superiors and 
that he did nothing without their knowing.
    What is the official/unofficial chain of command? Who were 
Doherty's superiors and what role did they play in directing Doherty?

    The chain of command at the time of the Reading Leadership 
Academies appears to be listed on a page in the back of the Handbook 
which reads as follows: Secretary Rod Paige; Counsel to the Secretary 
Susan Schlafani; Senior Advisor to the Secretary Beth Ann Bryan; 
Special Assistant to the Deputy Secretary Mike Petrilli; Assistant 
Secretary of OESE Susan Neuman; Acting Deputy Assistant Secretary Joe 
Conaty; Acting Deputy Assistant Secretary Tom Corwin; Chief of Staff to 
the Deputy Secretary Carolyn Snowbarger; Special Assistant Kerri 
Briggs; Reading First Director Chris Doherty; Reading First Senior 
Program Specialist Sandy Jacobs; and the remaining staff that assisted 
them. I have attached a copy of the Handbook page for your review.
    Subsequent to the Reading Leadership Academies, Susan Neuman 
resigned from the Department and Mr. Doherty reported to Ray Simon in 
his capacity as Assistant Secretary of OESE before Mr. Simon became 
Deputy Secretary. When Ray Simon became Deputy Secretary and Henry 
Johnson replaced him as Assistant Secretary of OESE, Doherty reported 
to both Mr. Simon and Mr. Johnson.
    As for the role of and direction given to Mr. Doherty by his 
superiors, this is a question that is more appropriate for the 
Department to address, as we do not have this information.

    (6) Inspector General Higgins mentioned that the OIG made referrals 
to DOJ. We are aware of the Doherty referral, but request the number 
and names for other referrals resulting from the OIG's work leading up 
to the hearing.

    As this information is confidential, I can, here, only confirm the 
statement I made during the testimony that my office has made more than 
one referral. We have provided more detailed information to Committee 
staff in a confidential discussion.
    Thank you again for convening the hearing on this very important 
issue.
            Sincerely,
                                       John P. Higgins, Jr.
                                 ______
                                 
    [Internet address to Department of Education IG report, 
``The Reading First Program's Grant Application Process, Final 
Inspection Report'' (Microsoft Word document) follows:]

http://www.ed.gov/about/offices/list/oig/aireports/i13f0017.doc

    [Internet address to Department of Education IG report, 
``RMC Research Corporation's Administration of the Reading 
First Program Contracts, Final Audit Report'' (Microsoft Word 
document) follows:]

http://www.ed.gov/about/offices/list/oig/auditreports/a03f0022.doc

    [Internet address to Department of Education IG report, 
``The Department's Administration of Selected Aspects of the 
Reading First Program, Final Audit Report'' (Microsoft Word 
document) follows:]

http://www.ed.gov/about/offices/list/oig/auditreports/a03g0006.doc

    [Internet address to Department of Education IG report in 
the form of a letter, dated January 18, 2007, ``Review of the 
Georgia Reading First Program--Final Audit Report'' (Microsoft 
Word document) follows:]

http://www.ed.gov/about/offices/list/oig/auditreports/a04g0003.doc

    [Internet address to Department of Education IG report, 
``Audit of New York State Education Department's Reading First 
Program, Final Audit Report'' (Editor's Note: very large 
Microsoft Word document) follows:]

http://www.ed.gov/about/offices/list/oig/auditreports/a02g0002.doc

    [Internet address to Department of Education IG report in 
the form of a letter, dated October 20, 2006, ``Wisconsin 
Department of Public Instruction's Reading First Program--Final 
Audit Report'' (Microsoft Word document) follows:]

http://www.ed.gov/about/offices/list/oig/auditreports/a05g0011.doc

                                 ______
                                 
    [Questions submitted to witnesses by Mr. Scott follow:]

                  Committee on Education and Labor,
                             U.S. House of Representatives,
                                    Washington, DC, April 30, 2007.
Christopher J. Doherty,
Baltimore, MD.

Deborah C. Simmons,
Department of Educational Psychology, Texas A&M University, College 
        Station, TX.

Edward J. Kame'enui,
Commissioner, National Center for Special Education Research, 
        Washington, DC.

Roland Good,
College of Education, University of Oregon, Eugene, OR.

    Dear Mr. Doherty, Dr. Simmons, Dr. Kame'enui, Dr. Good: Thank you 
for testifying at the April 20, 2007 full Committee hearing titled 
``Mismanagement and Conflicts of Interest in the Reading First 
Program.''
    Representative Robert Scott (D-VA), has asked that you respond in 
writing to the following questions:
    1) How much money, directly or indirectly, have you, your 
employers, your business partners, or your family members received from 
the DIBELS assessment system, including, but not limited to, the costs 
of scoring tests and the purchasing of DIBELS-related technology?
    2) Are you aware of any political contributions made by you, your 
employer, your business partners, or your family members since 2001? If 
so, please list such contributions.
    Please send an electronic version of your written response to the 
question to Sarah Dyson of the Committee staff at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9ae9fbe8fbf2b4fee3e9f5f4daf7fbf3f6b4f2f5efe9ffb4fdf5ec">[email&#160;protected]</a>, by COB on Friday, May 4--the date on which 
the hearing record will close. If you have any questions, please 
contact Sarah at (202)226-9403. Once again, we greatly appreciated your 
testimony at this hearing.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 
    [Responses to Mr. Scott's questions from Mr. Doherty 
follow:]

      Responses to Congressman Scott's Questions From Mr. Doherty

Response to Question 1
    Neither I nor any family members have received any money, directly 
or indirectly, from any aspect of the DIBELS assessment system. My 
employer from 2002-2006 was the Federal government. Neither my employer 
in 2001 nor my current employer received or currently receive any money 
from the DIBELS assessment system. I do not have any business partners.
Response to Question 2
    To the best of my recollection, I personally have made four 
political contributions from 2001-2006. They are: two contributions to 
George W. Bush, for an approximate total of several hundred dollars; 
one contribution to Connecticut representative Rob Simmons for one 
hundred dollars; and one contribution to a candidate for the Maryland 
House of Delegates, Andy Smarick, for fifty dollars.
    These figures are to the best of my memory; in order to meet your 
deadline of Friday, May 4th I am submitting these now but I have not 
located the exact records to fully corroborate these figures.
    No member of my immediate family member has made any political 
contributions from 2001 to the present. My employer from 2002-2006 was 
the Federal government. My employer in 2001 made no political 
contributions. My current employer is a philanthropic foundation and, 
to the best of my knowledge, does not make and cannot make any 
political contributions. I have not had any business partners from 2001 
to the present.
                                 ______
                                 
    [Responses to Mr. Scott's questions from Dr. Kame'enui 
follow:]

                                                       May 4, 2007.
Hon. George Miller, Chairman,
Committee on Education and Labor, U.S. House of Representatives, 
        Washington, DC.
    Dear Chairman Miller: In this letter, I provide my responses in 
writing to the questions from Representative Robert Scott (D-VA) that 
you posed in your letter dated April 30, 2007. Each question and my 
responses are provided below.
Question #1:
    1. How much money, directly or indirectly, have you, your 
employers, your business partners, or your family members received from 
the DIBELS assessment system, including, but not limited to, the costs 
of scoring tests and the purchasing of DIBELS related technology?
Response:
    Neither I nor any members of my family have received any money, 
directly or indirectly, from the DIBELS assessment system, including, 
but not limited to the costs of scoring tests and the purchasing of 
DIBELS related technology. I do not own a business, and thus, do not 
have a business partner. If, however, the question relates to 
individuals with whom I have had scholarly partnerships with, then that 
would include Deborah Simmons and Roland Good. I do not have any 
personal knowledge about whether either has received money from the 
DIBELS assessment system. Because of his role in developing DIBELS, I 
do know that Dr. Good receives royalties but I do not know the 
specifics of any such arrangements.
    My employer is the University of Oregon (Oregon University System). 
The University of Oregon (UO) operates a web-based data system designed 
to analyze the DIBELS assessment data via the internet. School 
officials (typically teachers) enter the data obtained from the DIBELS 
assessment battery into a website. Once the data are entered, school 
officials choose an array of reports that automatically analyzes the 
DIBELS data for each child and tells school officials who needs reading 
support and why. The charge for this service is $1.00 per child per 
year. All revenues obtained from what is typically referred to as the 
``DIBELS Data System,'' are received and managed for the UO through the 
Institute for the Development of Educational Achievement (IDEA). I have 
served as Director of IDEA since 1995. As Director, I do not receive 
any income, revenue or financial support from the DIBELS Data System or 
from IDEA. At all times I only received my normal salary as a tenured 
professor at the University.
Question #2:
    2. Are you aware of any political contributions made by you, your 
employer, your business partners, or your family members since 2001? If 
so, please list your contributions.
Response:
    To the best of my recollection, I made a contribution in 2002 of 
approximately $100 to Ted Kulongoski's Democratic gubernatorial 
campaign. Since 2001, my former wife, Brenda Johnson Kame'enui, has 
contributed $60 a year to the Oregon Education Association's political 
action committee. In 2005, she contributed $75 to Dollars for 
Democrats. I am not aware of any other political contributions that my 
employer (the University of Oregon and the Oregon University System), 
my family members or I have made since 2001.
            Sincerely,
                                       Edward J. Kame'enui.
                                 ______
                                 
    [Responses to Mr. Scott's questions from Dr. Simmons 
follow:]

                                  College Station, TX, May 4, 2007.
Hon. George Miller, Chairman,
Education and Labor Committee, U.S. House of Representatives, 
        Washington, DC.

Re: Response to Committee's Request dated April 30, 2007.

    Dear Chairman Miller: The correspondence for Chairman George Miller 
requested the following information and I respond as follows:
    1. How much money, directly or indirectly, have you. your 
employers, your business partners. or your family members received from 
the DIBELS assessment system including, but not limited to, the costs 
of scoring tests and the purchasing of DIBELS related technology?

    Response: Neither I nor family members have received income from 
the DIBELS assessment system. I do not have information to be able to 
answer this question about other individuals or entities. I am not an 
author of DIBELs and earn no royalties from DIBELS.

    2. Are you aware of any political contributions made by you, your 
employer, your business partners, or your family members since 2001? lf 
so, please list such contributions.

    Response: Neither I nor family members have made political 
contributions since 2001 and am not aware of campaign contributions of 
other individuals and entities listed in your request.
            Sincerely,
                                        Deborah C. Simmons.
                                 ______
                                 
    [Committee letters to witnesses follow:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    [Transcript edits received from Dr. Kame'enui follow:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    [Transcript edits received from Dr. Simmons follow:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    [Follow-up testimony from Ms. Lewis follows:]

      Follow-Up Testimony of Starr Lewis, Associate Commissioner,
   Office of Teaching and Learning, Kentucky Department of Education

    As I mentioned during my testimony on April 20, 2007, I had not 
seen any of our Expert Panel review forms until I received them from 
Ryan Holden on April 19, 2007. I had requested to speak with our Expert 
Panel members or to see their comments during our application process, 
but I was told by Chris Doherty that we would not be allowed to speak 
to panel members or know their identities and that we could not see 
their actual reviews. On April 19, 2007 I received two forms labeled 
Reading First Panel Chair Summary Forms and three forms labeled 
Technical Review Form Summary Sheets. Attached is a chart that compares 
the information included in the five forms with the three Expert Review 
Team Reports we received from Reading First staff.
    As one can see from the chart, there are discrepancies between the 
information on the Expert Panel forms and the staff summaries. 
Furthermore, it is impossible to know which form applies to a 
particular submission. In any case, if there were four members to each 
panel, we should have received four Technical Review Forms per 
submission and one Reading First Panel Chair Summary Form per 
submission. The forms provided by staff represent only a fraction of 
the documentation that should be available.
    Also, the discrepancies between the panel members' forms and the 
staff summaries might suggest that there was some discussion between 
staff and panel members, but again, one would reasonably expect some 
documentation of those discussions.
    Since I had to leave before the end of the hearing, I would like to 
take this opportunity to respond to Representative Sarbanes' question 
that he said he would have liked to ask me. He said he would ask me to 
reflect on and discuss the impact on morale in the field since we had 
made a ``good faith presentation'' not realizing the impact of the 
process on funding decisions. I must say that it was discouraging at 
the time because so much effort and time went into the repeated 
revisions and resubmissions. My staff members and I spent an inordinate 
amount of time and talent on this process, time and competence that 
could have spent on more productive work.
    After seeing the discrepancies between the panel member comments 
and the staff summaries, I am even more discouraged. I would ask 
members to give particular attention to the Technical Review Form 
Summary Sheet with Review Code C4. On that form, eight ratings were 
changed, by whom I have no way of knowing. Six ratings were changed 
from ``Meets Standard'' to ``Does Not Meet.'' One was changed from 
``Meets Standard'' to ``Exemplary.'' One was changed from ``Meets 
Standard'' to ``Does Not Meet Standard.'' I would also ask members to 
notice that the original rating from C4 on the standard related to 
Instructional Assessments, the standard that repeated caused us not to 
receive funding, was ``Meets Standard.''
    Much of the discussion during the hearing was focused on how to 
improve the process in the future. My hope is that the process will be 
transparent and open and that states will have access to panel members.
    Again, I thank the Committee for the opportunity to share 
Kentucky's experience related to Reading First.
    During the Reading First application process starting in June 2002 
through final approval of the application in April 2003,the Kentucky 
Department of Education received three Reading First State Application 
Review-Kentucky Expert Review Team Reports. In the chart below, a 
comparison of discrepant statements found in those reports and the 
technical review panel and panel chair summary sheets provided to the 
Kentucky Department of Education in April 2007.
    It is important to note that in April 2007 only two Reading First 
Panel Chair Summary Forms were provided and only the final review was 
stamped with a date and time (April 10, 2003 12:03). Therefore, it is 
difficult to determine which Kentucky Reading First submission is 
reflected in the comments on the Technical Review Form Summary Sheets 
because no date is recorded. All comments on the three summary sheets 
appear to reflect only the first or second submission. One other note 
of interest is that on the front of all forms provided (both Panel 
Chair Summary Forms and Technical Review Forms) a typed notation (b)(6) 
was entered into a small box where the Panel Chair or Reviewer was to 
provide a signature. No explanation of this notation was provided, but 
page 6, item b states ``Providing evidence that assessments are valid 
and reliable and are aligned with the instructional program.''

 
----------------------------------------------------------------------------------------------------------------
                                                                       Reading First Panel Chair Summary Form 4A
                           Reading First State Application Review-      and 4 (fourth review and the Technical
   Section/Criterion     Kentucky Expert Review Team Report provided   Review Form Summary Sheet (Identified as
                           to KDE by Chris Doherty and Sandy Jacobs         Reviewer Codes C4, 4D, and 4E)
----------------------------------------------------------------------------------------------------------------
I. Improving Reading     First Submission                             Criteria for evaluation of content were
 Instruction--District   ``* * * the proposal does not provide         not a part of the rubric for this
 and School Based         criteria for evaluation the content of       section, and the comment was not
 Professional             district and school based professional       reflected in the summary statements.
 Development--            development plans * * *''
State Outline and        Second Submission                            Reviewer Code 4E stated ``quotes concepts
 Rationale for Using     Concern about independent reading-comments    that are not supportive of SBRR"-no
 Scientifically Based     that the Reading Panel meant repeated oral   specific examples were provided
 Reading Research         reading with feedback and guidance-not
                          independent reading
Instructional            Second Submission                            Found no reference by reviewers or panel
 Strategies and          ``The review team noted that these two sets   chair to these two sets of standards.
 Programs                 of standards [IRA Standards and the         No comments from reviewers or panel chair
                          Children's Literacy Rights] are more         mentioned submission of a sub-grant in
                          global, resulting in a disconnect * * *''    this criterion. However, the panel chair
                         Second Submission                             (4A) states in the Instructional
                         ``The review team encourages the State to     Materials criterion ``Require sub-grant
                          consider submitting a draft sub-grant        selection procedure to indicate how * *
                          application. The team is aware that this     *'' and Reviewer Code 4E indicated,
                          is not a requirement, but feels it may       ``selection of programs-matrix needs
                          help to demonstrate how the sub-grant        criteria.''
                          selection process will result in selected   It is worth noting that the criterion
                          schools meeting the requirements related     related to sub-grants always met standard
                          to instructional strategies and programs,    and Reviewer Code 4D indicated the
                          which is necessary to satisfy this           process is ``clear and concise--very easy
                          criterion.''                                 to understand.''
Instructional Materials  Second Submission                            No reference to decodable texts found in
                         ``The team also noted that the matrix does    any of the comments.
                          not include decodable texts.''
District and School      Second Submission                            Reviewer Code C4 states in the
 Based Professional      ``* * * the review team found the criteria    Instructional Materials criterion, ``TA
 Development              the State will expect to see in sub grant    will be needed to understand how to layer
                          applications to lack an intense focus on     programs and determine how they work
                          scientifically based reading research and    together to meet the needs of diverse
                          expressed concern that training in           learners.''
                          scientifically based reading instruction    Reviewer Code 4D noted ``? bii (SBRR)'' as
                          will be layered on top of existing           a comment. Bii refers to the rubric
                          programs.''                                  statement at the top of page 10 * * *
                         ``The content is not entirely focused on      implementing scientifically based
                          the five essential components and            instructional materials, programs, and
                          scientifically based materials, programs     strategies. However, no specific topics
                          and strategies, as topics such as            were offered as examples on this reviewer
                          literature circles and leveled text are      comment page or any other reviewer
                          also included.''                             comments.
----------------------------------------------------------------------------------------------------------------
II. State Leadership     ...........................................  ..........................................
 and Management
----------------------------------------------------------------------------------------------------------------
III. State Reporting     All reports reflect all criteria to the      ..........................................
 and Evaluation           State's reporting and evaluation
                          strategies met standards.
----------------------------------------------------------------------------------------------------------------
IV. Classroom Level      Second Submission                            The terms ``decodable text, predicting,
 Impact                  ``* * * the review team still found a         context clues'' are not found in any
Key Reading First         disconnect between classroom instructional   comment. Reviewer Code C4 states, ``The
 Classroom                activities and scientifically based          summary provided under phonics for
 Characteristics          reading research in the table that           Kentucky RF classrooms describes a
                          connects grade expectations, program of      practice that SBRR indicates is not the
                          studies and core content for assessment.     most effective way to teach phonics.''
                          The benchmarks are appropriate, but do not
                          appear to match with all of the
                          corresponding activities. For example,
                          there is no mention of decodable text. The
                          focus is on predicting and using context
                          clues.''
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
    [Whereupon, at 2:19 p.m., the committee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
